<html>
<title> - JOINT LEGISLATIVE HEARING ON H.R. 5395, TO ESTABLISH MARINE AND FRESHWATER RESEARCH, DEVELOPMENT, AND DEMONSTRATION PROGRAMS TO SUPPORT EFFORTS TO PREVENT, CONTROL, AND ERADICATE INVASIVE SPECIES, AND H.R. 5396, TO AMEND THE NONINDIGENOUS AQUATIC NUISANCE PREVENTION AND CONTROL ACT OF 1990</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





                        H.R. 5395 and H.R. 5396

=======================================================================

                       JOINT LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                           WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES

                                and the

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                                 of the

                          COMMITTEE ON SCIENCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           November 14, 2002

                               __________

                      Resources Serial No. 107-158
                       Science Serial No. 107-81

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

82-806              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CONSTANCE A. MORELLA, Maryland       BART GORDON, Tennessee
CHRISTOPHER SHAYS, Connecticut       JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
JOE BARTON, Texas                    LYNN C. WOOLSEY, California
KEN CALVERT, California              LYNN N. RIVERS, Michigan
NICK SMITH, Michigan                 ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         SHEILA JACKSON LEE, Texas
VERNON J. EHLERS, Michigan           BOB ETHERIDGE, North Carolina
DAVE WELDON, Florida                 NICK LAMPSON, Texas
GIL GUTKNECHT, Minnesota             JOHN B. LARSON, Connecticut
CHRIS CANNON, Utah                   MARK UDALL, Colorado
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       ANTHONY D. WEINER, New York
FRANK D. LUCAS, Oklahoma             BRIAN BAIRD, Washington
GARY G. MILLER, California           JOSEPH M. HOEFFEL, Pennsylvania
JUDY BIGGERT, Illinois               JOE BACA, California
WAYNE T. GILCHREST, Maryland         JIM MATHESON, Utah
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MIKE PENCE, Indiana                  MICHAEL M. HONDA, California
FELIX J. GRUCCI, JR., New York
MELISSA A. HART, Pennsylvania
JOHN SULLIVAN, Oklahoma
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
CONSTANCE A. MORELLA, Maryland       JAMES A. BARCIA, Michigan
CHRISTOPHER SHAYS, Connecticut       LYNN N. RIVERS, Michigan
CURT WELDON, Pennsylvania            ZOE LOFGREN, California
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             ANTHONY D. WEINER, New York
CHRIS CANNON, Utah                   BRIAN BAIRD, Washington
FELIX J. GRUCCI, JR., New York       JOSEPH M. HOEFFEL, Pennsylvania
MELISSA A. HART, Pennsylvania        JOE BACA, California
WAYNE T. GILCHREST, Maryland         JIM MATHESON, Utah
J. RANDY FORBES, Virginia            RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                PETER ROONEY Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
                 ERIC WEBSTER Professional Staff Member
      CAMERON WILSON Professional Staff Member/Chairman's Designee
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
                ELYSE STRATTON Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 14, 2002................................     1

Statement of Members:
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois..........................................     7
    Ehlers, Hon. Vernon J., a Representative in Congress from the 
      State of Michigan..........................................     5
        Prepared statement of....................................     6
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Ortiz, Hon. Solomon P., a Representative in Congress from the 
      State of Texas, prepared statement of......................    46
    Underwood, Hon. Robert A. a Delegate in Congress from Guam...     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Brown, Captain Michael W., Chief, Office of Operating and 
      Environmental Standards, Coast Guard, U.S. Department of 
      Transportation.............................................    20
        Prepared statement of....................................    21
    Cangelosi, Allegra, Senior Policy Analyst, Northeast-Midwest 
      Institute..................................................    54
        Prepared statement of....................................    56
    Chavarria, Dr. Gabriela, Policy Director for Wildlife 
      Management, National Wildlife Federation...................    47
        Prepared statement of....................................    49
    Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans 
      and Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    14
        Prepared statement of....................................    16
    Mann, Dr. Roger, Professor, School of Marine Science, 
      Virginia Institute of Marine Science.......................    62
        Prepared statement of....................................    64
    Ruiz, Dr. Gregory M., Senior Scientist, Smithsonian 
      Environmental Research Center..............................    22
        Prepared statement of....................................    24
    Williams, Steve, Director, Fish and Wildlife Service, U.S. 
      Department of the Interior.................................     8
        Prepared statement of....................................    10
    Windle, Dr. Phyllis N., Senior Scientist, Union of Concerned 
      Scientists.................................................    66
        Prepared statement of....................................    68

 
    JOINT LEGISLATIVE HEARING ON H.R. 5395, TO ESTABLISH MARINE AND 
FRESHWATER RESEARCH, DEVELOPMENT, AND DEMONSTRATION PROGRAMS TO SUPPORT 
 EFFORTS TO PREVENT, CONTROL, AND ERADICATE INVASIVE SPECIES, AND H.R. 
   5396, TO AMEND THE NONINDIGENOUS AQUATIC NUISANCE PREVENTION AND 
                          CONTROL ACT OF 1990

                              ----------                              


                      Thursday, November 14, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                 Committee on Resources, joint with the

         Subcommittee on Environment, Technology, and Standards

                          Committee on Science

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee on Fisheries, 
Conservation, Wildlife, and Oceans], presiding.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning. The Subcommittee will come to 
order.
    What I think we will do right off the bat is--there are 
plenty of seats up here on this dias, so all the people who are 
standing, if you would not mind, could you come up and sit in 
these chairs. Please sit wherever you like.
    For those of you who are just coming in, we have some seats 
up here on the lower dias. You are welcome to come up and sit 
down. There are six or seven seats left, and it might be better 
than standing in the back. Please come on up and sit in the 
seats.
    Good morning. I want to welcome our witnesses and thank 
them for testifying this morning.
    We are holding this hearing on two bills, H.R. 4395 and 
H.R. 5396, bills that combine to reauthorize the Nonindigenous 
Aquatic Nuisance Prevention and Control Act.
    I am pleased that the Science Committee and one of its 
distinguished Chairmen, Mr. Ehlers, has joined the Subcommittee 
this morning. We also welcome Judy Biggert to the dias and my 
good friend Robert Underwood traveled here all the way from 
Guam for this Subcommittee hearing.
    The two bills deal with the overall comprehensive aspect of 
the problem of invasive species, not only setting standards and 
deadlines and infrastructure to pursue the problem, but will 
deal with the necessary research to come up with the right 
kinds of conclusions.
    Before those conclusions are settled, though, we want to 
come up with interim guidelines to more aggressively pursue 
what just about everybody concludes is a pretty serious 
problem.
    During this reauthorization process, the proponents of this 
legislation would like the appropriate Federal agencies to--and 
most of us are proponents of this legislation, so we direct 
these questions toward the people at the witness table at this 
point--we would like the appropriate Federal agencies to 
consider other vectors and pathways of invasive species 
introduction besides ballast water; strengthen ballast water 
management regulations by expanding them to a national scale; 
establish guidelines and a timeframe to allow for other methods 
of ballast water management besides ballast water exchange; and 
expand the research, development, and demonstration projects 
designed to develop methods and treatment tools for detecting, 
preventing, controlling, and eradicating aquatic invasive 
species.
    The bills before us are consensus documents. They have been 
developed with input from the scientific, environmental, 
shipping communities and the affected Government agencies. We 
understand that the bills are not perfect, and this hearing is 
the first step to modify and improve them so that we can 
strengthen environmental protections, alleviate the impact of 
invasive species, and still maintain a vibrant and prosperous 
shipping industry.
    Today our two Subcommittees will hear from representatives 
of nonprofit organizations and from the administration. I look 
forward to the testimony that we will hear this morning, and I 
look forward to moving in a way that is responsible but with 
all deliberate speed to try to understand and then implement 
the necessary protocols.
    At this point, I will yield to the gentleman from Guam, Mr. 
Underwood.
    [The prepared statement of Mr. Gilchrest follows:]

Statement of the Hon. Wayne T. Gilchrest , a Representative in Congress 
                       from the State of Maryland

    Good morning, I want to welcome our witnesses and thank them for 
testifying. We are holding this hearing on two bills, H.R. 5395 and 
H.R. 5396, bills that combine to reauthorize the Nonindigenous Aquatic 
Nuisance Prevention and Control Act. I am pleased that the Science 
Committee and one of its distinguished Chairmen, Vernon Ehlers, have 
joined with our subcommittee in this effort. H.R. 5395, introduced by 
Congressman Ehlers, addresses the research, development and control 
programs to eradicate invasive species, while H.R. 5396, which I 
introduced, addresses the regulatory framework and priorities of 
invasive species control. The latter bill revisits the regulations 
concerning ballast water discharges - the major source of aquatic 
invasive species to our Nation's waters.
    Invasive species are widely recognized as a primary threat to 
environmental health and are capable of substantially disrupting the 
balance of the world's aquatic and terrestrial ecosystems. The 
scientific community has long recognized the magnitude of this problem, 
and Capitol Hill has also recognized it, by enacting legislation such 
as the Nonindigenous Aquatic Nuisance Prevention and Control Act of 
1990. This Act, and the National Invasive Species Act, which 
reauthorized it in 1996, have served as the cornerstone of aquatic 
invasive species management. While these were vitally important first 
steps, several problems exist with this legislation and invasive 
species are far from being under control. We have not gone far enough 
and we have not done enough to adequately address the extent and 
severity of this problem.
    During this reauthoriztion process, the proponents of this 
legislation would like the appropriate Federal agencies to:
    <bullet> consider other vectors and pathways of invasive species 
introductions besides ballast water,
    <bullet> strengthen ballast water management regulations by 
expanding them to a National scale,
    <bullet> establish guidelines and a timeframe to allow for other 
methods of ballast water management besides ballast water exchange, and
    <bullet> expand the research, development, and demonstration 
projects designed to develop methods and treatment tools for detecting, 
preventing, controlling and eradicating aquatic invasive species.
    The bills before us are consensus documents. They have been 
developed with input from the scientific, environmental, shipping, 
communities and the affected governmental agencies. We understand the 
bills are not perfect and this hearing is the first step to modify and 
improve them, so that we can strengthen environmental protections, 
alleviate the impact of invasive species, and still maintain a vibrant 
and prosperous shipping industry.
    Today, our two subcommittees will hear from representatives from 
non-profit organizations and from the Administration. I look forward to 
hearing from all of our witnesses and working with them as we move 
through this process.
                                 ______
                                 

STATEMENT OF THE HON. ROBERT A. UNDERWOOD, A REPRESENTATIVE IN 
                       CONGRESS FROM GUAM

    Mr. Underwood. Good morning, and thank you, Mr. Chairman. I 
appreciate that you have scheduled this important hearing with 
our colleagues from the Science Committee.
    I am confident that our witnesses today will provide 
valuable insights regarding how we might best strengthen our 
Nation's capabilities to better combat the influx of 
noninvasive, non-native species harming our marine and 
freshwater environments.
    Islands in the Pacific region, including Guam, are rich 
with rare and endemic marine species. Several of the larger 
island chains, notably Coral Reef Sound and the Hawaiian 
Islands, are blessed with extraordinary species diversity.
    Regrettably, our unique and culturally significant natural 
heritage is under constant siege. Many species have been lost 
due to the intentional release or unintentional introduction of 
aquatic nuisance pests. Sadly, the future prospect is 
pessimistic.
    Additional scientific research development of a rapid-
response capability, better financial and technical assistance 
to support local control efforts, and more stringent measures 
to eliminate invasive species pathways are long overdue, but 
all are necessary to address the growing ecological and 
economic threat.
    This is why, Mr. Chairman, I remain excited by the prospect 
of H.R. 5396 and 5995, which seek to build upon the success of 
the Nonindigenous Aquatic Nuisance Species Prevention Act of 
1990 and the National Invasive Species Act of 1996. These two 
bills reflect a decade of accumulated field experience 
confronting aquatic nuisance species and the recommendations of 
the scientific community. They offer a realistic strategy to 
aggressively address our most critical scientific and 
operational needs.
    I am especially appreciative that you have included in H.R. 
5396 an expansion of the existing Brown Tree Snake Control 
Program, which has provided vital support to people in Guam. 
Unfortunately, there is little hope and even less time for the 
107th Congress to act on this legislation, and I implore you to 
keep that section in any new legislation in the 108th.
    Nevertheless, both bills serve as important starting points 
for constructive discussion in the 108th Congress. And with 
that last thought, before acting on this legislation, I urge 
you again, Mr. Chairman, to visit the Pacific region next year 
to gain a first-hand understanding of the challenges we face to 
control invasive species.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood, and we will do all 
we can--we will keep that section in the bill in the next 
Congress.
    Mr. Underwood. Thank you.
    [The prepared statement of Mr. Underwood follows:]

Statement of The Honorable Robert A. Underwood, a Delegate to Congress 
                               from Guam

    Good morning. Thank you, Mr. Chairman, I appreciate that you have 
scheduled this important joint hearing with our colleagues from the 
Science Committee.
    I am confident that our witnesses today will provide valuable 
insights concerning how we might best strengthen our Nation's 
capabilities to better combat the influx of non-native species harming 
our marine and freshwater environments.
    Islands in the Pacific Region, including Guam, are rich with rare 
and endemic marine and estuarine species. Several of the larger island 
chains, and notably coral reefs found in the Hawaiian Islands, are 
blessed with extraordinary species diversity.
    Regrettably, this unique and culturally significant natural 
heritage is under constant siege. Many species have been lost due to 
the intentional release or unintentional introduction of aquatic 
nuisance pests. Sadly, the future prospect is pessimistic.
    Additional scientific research, development of a rapid response 
capability, better financial and technical assistance to support local 
control efforts, and more stringent measures to eliminate invasive 
species pathways are long overdue. All are necessary to address this 
growing ecologic and economic threat.
    That is why, Mr. Chairman, I am excited by the potential of H.R. 
5396 and H.R. 5395, which seek to build upon the success of the 
Nonindigenous Aquatic Nuisance Species Prevention and Control Act of 
1990 and the National Invasive Species Act of 1996.
    These two bills reflect a decade of accumulated field experience 
confronting aquatic nuisance species and the recommendations of the 
scientific community. They offer a realistic strategy to aggressively 
address our most critical scientific and operational needs. I am 
especially appreciative that you have included in H.R. 5396 an 
expansion of the existing Brown Tree Snake Control Program which has 
provided vital support to my constituents in Guam.
    Unfortunately there is little hope and even less time for the 107th 
Congress to act on this legislation. Nevertheless, both bills serve as 
important starting points for constructive discussion in the 108th 
Congress.
    And with that last thought, before acting on this legislation, I 
urge you to visit the Pacific Region next year to gain first hand an 
understanding of the challenges we face to control invasive species. 
Thank you.
                                 ______
                                 
    Mr. Gilchrest. Mr. Ehlers?

  STATEMENT OF THE HON. VERNON J. EHLERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Ehlers. Thank you, Mr. Chairman.
    I would just add that I think it would be a marvelous thing 
to hold a field hearing in Guam at some point to look at the 
issues there. I am not sure that I would go, but I think it 
would be a great thing for you to do.
    I certainly want to thank you, Chairman Gilchrest, for 
holding this hearing so that we can hear the administration's 
thoughts as well as those of several outside witnesses on this 
legislation that you, Chairman Gilchrest, and I drafted, H.R. 
5395 and 5396. I appreciate your leadership in engaging the 
administration in a dialog about our legislation and also your 
willingness to make this a joint hearing between our two 
Subcommittees.
    Based on the reaction I have received to the legislation 
that we submitted, there is great approval and support among 
the citizens of this Nation for what we are trying to do here.
    During this Congress, the Chairman and I have found 
ourselves working together more often than not on issues shared 
by our respective Subcommittees. We have found common ground on 
Sea Grant reauthorization, oceans policy, climate change, and 
now on invasive species. In fact, we have worked so well 
together that Chairman Boehlert of the Science Committee and I 
added him to my Subcommittee because we wanted to be certain he 
had more than enough work to do.
    While this is billed as a joint hearing between our 
Subcommittees, it is really much more than that. This is really 
a joint effort by two Members who are passionate about enacting 
comprehensive and tough legislation to stop the invasion of 
alien species into our country.
    These are not illegal aliens in the sense of people 
sneaking into the U.S. from other countries, and these are not 
the little green aliens that Hollywood has made popular. These 
aliens are plants and animals, microorganisms and pathogens 
that come into our country aboard our ships, planes, cargo 
containers, agricultural and horticultural shipments, as well 
as other pathways.
    They invade and take hold of our native ecosystems and then 
cause enormous economic and environmental damage by, for 
example, harming crops and crowding out native species.
    Mitigating this damage and controlling and eradicating 
invasive species once they are established creates an 
intolerable economic burden on our society, a burden that has 
been estimated to cost $137 billion each year.
    Once these invasive species are established, they become 
the most persistent pollutant known to man--one without a half-
life and one that can reproduce and multiply unchecked. It is 
that burden that Chairman Gilchrest and I seek to mitigate by 
passing H.R. 5395 and 5396. These pieces of legislation focus 
on aquatic invasive species and follow an age-old adage: An 
ounce of prevention is worth a pound of cure. I probably should 
change that to a milligram of prevention is worth a kilogram of 
cure.
    If we spend millions preventing invasive species from 
entering the United States, we can avoid spending billions 
trying to control and manage them once they are here.
    But what will it take to get this legislation enacted next 
year? First, it is going to take continued commitment from 
Chairman Gilchrest, myself, Senators, and other key Members 
such as Mr. Baird and Mr. Hoekstra to push this legislation 
through Congress.
    Chairman Gilchrest and I will continue to lead this fight 
in the House, and we have agreed to reintroduce the bills the 
first day that Congress reconvenes next year. We received a 
promising sign of how important this is to Members of Congress 
when we obtained over 40 bipartisan cosponsors on the 
legislation with very little effort.
    Second, the administration will have to recognize that this 
legislation and this issue must be a priority. The harm caused 
by invasive species affects all Americans and, thanks to the 
now infamous snakehead fish, they are recognizing this threat.
    The administration should be actively engaged in not only 
making sure that passage of this legislation is a top priority 
but also that it is fully implemented once it is enacted. I, 
along with many of my colleagues, have been very frustrated by 
the lack of progress that the Coast Guard has made in 
implementing provisions of the National Invasive Species Act of 
1996.
    Third, the key constituencies affected by this 
legislation--State and local governments, the shipping, 
fishing, pet and aquaculture industries, and environmental 
groups--will have to help forge a consensus about these bills. 
These groups must realize that both of these bills are in the 
best long-term interest of all Americans, and that we must work 
together to achieve their enactment.
    The time has come for us to move this legislation forward. 
Invasive species do not respect political boundaries or time 
lines, and they are arriving here and multiplying even as we 
speak today.
    Thank you, Mr. Gilchrest. I look forward to working with 
you on this venture and many other joint ventures in the next 
Congress, and I also look forward to hearing from our witnesses 
today.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Ehlers.
    [The prepared statement of Mr. Ehlers follows:]

 Statement of Vernon J. Ehlers, a Representative in Congress from the 
                           State of Michigan

    I want to thank Chairman Gilchrest for holding this hearing so that 
we can hear the Administration's thoughts, and those of several outside 
witnesses, on the legislation that Chairman Gilchrest and I drafted--
H.R. 5395 and H.R. 5396. I appreciate his leadership in engaging the 
Administration in a dialogue about our legislation, and also his 
willingness to make this a joint hearing between our two subcommittees.
    During this Congress, Chairman Gilchrest and I have found ourselves 
working together more often than not on issues shared by our respective 
subcommittees. We have found common ground on Sea Grant 
reauthorization, oceans policy, climate change, and now on invasive 
species. In fact, we have worked so well together that Chairman 
Boehlert and I added him to my subcommittee because we wanted to be 
certain he had enough work to do! While this is billed as a joint 
hearing between our subcommittees, it is really more than that. This is 
really a joint effort by two Members who are passionate about enacting 
comprehensive and tough legislation to stop the invasion of alien 
species into our country.
    These are not illegal aliens in the sense of people sneaking into 
the U.S. from other countries, and these are not the little green 
aliens that Hollywood has made popular. These aliens are plants and 
animals, microorganisms and pathogens that come into our country aboard 
ships, planes, cargo containers, agriculture and horticulture 
shipments, and other pathways. They invade and take hold in our native 
ecosystems, and then cause enormous economic and environmental damage, 
by, for example, harming crops and crowding out native species. 
Mitigating this damage and controlling and eradicating invasive species 
once they are established creates an intolerable economic burden on our 
society, a burden that has been estimated at $137 billion each year. 
Once these invasive species are established, they become the most 
persistent pollutant known to man--one without a half-life and one that 
can reproduce and multiply unchecked.
    It is that burden that Chairman Gilchrest and I seek to mitigate by 
passing H.R. 5395 and H.R. 5396. These pieces of legislation focus on 
aquatic invasive species and follow an age-old adage--an ounce of 
prevention is worth a pound of cure. If we spend millions preventing 
invasive species from entering the United States, we can avoid spending 
billions trying to control and manage them once they are here.
    But what will it take to get this legislation enacted next year?
    First, it is going to take continued commitment from, Chairman 
Gilchrest, myself, Senators, and other key Members, such as Mr. Baird 
and Mr. Hoekstra, to push this legislation through Congress. Chairman 
Gilchrest and I will continue to lead this fight in the House, and we 
have agreed to reintroduce the bills the first day that Congress 
reconvenes next year. We received a promising sign of how important 
this issue is to Members of Congress when we obtained over 40 
bipartisan cosponsors on the legislation with little effort.
    Second, the Administration will have to recognize that this 
legislation and this issue must be a priority. The harm caused by 
invasive species affects all Americans, and thanks to the now infamous 
Snakehead fish, they are recognizing this threat. The Administration 
should be actively engaged in not only making sure that passage of this 
legislation is a top priority, but also that it is fully implemented 
once it is enacted. I, along with many of my colleagues, have been very 
frustrated by the lack of progress that the Coast Guard has made in 
implementing provisions of the National Invasive Species Act of 1996.
    Third, the key constituencies affected by this legislation--states 
and local governments; the shipping, fishing, pet, and aquaculture 
industries; and environmental groups--will have to help forge a 
consensus about these bills. These groups must realize that both of 
these bills are in the best long-term interest of all Americans and 
that we must work together to achieve their enactment.
    The time has come for us to move this legislation forward--invasive 
species don't respect political boundaries or timelines, and they are 
arriving here and multiplying even as we speak to you today.
    Thank you, Mr. Gilchrest, and I look forward working with you on 
more joint ventures next Congress and to hearing from our witnesses 
today.
                                 ______
                                 
    Mr. Gilchrest. Mrs. Biggert?

    STATEMENT OF THE HON. JUDY BIGGERT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mrs. Biggert. Thank you very much, Mr. Chairman.
    I would like to thank you and Chairman Ehlers and Ranking 
Member Underwood for allowing me to join you today. I do want 
to commend you for holding this joint hearing today and for 
introducing two important bills on such a critical topic as 
invasive species.
    I join you today because in my congressional district in 
Illinois, the Asian carp has found the doorway into the Great 
Lakes, and that entrance is the Chicago Ship and Sanitary 
Canal, the only aquatic link between the Mississippi River and 
the Great Lakes, and it is in this manmade waterway that the 
Asian carp are creeping--I should say leaping--their way toward 
Lake Michigan.
    We do have what we hope is a stopgap measure, which is an 
invisible electronic fence that repulses the Asian carp. The 
fence is as wide as the canal and extends at a length of 60 
feet, and in order for the carp to traverse the barrier, they 
would have to not only set the world record in the long jump 
but shatter it by almost 30 feet.
    This barrier was originally designed as a demonstration 
project to contain the nuisance round goby and the zebra 
mussel, and the electronic fence became operational only 6 
months ago, and it is a good thing, since the U.S. Fish and 
Wildlife Service says that this ferocious fish is within 55 
miles of Lake Michigan and approaching fast.
    So while the experts say that this short-term strategy has 
worked so far, we must do two things to win the battle over the 
long term. No. 1, we have to ensure that this barrier remains 
operational. And I have requested funds included in the fiscal 
year 2003 energy and water appropriations bill, but without the 
proper funding, the electricity could go out at any time, and 
the carp will swim into Lake Michigan, and we certainly cannot 
allow this to happen. So your bills that you have introduced 
are crucial to my problem and the problem in the Midwest so 
that we can construct another barrier and find the long-term 
solution, and that, we just do fast.
    So make no mistake--the Asian carp, as many of these 
invasive species, waits for no one, not even Congress.
    So I thank you for allowing me to join you today.
    Mr. Gilchrest. Thank you, Ms. Biggert.
    The introduction at this late date--we have some certainty 
that it will probably not be voted on and sent to the President 
for his signature before the 107th Congress is over. However, 
what we want to do is get the agencies prepared for an 
accelerated process that we hope to pursue with this 
legislation in the 108th Congress.
    So this is a clear signal that we hope within the first 100 
days of the 108th Congress for this legislation to be passed 
into law.
    I want to thank all of you for coming today to testify, and 
we will start with Mr. Steve Williams, Director of the Fish and 
Wildlife Service.

 STATEMENT OF STEVE WILLIAMS, DIRECTOR, U.S. FISH AND WILDLIFE 
                            SERVICE

    Mr. Williams. Thank you.
    Good morning, Chairman Gilchrest, Chairman Ehlers, and 
members of both Subcommittees.
    I am Steve Williams, Director of the U.S. Fish and Wildlife 
Service, and I thank you for inviting the Department of the 
Interior to comment on both of these bills.
    There is no question that the introduction and 
establishment of aquatic and invasive species have 
significantly impacted our natural areas. We have only to look 
at the history of invasions from the sea lamprey to the zebra 
mussel to the snakehead fish this summer to see that the 
problem is getting worse.
    The United States continues to see an increase in the 
number of aquatic species crossing our borders, and we expect 
this trend to continue if preventive action is not taken.
    The Department supports the overall direction of these two 
bills and is very encouraged by the leadership and foresight 
shown by Congress in introducing legislation that is so 
comprehensive. We are especially enthusiastic about the 
continued focus on partnerships and cooperative efforts to 
address this nationally significant problem.
    One of the purposes of the original legislation was to 
encourage Federal and State agencies to work together with 
partners to enhance our collective efforts. We believe that the 
partnerships and cooperative entities established through the 
Aquatic Nuisance Species Task Force and the National Invasive 
Species Council have been instrumental in making significant 
progress to prevent and control aquatic invasive species.
    While invasive aquatic species continue to be a significant 
threat to our natural resources, we believe that our efforts to 
prevent and control aquatic invasive species have resulted in 
fewer species introduced and reduced impacts from those that 
have become established.
    The ANS Task Force authorized by the original Act is 
meeting this week in Hawaii with regional people from all the 
islands and some of the territories, including Guam, to discuss 
the special vulnerability of island ecosystems to aquatic 
invasive species. Just yesterday, the task force took action to 
establish a nutria working group that will bring together 
Federal, State, and other expertise in the development of a 
coordinated management and control plan for nutria.
    Now I will briefly address some of our concerns with H.R. 
5396. Let me begin my comments by saying that we support 
reauthorization, and we look forward to working with you to 
address the Department's concerns.
    As these two bills are very comprehensive, I will limit our 
comments today to several general areas and certainly make our 
staff available to work with your staff on some of the details.
    One specific concern we have is the proposed deadlines 
required by H.R. 5396. We hope to have the opportunity to work 
with you and your staff to ensure that the deadlines are 
manageable while still ensuring that we continue to deal 
aggressively with these issues.
    While ballast water has been acknowledged as one of the 
leading vectors of introduction, we are encouraged to see that 
additional emphasis is being placed on other aquatic pathways. 
This additional emphasis will encourage the development of 
management actions which may minimize threats from new aquatic 
invasive species that have the potential to impact our fish and 
wildlife populations and associated habitats.
    The Department supports the development of a screening 
process for planned importations of live aquatic organisms. 
Having the opportunity to evaluate new, non-native species that 
are proposed to be brought into the United States is an 
invaluable tool to ensure that we are proactive in preventing 
the introduction of new aquatic invasive species into U.S. 
waters.
    While the injurious wildlife provisions of the Lacey Act 
give the Service the ability to evaluate and list species as 
injurious, the nature of the law makes our efforts more 
reactive than proactive. The screening process outlined in the 
proposed legislation is a more proactive approach to preventing 
introductions of aquatic invasive species.
    However, there appear to be some regulatory gaps, and we 
would like to work with you to address these issues.
    We are concerned about provisions in section 105(b) that 
delegate sole authority to screen cultured species to the U.S. 
Department of Agriculture. Because of the risks to fish and 
wildlife, we believe that the Service should also have some 
role in this type of screening.
    We are also concerned that the level of funding identified 
in the bill to develop and implement the screening process may 
be insufficient to accomplish these tasks within the stated 
deadlines. The added workload associated with developing the 
guidelines and regulations, conducting the evaluations, and 
ensuring effective compliance will be substantial.
    The State ANS management plan provisions have been very 
successful, and we are happy to see that the program was 
continued and expanded. We look forward to working 
collaboratively with the States to integrate these new 
provisions into their efforts to more effectively address 
invasive species issues.
    Education and outreach continue to be critical elements to 
the success of invasive species prevention and control. Within 
the Department, the Service has been actively working for many 
years on the 100th Meridian Initiative to stop the westward 
spread of zebra mussels. We support the proposed enhancement of 
those efforts through increased and targeted outreach.
    Turning briefly to H.R. 5395, we are particularly 
encouraged by the increased emphasis on research and monitoring 
efforts. In its strategic planning effort, the Task Force 
determined that additional actions were needed and restructured 
its committees to better address these problems.
    Key areas addressed in the legislation including pathways, 
ballast water management, early detection, and monitoring and 
control, can only be successful if they are based on sound 
research. However, we do have some concerns about the 
coordination of agencies and organizations that collect and 
store information regarding aquatic invasive species.
    We also support the development of methods for rapid 
assessment of newly detected aquatic species and recommend that 
adequate resources for conducting such assessments be included 
as an integral component of coordinated planning for rapid 
responses.
    In closing, I want to thank you again for providing the 
Department with an opportunity to comment on this legislation, 
and as I stated earlier, we would be very happy to work with 
you and your staff to address issues related to deadlines and 
implementation. We believe that the comprehensive approach 
outlined in the legislation will result in a more balanced, 
holistic effort to address the problems caused by aquatic 
invasive species.
    Mr. Chairman, this concludes my prepared remarks.
    Mr. Gilchrest. Thank you, Mr. Williams.
    [The prepared statement of Mr. Williams follows:]

Statement of Steve Williams, Director, U.S. Fish and Wildlife Service, 
                       Department of the Interior

    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
Steve Williams, Director of the U.S. Fish and Wildlife Service 
(Service) and a co-chair of the Aquatic Nuisance Species Task Force 
(ANS Task Force). Thank you for inviting the Department of the Interior 
(Department) to comment on H.R. 5396, the National Aquatic Invasive 
Species Act, and H.R. 5395, the National Aquatic Invasive Species 
Research Act. Working primarily through the Service and the U.S. 
Geological Survey (USGS), the Department has a long history of 
aggressively working on issues related to aquatic invasive species.
    There is no question that the introduction and establishment of 
aquatic invasive species have significantly impacted our natural areas. 
We have only to look at a history of invasions from the sea lamprey to 
the zebra mussel to the snakehead fish this summer to understand the 
broad scope of the problem. The United States continues to see a number 
of aquatic species crossing our borders, and we expect this trend to 
continue. The Department supports the overall direction of these two 
bills and is encouraged by the leadership and foresight shown by 
Congress to address this difficult issue. However, the Department 
offers to work with the Subcommittee on specific program details. We 
also note that new spending authorized by these bills is not currently 
included in the President's Budget and, as such, must be considered 
within existing resources and priorities.
    We agree with the continued focus on partnerships and cooperative 
efforts to address this nationally significant problem. One of the 
purposes of the original bill, the Nonindigenous Aquatic Nuisance 
Prevention and Control Act of 1990, was to encourage Federal and State 
agencies to work with partners to enhance our collective efforts. We 
believe that the partnerships and cooperative entities established 
through the ANS Task Force and the National Invasive Species Council 
(Council) have been instrumental in making significant progress to 
prevent and control aquatic invasive species.
    We note that H.R. 5396 would give statutory recognition to the 
Council, which the Secretary co-chairs along with the Secretaries of 
Agriculture and Commerce. We endorse this provision, and believe that 
this statutory recognition will assist the Council in providing 
coordination and policy guidance for federal invasive species programs. 
We also support inclusion of research agencies, such as the USGS and 
the Smithsonian Institution, as participants in the Task Force to 
encourage strong links between research and the management of non-
indigenous aquatic species.
    The ANS Task Force, authorized by the original Act, is meeting this 
week in Hawaii with regional people from all the islands and some of 
the territories (including Guam) to discuss the special vulnerability 
of island ecosystems to aquatic invasive species. Over the last 12 
years, the Task Force has held meetings throughout the country to 
better understand regional invasive species issues, increase awareness, 
and enhance coordination efforts with local and regional entities.
    The Task Force has been successful in establishing additional 
Regional Aquatic Nuisance Species Panels, bringing together 
governmental and private entities to coordinate aquatic invasive 
species activities at a regional level. The 1990 Act authorized the 
Great Lakes Panel, and the National Invasive Species Act of 1996 (NISA) 
authorized the establishment of a Western Regional Panel. NISA also 
recommended that the ANS Task Force establish additional panels. Three 
additional panels have been established since 1997--the Gulf of Mexico 
Panel in 1999, the Northeast ANS Panel in 2001, and the Mississippi 
River Basin Panel should be approved by the ANS Task Force soon. The 
ANS Task Force is also encouraging the establishment of a Mid-Atlantic 
Panel. The ANS Task Force is proud of many of the accomplishments made 
over the last decade including enhancement of regional coordination on 
aquatic invasive species issues. While invasive aquatic species 
continue to be a significant threat to our natural resources, we 
believe our efforts to prevent and control aquatic invasive species 
have resulted in fewer species introduced and reduced impacts from 
those that have become established.

                               H.R. 5396

    Let me begin by saying that, while we have some concerns with the 
bill, we support reauthorization and want to work with you and your 
staff regarding the details. As these two bills are very comprehensive, 
we will limit our comments today to several general areas. However, one 
specific concern we have are the proposed deadlines required by H.R. 
5396. We hope to have the opportunity to work with you and your staff 
to ensure that the deadlines are manageable while still ensuring that 
we continue to deal aggressively with these issues.
Ballast Water
    We believe that substantial progress has been made regarding the 
management of ballast water, however, much remains to be done. Through 
NISA, Congress required that the Coast Guard develop voluntary 
guidelines for ballast water management, and that those guidelines be 
made mandatory if the industry did not comply with the guidelines or 
did not adequately report on compliance. In 1996, as required by NISA, 
the ANS Task Force provided the Coast Guard with a report outlining the 
criteria for determining the adequacy and effectiveness of the 
voluntary guidelines. The Coast Guard utilized the input from the ANS 
Task Force and submitted their report to Congress on the Voluntary 
Guidelines for Ballast Water Management, which outlined a process to 
transition to a mandatory program. The Department supports the Coast 
Guard's ongoing efforts to transition from the voluntary national 
program to a mandatory program, as well as efforts to establish a 
standard to serve as the benchmark for ballast water management 
options, and we urge a continuation and emphasis for research on 
ballast water management to assure that the resulting standards are 
effective and environmentally sound.

Pathways
    While ballast water has been acknowledged as one of the leading 
vectors of introduction, we are encouraged to see that additional 
emphasis is being placed on other aquatic pathways. Some of these other 
pathways include bait fish, pet trade for use in aquariums, 
horticulture and live food. This additional emphasis will encourage the 
development of management actions, which may minimize the threats from 
new aquatic invasive species that have the potential to impact our fish 
and wildlife populations and associated habitats. We support 
interagency priority pathway research and management efforts to 
identify high risk pathways and develop management strategies to 
address them. In developing its strategic plan last year, the ANS Task 
Force also identified the management of pathways by which invasive 
species are introduced as a vital action to prevent future 
establishment of aquatic invasive species. A number of the actions 
called for in this bill are similar to those included in the 
``Prevention'' section of the Council's National Invasive Species 
Management Plan (Plan).

Screening of Planned Importations
    The Department has recognized the need for the development of a 
screening process for planned importations of live aquatic organisms. 
Having the opportunity to evaluate new non-native species that are 
proposed to be brought into the United States is an invaluable tool to 
ensure that we are proactive in preventing the introduction of new 
aquatic invasive species into United States waters. An example of the 
need for such a tool is the discovery this summer of a population of 
snakehead fish in a pond in Maryland.
    Snakehead fish are an aquatic invasive species that are sold live 
for food or as aquarium pets. Snakeheads are top predators that 
multiply quickly and have several special features that enhance their 
ability to survive in wild. In addition to the population found in 
Maryland, another population was found a year ago in Florida. After the 
discovery in Florida during the summer of 2001, the Service and the 
USGS initiated a risk assessment to gather scientific information to 
determine the injurious nature, and potential impacts, of snakeheads. 
Data from this risk assessment indicated that the snakeheads were 
indeed detrimental and the Service began the process of listing 
snakeheads as injurious wildlife. That process was recently completed 
when a final rule was published on October 4, 2002. That rule makes it 
illegal under the Lacey Act to import into the United States or 
transport across State lines all members of the Channidae family, 
including the 28 currently recognized species and any species that may 
be classified under the Channidae family in the future.
    While the Injurious Wildlife provisions of the Lacey Act give the 
Service the ability to evaluate and list species as injurious, the 
nature of the law makes our efforts more reactive than proactive. The 
screening process outlined in the proposed legislation is an example of 
a more proactive and effective approach to preventing introductions of 
aquatic invasive species.
    Having recognized the need for improved screening, the Council's 
Plan, which I previously mentioned, also calls for working with key 
stakeholders to develop and test a screening process for intentionally-
introduced species. Preliminary work to develop this system has begun 
in conjunction with the ANS Task Force. We also recommend the 
development of risk assessment methods to evaluate the potential threat 
of species that have not yet been introduced. This will be critical in 
making our screening efforts effective. The Department, the Council, 
and the ANS Task Force would like to work with the Subcommittee to 
consider whether the specifics of this proposal should be revised 
during the legislative process.
    We are concerned about the provisions in section 105 (b) that 
delegate sole authority to screen species for use in aquaculture to the 
U.S. Department of Agriculture. Because of the risk to fish and 
wildlife, we believe that the Service should also have a role in this 
type of screening.
    In addition to evaluating potentially invasive species through the 
screening process, the Service would also be responsible for 
enforcement of the resulting regulations. Currently, the Service has 94 
uniformed Wildlife Inspectors at 32 staffed ports. In 2001, there were 
119,581 shipments that were imported or exported through the United 
States. Of those, 26,279, or 22 percent, were physically inspected. The 
added workload associated with developing the guidelines and 
regulations, conducting the evaluations, and ensuring effective 
compliance will be substantial. Given the comprehensive nature of this 
provision, it will be necessary to work cooperatively with other 
agencies who may also have responsibility for aquatic invasive species. 
We embrace the opportunity to work with the these other agencies to 
develop an effective and efficient screening process that is protective 
of both the human and natural environment.

State ANS Plans
    The State ANS Management Plan provisions have been very successful 
and we are happy to see that the program is continued. The ANS Task 
Force developed guidelines to help States develop ANS plans, and made 
those guidelines available to the States in 2000. As outlined in the 
bill, the ANS Task Force will update and enhance those guidelines to 
address additional components related to early detection and rapid 
response, aquatic plant control and screening of planned importations. 
We look forward to continuing collaborative work with the States on 
their efforts to more effectively address invasive species issues. The 
ANS Task Force provides us with an excellent venue to pursue these 
collaborative partnerships. In fact, the ANS Task Force and its 
Regional Panels have encouraged the continued development of State and 
Interstate ANS Management Plans. There are currently 9 State and 
Interstate Plans approved by the ANS Task Force and a number of other 
States are in the process of developing plans. The Service provided 
cost-share grants to 11 States and tribes to implement those approved 
plans. Four additional States, Massachusetts, Maine, Montana and 
Alaska, submitted their plans to the ANS Task Force and the plans are 
expected to be approved at the meeting in Hawaii.

Cooperative control/management plans
    The ANS Task Force also has a long history of developing and 
implementing cooperative control and management plans. For example, 
plans for brown tree snake and Eurasian ruffe were developed in the 
mid-1990s, and the ANS Task Force is currently developing management/
control plans for the Chinese mitten crab and Caulerpa taxifolia, a 
marine algae. The objectives of these plans are to outline strategies 
and actions to control or manage aquatic invasive species. These plans 
are developed and implemented cooperatively by Federal, State and 
regional entities where appropriate. At the Task Force meeting in 
Hawaii, the ANS Task Force is taking action to approve, for public 
review, an Asian Swamp Eel Management Plan and a Green Crab Management 
Plan. The Department recognizes the importance of the Brown Tree Snake 
Control Program, but we believe that the Council--which is given 
responsibility for brown tree snake control under H.R. 5396--is better 
equipped to provide general policy guidance, not implementation of 
specific control plans.

Early Detection and Monitoring
    We support the objectives addressed in Section 106. An early 
detection network based on the best available science is key to 
reducing the impacts of invasive aquatic species.

Education and Outreach
    Education and outreach continue to be critical elements to the 
success of invasive species prevention and control. Within the 
Department, the Service has been actively working for many years on a 
100th Meridian Initiative to stop the westward spread of zebra mussels 
and other aquatic invasive species. The bill proposes to enhance these 
efforts through increased and targeted outreach and education efforts. 
The ANS Task Force and the Service have established a new public 
awareness campaign known as Stop Aquatic Hitchhikers! that targets 
aquatic recreation users and promotes voluntary guidelines to ensure 
that aquatic invasive species are not spread through recreational 
activities. Stop Aquatic Hitchhikers! compliments the 100th Meridian 
Initiative and was designed to unify the conservation community to 
inform recreation users about the issue and encourage them to become 
part of the solution to prevent the spread of aquatic invasive species.
    The National Park Service also provides information to millions of 
visitors every year regarding conservation of natural and cultural 
resources. The Act, as amended, recognizes the vital role that the 
National Park Service has in education and outreach on resource 
conservation and, more specifically, during the commemoration of the 
Lewis and Clark Bicentennial Expedition. Invasive Species education and 
information, integrated within ongoing educational efforts, will 
provide critical context to increase understanding of the impacts of 
invasive species on natural resources.
    Again, we applaud the legislation's multi-agency approach to 
education and outreach as there are already significant efforts to 
coordinate the dissemination of information. One example is the 
National Biological Information Infrastructure (NBII), an extensive 
information network already in wide public use, can be utilized as a 
means to facilitate public access to survey, monitoring, and risk 
assessment information.

                               H.R. 5395

Research
    We are encouraged by the increased emphasis on research and 
monitoring efforts in the bill. In its strategic planning effort, the 
Task Force determined that additional actions were needed and 
restructured its committees to better address these problems. Key areas 
addressed in the legislation, including pathways, ballast water 
management, early detection and monitoring and control, can only be 
successful if they are based on sound research.
    We recognize the need for methods for rapid assessment of newly 
detected aquatic species, and recommend that adequate resources for 
conducting such assessments be included as an integral component of 
coordinated planning for rapid responses. We recommend that particular 
attention be given to expanding and coordinating existing databases, 
such as the USGS's National Non-indigenous Aquatic Species Database, 
which provides basic scientific information for addressing invasive 
species threats. Finally, we recommend that the legislation ensure 
better coordination among the agencies and organizations that collect 
and store invasive aquatic species information, and we offer our 
assistance to the Subcommittee in this regard.

Conclusion
    In closing, I want to thank you for providing the Department with 
an opportunity to comment on this legislation. As I stated earlier, we 
would be happy to work with you and your staff programmatic and other 
technical issues.
    Mr. Chairman, this concludes my prepared remarks. I am happy to 
respond to any questions you or the other Committee members may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Keeney, Deputy Assistant Secretary for 
Oceans and Atmosphere of NOAA.
    Welcome, Mr. Keeney.

STATEMENT OF TIMOTHY R.E. KEENEY, DEPUTY ASSISTANT SECRETARY OF 
   COMMERCE FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Mr. Keeney. Good morning, Chairman Gilchrest, Chairman 
Ehlers, and members of the Subcommittees.
    I am Timothy Keeney, Deputy Assistant Secretary of Commerce 
for Oceans and Atmosphere at the National oceanic and 
Atmospheric Administration, and co-chair of the Task Force.
    I appreciate the opportunity to present NOAA's views on 
H.R. 5395 and H.R. 5396.
    Your bills, Chairman Gilchrest and Chairman Ehlers, address 
some gaps in the existing programs. There is a need to develop 
an early detection and rapid response mechanism in order to 
detect invasions while they are still localized and to control 
them before they spread. Even though members of the Task Force 
have taken preliminary steps toward invasive species control, 
there is a need to systematically assess eradication 
technologies to determine how best to control invasives as well 
as to prevent them from occurring.
    Finally, the Task Force recognizes that education and 
research are important supporting elements for all invasive 
species activities. We appreciate that the importance of these 
activities is emphasized in the two bills.
    NOAA would, however, like to suggest some technical 
modifications, and I am happy to have my staff work with the 
Committee staffs to address some of the technical issues that 
NOAA believes are necessary.
    Some provisions of the two bills are duplicative and 
overlap each other. As examples, provisions on ballast water 
technology development and dispersal barriers are contained in 
both bills.
    A point already raised by Director Williams of the Fish and 
Wildlife Service, NOAA is also concerned that there are 31 
separate deadlines for specific actions that must be completed 
by members of the Task Force within 18 months of passage. When 
treated individually, these actions are not unreasonable, but 
it will be extremely difficult to simultaneously give each of 
them the level of attention they require in the time allowed. 
We would be happy to work with the Committees on this issue to 
develop an appropriate time line.
    Further, the chronology of some of the activities in the 
legislation should be examined. In some instances, an action is 
required before the deadline for the guidelines and/or 
protocols necessary for that action are complete and available. 
An example is the provision for screening, where the screening 
process is to begin before the guidelines for the screening are 
in place.
    The last reauthorization in 1986 anticipated that 
nationwide ballast water management would become mandatory. As 
the Coast Guard's report to the Congress in June pointed out, 
compliance with the voluntary guidelines has not been 
satisfactory. The Federal Government should issue uniform 
nationwide regulations to ensure that the shipping industry is 
not burdened with a variety of standards in different 
geographic locations. The Coast Guard has indicated that it 
will issue national regulations, and we support the Coast 
Guard's effort and appreciate the Committees' support of such 
efforts.
    In addition, the legislation may contain unnecessary detail 
in several places that could impose an undue burden on the 
private sector and State governments. Two instances occur in 
the ballast water provisions. The bill requires that rapid 
response measures be included in a ship's invasive species 
management plan. As I indicated earlier, NOAA supports 
additional efforts on rapid response. We cannot envision, 
however, that all ships should be aware of each State's rapid 
response contingency plan.
    NOAA is aware of the frustration in developing a 
standardized measure for new ballast water treatment 
technologies. We believe that ultimately, there needs to be a 
standard based on sound science that is biologically 
meaningful, such as discharge rate. The interim standard, 
however, should set a clear direction from which the final 
standard will evolve.
    NOAA is concerned about a kill rate being used as an 
interim standard because it is a dynamic measure, and a 
standard percentage does not always ensure that invasive 
species levels are below appropriate levels of concern. A set 
kill rate as an interim standard is a step in the right 
direction, however.
    Both bills recognize the fact that the science involved 
with all aquatic invasives is much less advanced than the 
science dealing with terrestrial invasives. The science of 
biological invasives in aquatic ecosystems is still in its 
nascent stages, and although considerable progress has been 
made in the last decade, there are still areas in which 
knowledge is deficient. NOAA is pleased that both bills give 
additional emphasis to research activities.
    Finally, I would like to discuss two areas of current 
limitations. First, there is inadequate monitoring in aquatic 
systems. In many instances, we do not even have baseline 
species content information so that we know when a serious new 
invader has been introduced. Both NOAA and the Task Force 
recognize the need for baseline surveys and have taken initial 
steps to correct this deficiency. We are pleased that both 
bills highlight the need for a uniform protocol for such 
monitoring activities.
    Second, our scientific knowledge of control methods in 
aquatic environments is still in its infancy, and such control 
presents unique problems. It is much more difficult to locate 
biocide applications in the aquatic environment, because water 
transports chemicals so readily. In addition, there are special 
concerns that available chemicals are not species-specific. In 
addition, there is no specific knowledge of control methods for 
certain taxonomic groups.
    My written testimony, Mr. Chairman, contains comments on 
other provisions of the bill, and I am happy to discuss those 
with your staff.
    Thank you for the opportunity to testify.
    Mr. Gilchrest. Thank you, Mr. Keeney.
    [The prepared statement of Mr. Keeney follows:]

   Statement of Timothy R.E. Keeney, Deputy Assistant for Oceans and 
                Atmosphere, U.S. Department of Commerce

    Good morning, Chairman Gilchrest, Chairman Ehlers, and members of 
the Subcommittees. I am Timothy Keeney, Deputy Assistant Secretary of 
Commerce for Oceans and Atmosphere and the National Oceanic and 
Atmospheric Administration (NOAA) co-chair of the Aquatic Nuisance 
Species Task Force. I appreciate the opportunity to present NOAA views 
on H.R. 5395 and H.R. 5396, which would reauthorize the Nonindigenous 
Aquatic Nuisance Prevention and Control Act as amended by the National 
Invasive Species Act of 1996.
    I begin my testimony with some observations on the evolution of the 
Act which mirrors our current state of understanding of aquatic 
invasive species. The bulk of my testimony will focus on the ballast 
water and research provisions of the bills. Here we address the need to 
create national standards for ballast water based on sound science as 
well as technical changes to the bill. Before concluding, I will also 
mention concerns with non-ballast related provisions within the bills.
    When the Act was first passed, the focus was on a single species-
the zebra mussel, a single region-the Great Lakes, and a single 
pathway-ballast water. It subsequently became obvious that the problems 
caused by invasive species generally, and aquatic invasive species 
specifically, are broader than originally envisioned and this was 
reflected in the 1996 amendments. This recognition is further reflected 
in the two pieces of legislation that have been introduced constitute a 
major rewrite of the existing law.
    Earlier this year, the Aquatic Nuisance Species Task Force adopted 
a five-year strategic plan in which we assessed current activities and 
looked at areas requiring additional attention. In several areas, the 
Task Force's conclusions are similar to issues addressed in this 
legislation. Your bills, Chairman Gilchrest and Chairman Ehlers, 
address some gaps in our existing programs. There is a need to develop 
an early detection and rapid response mechanism in order to detect 
invasions while they are still localized and to control them before 
they spread. Recognizing this, the Task Force already has asked its 
Regional Panels to prepare rapid response contingency plans. The first 
of these plans, prepared by the Western Regional Panel, was submitted 
for approval by the Task Force this week. Even though members of the 
Task Force have taken preliminary steps, there is a need to 
systematically assess pathways to determine how best to interdict them 
as well as prevent invasions from occurring. Finally, the Task Force 
recognized that education and research are important supporting 
elements for all invasive species activities. The importance of these 
activities is emphasized in the two bills.
    We would like to express our appreciation to the sponsors of the 
legislation for taking a comprehensive view of the problems posed by 
aquatic invasive species. NOAA would, however, like to suggest some 
technical modifications. I am happy to have my staff work with 
committee staffs to address some of these technical issues.
    During the last re-authorization in 1996, the need to develop a 
more effective ballast water management was recognized. As the Coast 
Guard's report to the Congress in June pointed out, compliance with the 
voluntary guidelines, even to the extent of reporting, has not been 
satisfactory. Since 1996, we have continued to see the introduction of 
non-native species into coastal areas, and the situation has been 
serious enough that west coast states have acted independently to 
require ballast water management measures. The Federal government 
should develop a coordinated nationwide response to ensure that the 
shipping industry is not burdened by a variety of standards in 
different geographic locations. Such action is possible under existing 
law, and the Coast Guard, in its report to Congress on compliance with 
voluntary guidelines, has indicated that it would take steps to issue 
national standards. We support the Coast Guard's efforts to establish 
mandatory guidelines and appreciate the Committees'' support of such 
efforts.
    In several places, the legislation may contain unnecessary detail 
that could impose an undue burden on the private sector and State 
governments. Two instances occur in the ballast water provisions. The 
bill requires that rapid response measures be included in a ship's 
invasive species management plan. As I indicated earlier, NOAA supports 
additional efforts on rapid response. We cannot envision, however, that 
all ships would be aware of each State's rapid response contingency 
plan. Since such plans are likely to vary among the States, preparation 
for compliance with such provisions by the shipping companies may be 
unnecessarily problematic. The primary purpose behind a ballast water 
management plan should be to reduce the risk that a ship will be the 
source of new inoculations. The major responsibility for a ship during 
a rapid response is likely to be either not entering an area where a 
rapid response action is occurring, not loading ballast water which 
could contribute to the spread of an invasive species, or not 
discharging water known to have originated from a rapid response area. 
Rather than require a rapid response plan for unknown organisms in a 
multiplicity of areas, the better approach would be to require that a 
ship cooperate with State governments during a rapid response effort. 
We would be happy to provide the Committees with technical drafting 
assistance to clarify this provision.
    NOAA is aware of the frustration in developing a standard for new 
ballast water treatment technologies. We believe that ultimately there 
needs to be a discharge standard based on sound science and one that is 
biologically meaningful. NOAA is concerned about a ``kill rate'' being 
used as an interim standard. Although a 95 percent kill rate may reduce 
the risk of new invasions, there may be difficulties posed with 
verification and enforcement. In addition to verification and 
enforcement difficulties, there is no scientific evidence that a 95 
percent ``kill rate'' reduces the risk of new invasions. Verification 
of kill rates may also be impractical because in order to prove such a 
kill rate both the departure point and the discharge point must be 
sampled. There also could be a significant gap in coverage by this 
standard. What is killed can be as important, if not more so, then what 
percentage is killed (i.e., the phytoplankton that cause harmful algal 
blooms). Some algal blooms worldwide have been attributed to ballast 
water introductions. Concentrations of up to 10 million cells per liter 
have been documented during some blooms. For such species, the normal 
maximum for human safety is 5,000 cells per liter. A technology could 
successfully kill 95 percent of the organisms and still be at an order 
of magnitude above what is safe for human health. The Coast Guard, in 
cooperation with other Federal Agencies, is currently assessing various 
options for the standards, including standards based on allowable 
concentrations of organisms. This process should be allowed to continue 
in order to ensure that the standards are biologically meaningful and 
technologically feasible.
    Another modification that we recommend to the Committees relates to 
the 31 separate deadlines for specific actions that must be completed 
by members of the Aquatic Nuisance Species Task Force within 18 months 
of passage. It will be difficult to simultaneously give all of these 
actions the level of attention they deserve in the time allowed. We 
recommend that the Committees assess the priority level of each of 
these actions and allow for additional time for lower level priority 
activities. We would be happy to work with the Committees on such an 
assessment.
    Further, the chronology of some of the activities in the 
legislation should be examined. In some instances, an activity is 
required before the deadline for the guidelines and/or protocols 
necessary for the activity are available. An example are the provisions 
for screening where the screening process is to begin before the 
guidelines for screening are in place.
    In H.R. 5396, appropriations are authorized for NOAA and the U.S. 
Fish and Wildlife Service (FWS) to carry out the revised section 1101. 
With a couple of minor exceptions, NOAA and FWS only have consultive 
responsibilities under section 1101. If the intent was to authorize 
appropriations for the ballast water demonstration program, the 
referenced section should be section 1104. It should be noted that H.R. 
5395 does contain an authorization for section 1104.
    Section 1202(f)authorizes a competitive research program under the 
National Sea Grant College Program but there is no authorization of 
appropriations for activities under this section. The bulk of current 
knowledge and most of the current research being conducted on all 
aspects of aquatic invasive species have been funded by Sea Grant under 
this provision. An authorization for research on aquatic invasives is 
contained in proposed legislation considered by both of these 
Committees that would re-authorize the Sea Grant program. We recommend 
that H.R. 5396 include an authorization of appropriations for Sea Grant 
invasive species activities that parallels H.R. 3389.
    Both bills recognize the fact that the science involved with 
aquatic invasives is much less advanced than the science dealing with 
terrestrial invasives particularly as they relate to livestock and 
crops. While some of our colleagues in the Department of Agriculture 
have been dealing with weed and insect problems for most of the last 
century, the science of biological invasions in aquatic ecosystems is 
still very young. The Aquatic Nuisance Species Task Force has 
recognized that virtually every activity from prevention to control to 
restoration needs to have a scientific underpinning. Although 
considerable progress has been made in the last decade, there are still 
areas in which our knowledge is seriously deficient. NOAA is pleased 
that both bills give additional emphasis to research activities.
    I would like to discuss two areas as an illustration of our current 
limitations. First, there is inadequate monitoring in aquatic systems. 
In many instances, we do not even have baseline information so that we 
know when a serious new invader has been introduced. This also hampers 
efforts to characterize invasion rates, and without monitoring 
activities, early detection and rapid response occur only by chance. It 
should be noted that there are exceptions, but they are limited to 
specific geographic areas. As an example, the Aquatic Nuisance Species 
Task Force-sponsored study of San Francisco Bay by scientists Dr. 
Andrew Cohen and Dr. James Carlton is outstanding in documenting 
nonindigenous species occurrence in that ecosystem and is often cited 
even in terrestrial studies. A similar study of the Chesapeake Bay 
sponsored by FWS and performed by Dr. Greg Ruiz at the Smithsonian 
Environmental Research Center provides a very good baseline for 
Chesapeake Bay. Both the Aquatic Nuisance Species Task Force and NOAA 
recognize the need for baseline surveys and have taken first steps to 
correct this deficiency. The U.S. Fish and Wildlife Service sponsored a 
workshop on developing protocols and requirements for an effective 
monitoring program in aquatic ecosystems, and earlier this year, NOAA's 
National Ocean Service conducted a similar workshop for monitoring 
within the National Estuarine Research Reserve System. We are pleased 
that both bills highlight the need for a uniform protocol for such 
monitoring activities.
    Our scientific knowledge of control methods in aquatic environments 
is still in its infancy, and control in aquatic ecosystems present 
unique problems. Because water is a medium which will move chemicals 
from one place to another, it is much more difficult to localize 
biocide applications. In addition, there is special concern that 
available chemicals are not species specific. Last summer when the 
State of Maryland used rotenone to eradicate the northern snakehead 
from a pond near Washington, DC, it should be noted that the 
application was in a small, isolated body of water and that all other 
fish species were also killed. Obviously, there are only limited 
circumstances when such a method can be used. There are even taxonomic 
groups for which there is no scientific knowledge of control methods. 
NOAA confronted this issue two summers ago when there was a bloom of 
spotted jellyfish in the Gulf of Mexico. We recognized that the species 
was having a major impact in localized areas and was affecting 
commercial fisheries, but we were in a situation where nobody had ever 
tried to control jellyfish in the past.
    With the exception of aquatic weeds, where the Army Corps of 
Engineers has had some notable successes, we also have just begun to 
look at biocontrol agents. We do have some promising results, though, 
with a pathogen that could be used for zebra mussel control. In a 
project funded by NOAA Sea Grant and FWS, a researcher has found that 
the Pseudomonas fluorescens bacterium causes extremely high mortality 
in zebra mussels and preliminary results indicate that it may be 
specific to zebra mussels. To show the difficulty in finding an 
acceptable biocontrol agent, it should be noted that the researcher 
looked at over 600 different pathogens. In addition, once such a 
pathogen is found, it is necessary to make sure that the biocontrol 
agent will not affect native species. This is particularly important in 
this case because many of our native freshwater bivalves are already 
listed as threatened and endangered.
    Some provisions in the two bills are duplicative or overlap each 
other. As examples, provisions on ballast water technology development, 
monitoring for both baselines and new introductions, and dispersal 
barriers are contained in both bills.
    Although the invitation asked that I specifically address the 
ballast water and research provisions, I would like to address a couple 
of other items contained in the legislation. First, NOAA is pleased 
that increasing emphasis is given to the role played by State 
governments. If we are to be successful in combating invasive species, 
partnerships with other levels of government are absolutely essential. 
H.R. 5396 recognizes this by placing a greater emphasis on State 
management plans, contingency plans, and rapid response. As I indicated 
earlier in my testimony, however, there are places where the proposed 
legislation may be a little too detailed and could ultimately become 
burdensome on State governments. As an example, there is a provision 
requiring education to be part of a rapid response plan. While NOAA and 
the Task Force believe that education is extremely important and have 
encouraged inclusion of education provisions in State Management Plans, 
we do not believe that it is an essential element of a contingency plan 
for rapid response. In fact, Sea Grant Colleges already conduct 
education and outreach programs associated with research including 
invasive species. We also have concerns about the requirement for an 
early detection program before rapid response funding could be 
approved. The situation may arise where a program is needed before a 
State has resources available to establish a program. The absence of 
such a program should not preclude a rapid response effort if a serious 
invasive species is discovered.
    H.R. 5396 also would give statutory recognition to the Invasive 
Species Council. Such statutory recognition will assist in providing 
policy guidance and coordination of the Federal government's invasive 
species program. In at least one instance, however, NOAA believes that 
the proposed legislation assigns a task which is inappropriate for the 
Council. The legislation would give the Council responsibility for 
control of brown tree snakes. NOAA, which co-chairs the Aquatic 
Nuisance Species Task Force and is Commerce's designee as the co-chair 
of the Council, does not believe that the Council should be responsible 
for implementation of specific control plans. The Council's primary 
focus is to provide policy guidance and we do not recommend changing 
that focus. The Council does not have the same expertise or 
infrastructure as the ANS Task Force has to implement control plans. 
Specific control plans should be implemented by the ANS Task Force in 
coordination with State and Local governments.
    Screening provisions in the bill may need to be revised. In 
addition to chronology problems, the limitations imposed by the 
screening process could be viewed as too restrictive. In addition to 
the research exception, there may be other instances where importation 
of invasive species may be appropriate. To illustrate this point, the 
risk of a saltwater fish species imported for display by the Shedd 
Aquarium in Chicago becoming a problem is minimal. Not only is the 
Aquarium a very reputable organization, but even if the species were to 
escape, it would not be likely to become established in the freshwater 
environment of Illinois.
    NOAA is also concerned about the provision that grants the 
Department of Agriculture the sole authority to screen species proposed 
for aquaculture use. NOAA believes that the end use of an importation 
is irrelevant to whether or not a species is invasive. We are concerned 
because, in the case of aquaculture, what is most often cultured are 
wild species normally under the jurisdiction of either NOAA or the U.S. 
Fish and Wildlife Service. In addition, aquaculture is not limited to 
closed systems. Often species such as oysters and clams are released 
into natural ecosystems. We would also point out that much of the 
scientific expertise for making determinations on aquatic imports is in 
the management agencies. In order to make such determinations, 
information on life history and impacts on natural ecosystems and 
native species is necessary. Finally, if end use helps to determine 
whether a species should be prohibited, we could end up with 
contradictory decisions. The recent case of the northern snakehead is 
illustrative. The fish released into the local pond were imported for 
human consumption and would presumably be under the authority of the 
U.S. Fish and Wildlife Service. The same species has been cultured in 
Hawaii and a determination of invasiveness would presumably be made by 
the Department of Agriculture.
    Chairman Gilchrest and Chairman Ehlers, and members of the 
subcommittees, the legislation before you builds on the previous Act 
and addresses some gaps that have already been identified by the 
Aquatic Nuisance Species Task Force. As with any complicated piece of 
legislation, there are some technical difficulties, and we would be 
happy to work with the subcommittee to address them. Among these 
issues, we note that new spending authorized by these bills is not 
currently included in the President's fiscal year 2003 Budget, and as 
such, must be considered within existing resources and priorities. As 
one of the trustees for marine and coastal resources, NOAA has been 
aware of the problems caused by aquatic invasive species and recognized 
that we have a responsibility to help prevent these invasions and 
reduce the impact if such invasions occur. NOAA also recognizes that we 
cannot be successful without partnerships with other Federal agencies, 
State and local governments, and the private sector. We are pleased 
that the proposed legislation places an increasing emphasis on such 
partnerships. Thank you for allowing me the opportunity to present the 
Department of Commerce's views on this topic. This concludes my 
testimony, and I would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Before we go to Captain Brown, there are 
five or six seats up here on the lower dias. If anybody in the 
back would like to come up and sit down, you are welcome to. We 
may not have time for each of you to ask questions, though.
    Captain Brown?

    STATEMENT OF CAPTAIN MICHAEL W. BROWN, CHIEF, OFFICE OF 
    OPERATING AND ENVIRONMENTAL STANDARDS, U.S. COAST GUARD

    Captain Brown. Thank you, Mr. Chairman, and good morning.
    I am Captain Mike Brown, from the Coast Guard, Chief of the 
Operating and Environmental Standards Office.
    I am pleased to be here today to provide the Coast Guard's 
views on the House of Representatives bills 5395 and 5396.
    As a lead Federal agency with responsibility for protecting 
the marine environment, the Coast Guard is a leader in ensuring 
that our environment is protected, and we recognize the 
significant damage that ANS has caused. Clearly, it is a 
significant problem, and this is our highest marine 
environmental protection regulatory priority.
    We feel that the two bills appropriately identify the 
significant issues in the effort to protect the environment, 
and we believe that the reauthorization and amendment of the 
existing legislation is necessary and desirable. Clearly, a lot 
of hard work and careful thought has gone into the preparation 
of the bills. However, we believe that implementing the bills 
in their current form is problematic and would impede in some 
respects the program advancements that we are trying to make.
    Working under our current authorities, we are already 
addressing many of the ballast water issues that the bills 
raised. It was gratifying to hear in your earlier remarks, Mr. 
Chairman, some of the things that you were concerned about, 
because we are addressing those very issues.
    For example, we are in the process right now of 
establishing a mandatory ballast water management regime. We 
are trying to set up a scientifically supportable set of 
standards for ballast water discharge. We are establishing a 
process to facilitate development of the testing and evaluation 
of experimental treatment programs. And we are working 
internationally to have the international regime be consistent 
with our regulatory approach.
    We believe that our current strategy is sound and 
aggressive given the state of ballast water treatment 
technologies today which, quite frankly, are still maturing.
    We believe and are concerned that the detailed requirements 
and the new management arrangements will complicate and delay 
the implementation of an effective Federal regime. We would 
like to work with the Committee regarding the proposed interim 
standard. We are working with other agencies internationally, 
and are looking toward an allowable concentration of organisms 
approach with regard to a standard for ballast water treatment. 
We agree that there needs to be some expanded research effort.
    With regard to the deadlines, I would echo my colleagues' 
comments that there are some concerns about those deadlines and 
being able to meet them. As you know, we have established some 
deadlines for ourselves, as we reported in the report to 
Congress, for the voluntary measures as a result of the 
National Invasive Species Act requirements, and we believe that 
the deadlines that we have established for ourselves are 
reasonable, are realistic, and while certainly time is of the 
essence, we believe that those deadlines are reasonable and 
meetable.
    I want to thank you for the opportunity to comment. We in 
the Coast Guard are prepared to work with the Committee and 
with the staff to try to develop and improve upon the 
legislation so as to meet all of our goals, which is to prevent 
the further introduction of aquatic nuisance species.
    Again, we do recognize the seriousness of the matter, and 
we are working as aggressively and as delibrately as we can. 
While it is important to get it done, it is also important to 
get it done right, and we want to be sure that whatever we do, 
we are doing the right thing and protecting the environment in 
the most reasonable manner possible.
    Thank you.
    Mr. Gilchrest. Thank you, Captain Brown.
    [The prepared statement of Captain Brown follows:]

Statement of Captain Michael W. Brown, United States Coast Guard, U.S. 
                      Department of Transportation

    Good morning, Mr. Chairman and distinguished members of the 
Subcommittee. It is a pleasure to appear before you today to provide 
our views on H.R. 5395 and H.R. 5396.
    The Coast Guard is a leader in ensuring America's marine 
environment and precious natural resources are protected. As a lead 
federal agency for protecting the marine environment, we take great 
pride in providing valuable services to the American people to ensure 
our nation is cleaner, safer, more mobile, and more secure. Today, the 
spread of non-native aquatic species throughout our waterways as a 
result of vessel operations remains a serious and growing national 
problem. We know all too well that once introduced, many of these 
species are capable of disrupting native ecosystems, resulting in lost 
natural resources in mitigation costs.
    In reauthorizing and amending existing federal aquatic nuisance 
species (ANS) legislation, the combination of H.R. 5395 and H.R. 5396 
would provide detailed guidance and requirements for the conduct of a 
federal ballast water management program and establish a research 
program to support the battle against all ANS. While we fully agree 
that these bills appropriately identify significant issues related to 
improving the nation's defense against the introduction of ANS, and 
that reauthorization and amendment of the legislation is necessary to 
effectively address this growing environmental problem, we believe that 
implementing these bills in their current form.
    Working under the broad ballast water management authorities 
granted by current legislation, our ongoing regulatory efforts are 
addressing many of the ballast water management provisions contained in 
H.R. 5396. As detailed in the transmittal letter accompanying the 
Secretary of Transportation's June 2002 voluntary ballast water 
management assessment report to Congress, mandated by the 1996 
reauthorization process, the Coast Guard is in the midst of 
establishing a mandatory national ballast water management program. 
These efforts include: (1) the setting of an enforceable and 
scientifically supportable ballast water treatment standard, and (2) 
establishing a process that will facilitate the development, testing 
and evaluation of promising experimental treatment systems. We believe 
that our current regulatory strategy is both sound and aggressive, 
especially when viewed in the light of the current state of ballast 
water management technology, which is best described as being in its 
infancy. We further believe that the detailed requirements and new 
management arrangements contained in H.R. 5396 would unnecessarily 
complicate our work and inevitably delay the implementation of an 
effective mandatory federal regime.
    We would like to work with the Committee regarding the bill's 
proposed interim ballast water treatment standard. In consultation with 
other federal agencies, the Coast Guard is currently looking toward 
standards that would be expressed as allowable concentrations of 
organisms in discharged ballast water. Working under a cooperative 
arrangement between the Coast Guard and the Environmental Protection 
Agency to develop verification protocols for ballast water treatment 
technologies, technical experts from a wide range of U.S. federal 
agencies and research institutions are considering the appropriate 
organism concentrations and the methods for their detection and 
enumeration. We are also tracking several complementary international 
efforts to develop effective management technologies and will use their 
findings as appropriate in developing our domestic program.
    We agree that there is a need for research efforts. The technical 
challenges to preventing, evaluating the effects of, and responding to 
aquatic invasions are extensive and costly.
    While the Coast Guard is not assigned responsibilities for 
conducting the ecological surveys described in H.R. 5395, the results 
of these surveys will likely be used to evaluate the efficacy of our 
and other federal agency efforts in reducing the rate of invasions by 
aquatic nuisance species.
    Thank you for the opportunity to present some of our views on these 
bills today. The Coast Guard looks forward to working with Congress on 
the reauthorization of ANS legislation while we continue our ongoing 
efforts to implement an effective ballast water management regime. I 
will be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Next is Dr. Gregory Ruiz, Senior Scientist 
with the Smithsonian Environmental Research Center.
    Welcome, Dr. Ruiz.

  STATEMENT OF GREGORY M. RUIZ, SENIOR SCIENTIST, SMITHSONIAN 
                 ENVIRONMENTAL RESEARCH CENTER

    Dr. Ruiz. Thank you. Good morning, and thank you for the 
opportunity to be here today.
    I am Greg Ruiz, a research scientist from the Smithsonian 
Environmental Research Center on the shore of the Chesapeake 
Bay.
    Each year, thousands to tens of thousands of non-native 
species are transferred to U.S. waters by human activities. The 
rate of newly detected invasions has increased exponentially 
for many parts of the U.S. Left unchecked, the rate of species 
transfer and invasion is expected to increase even further.
    There remain some fundamental gaps in knowledge, and 
especially predictive ability, for invasion ecology that have 
significant implications for developing management strategies 
to reduce transfers and invasions.
    First, the quantitative dose-response relationship between 
the number of organisms released and the number of new 
invasions is poorly resolved.
    Second, our predictive capability for both unintentional 
and intentional introductions is very limited at the present 
time.
    Management of the shipping vector is the most appropriate 
strategy as a first step to reduce aquatic invasions and their 
impact. The U.S. Coast Guard is in the best position to 
implement and oversee management of the shipping vector. It 
should be given lead responsibility and adequate resources to 
carry out this mission and already has many elements in place.
    The EPA and the Aquatic Nuisance Species Task Force have 
important roles to play as well in determination of 
environmental soundness and information dissemination, 
respectively. However, I believe it is most efficient and 
desirable that one lead agency, the Coast Guard, should have 
clear authority to develop and implement this program, with 
others providing secondary support where they have expertise.
    Ballast water management should reduce the rate of 
invasions, but there are limitations and unknowns in this area. 
Among these, the reduction in invasions expected for various 
management actions is unknown, resulting from uncertainty about 
the dose-response relationship. We simply don't know how low to 
go in reducing species transfer which complicates 
identification of the goal or standards for treatment. We need 
research to measure changes in species transfer and invasion 
patterns in response to management actions and to provide the 
scientific understanding of dose-response relationships and 
invasibility to guide management.
    Tracking of shipping and ballast discharge patterns, 
combined with measurement of effects for particular treatments, 
should be used to assess the effects of management on ship-
mediated transfer. All vessels should report at each port to 
provide an important short-term proxy of treatment efficacy to 
reduce overall transfer.
    Ecological surveys using standardized measures should be 
used as a key feedback system to assess the long-term changes 
in actual invasions associated with various management schemes. 
This is the indicator, analogous to measuring air or water 
quality, for whether management is working and whether further 
steps are required.
    In my view, field surveys and experiments should operate 
together in a well-coordinated fashion under one program rather 
than separate programs to strengthen understanding about dose-
response relationships and factors that contribute to invasion 
susceptibility.
    One lead research group should be charged with oversight 
and coordination of the surveys and experimental measures. This 
lead group should be composed of separate designated lead 
agencies for each freshwater and marine ecosystem. Each 
ecosystem is complex, involves somewhat different approaches 
and expertise, and requires significant effort and oversight. 
The lead group should establish protocols, provide data 
management, develop demonstrationsites, and serve to coordinate 
surveys among a distributed network of collaborating 
researchers working at sites throughout the country.
    In contrast with ecological surveys, an early detection 
system would detect only a limited number of invasions by known 
``target'' species. This target list approach will necessarily 
include a small subset of future high-impact organisms.
    For this reason, I place a much higher premium on 
prevention measures. It is highly desirable to have an 
established framework for evaluation and approval of 
intentional introductions that is consistent among geographic 
regions. Ideally, such a framework would involve Federal 
oversight, a precautionary approach, and include better 
tracking of imports by Customs, and reporting to international 
bodies such as ICES.
    In my opinion, the national strategy for aquatic invasion 
should focus predominantly on prevention. A strong program 
should exist to reduce unintentional transfers, including 
tracking systems for vectors and invasions. A parallel program 
should rigorously screen planned introductions. Although 
control measures for established invasions, including rapid 
response, can have merit, I believe prevention measures provide 
a more comprehensive, cost-effective, and reliable approach.
    Thank you.
    [The prepared statement of Dr. Ruiz follows:]

    Statement of Dr. Gregory M. Ruiz, Senior Scientist, Smithsonian 
           Environmental Research Center, Edgewater, Maryland

    I am a Senior Scientist at the Smithsonian Environmental Research 
Center (SERC), where I head the Marine Invasion Research Laboratory--
the largest research program in the U.S. to focus on the invasion of 
coastal ecosystems by non-native species. This research group provides 
synthesis, analysis, and interpretation of invasion-related patterns on 
a national scale (see Appendix 1 for further details).
    Today, I wish to highlight the current state of knowledge and 
predictive ability for invasions of marine and freshwater ecosystems. 
Against this backdrop, I will review key elements and approaches 
necessary to reduce the risk of new invasions and their unwanted 
impacts.

Current Knowledge & Predictive Ability
    Thousands to tens of thousands of non-native species arrive to U.S. 
waters each year by myriad human activities, which breach existing 
geographic barriers to dispersal--such as ocean basins and continents. 
Upon delivery and release, a subset of organisms survive local 
conditions in the recipient environment, a smaller subset become 
successfully established, and a still smaller subset is known to have 
significant impacts on economies, ecological functions, fishery 
resources, and human health.
    The rate of newly detected aquatic invasions has increased 
exponentially in many locations, both within the U.S. and overseas. 
Many different transfer mechanisms, or vectors, have caused invasions. 
The relative importance of individual vectors has varied geographically 
and temporally, reflecting differences in vector operation and probable 
differences in susceptibility of ecosystems to invasion.
    If current practices continue, the rate of species transfer is 
expected to increase even further, as existing trade activities expand 
and new trade activities develop. Invasion rates should increase with 
increasing rates of transfer.
    For example, the scale of commercial shipping--a major transfer 
mechanism, by itself responsible for most known marine invasions--is 
projected to increase many fold over the next 20 years, resulting in 
more ships, larger ships, faster ships, and more trading partners 
(sources of invaders). Each of these attributes will likely operate to 
increase the number of species delivered, and concentrations of 
organisms (within and across species) associated with shipping. In the 
absence of management actions, intended to reduce organism transfer, we 
should expect an increase in invasions to result.
    The extent and impact of aquatic invasions have become increasingly 
clear in the past few decades, warranting the great public concern that 
has resulted. However, there remain some fundamental gaps in knowledge, 
and especially predictive ability, for invasion ecology that have 
significant implications for management.
    First, although invasion rates should increase with organism 
transfer, the quantitative ``dose-response'' relationship--between the 
number of propagules (organisms) released and invasion success 
(establishment)--is poorly resolved and may vary geographically.
    Second, our predictive capability for both unintentional and 
intentional introductions is very limited at the present time.
    For unintentional introductions, like ship-mediated transfer, it 
remains extremely difficult to predict which species will invade, when 
they will invade, where they will invade, and what they will do. The 
identity of many transferred organisms is still not resolved. For 
example, U.S. ports receive approximately 50,000 commercial vessel 
arrivals per year that originate overseas, a minimum of tens-to-
hundreds of species are associated with each ship (in ballast tanks and 
on hulls), and the species composition is simply not known in advance 
for any one arrival. Even when identified, key aspects of biology and 
ecology for many (if not most) species are unknown. Thus, it is often 
not possible to predict when a species can survive in the recipient 
environment (i.e., the various aquatic habitats of the U.S.) or how it 
will perform--in terms of abundance, spread, and impact. Our predictive 
capability surrounding unintentional transfers is very limited at the 
present time.
    Even for intentional introductions, a high level of uncertainty can 
exist about the outcome of introduction. This results from limited 
information about biology and ecology, but also a fundamental 
uncertainty about whether behavior (i.e., population dynamics and 
ecology) in the native range can predict behavior in a novel 
environmental and biological setting. The current controversy 
surrounding the Asian oyster Crassostrea ariakensis provides an 
illustrative example. Although under consideration for introduction in 
Chesapeake Bay, very little information is available on the species, 
limiting predictions about the possible performance and effects within 
Chesapeake Bay and the Atlantic coast of North America.

Management of the Shipping Vector
    Management of the shipping vector is the most appropriate strategy, 
as a first step, to reduce aquatic invasions and their impacts for 
multiple reasons. First, on a national scale, shipping is the largest 
single source of known invasions, currently and cumulatively, to 
coastal marine ecosystems and the Great Lakes. Second, in my opinion, 
ship-mediated introductions--composed mainly of organisms transferred 
in ballasted materials and on hulls--cannot be effectively managed on a 
species-by-species basis (as outlined above).
    Implementation of ballast water management, including ballast water 
exchange and alternative technologies, should reduce the rate of 
invasions.
    It is however important to recognize some of the possible 
limitations (or unknown aspects) of ballast management.
    <bullet> Ballast management only addresses a portion of the 
problem. For ship-mediated transfer, the relative importance of ships' 
hulls versus ballast tanks is often not clear--since some organisms can 
be transferred by either mode. Although shipping is a dominant vector, 
other non-shipping vectors are also contributing to invasions.
    <bullet> The level of reduced invasions expected for various 
management actions is unknown, resulting from uncertainty about the 
dose-response relationship for invasions. Although a reduction in 
invasions should result from ballast water management, we simply don't 
know ``how low to go'' in reducing species transfer--which is a source 
of uncertainty about the appropriate goal or ``standards'' for 
treatments.
    These gaps in knowledge underscore the need for research and 
analyses, which measure (a) changes in species transfer and invasion 
patterns in response to management actions and (b) provide the 
scientific understanding of dose-response relationships and 
invasibility needed to guide management.

The Role of Tracking Ballast Management & Delivery
    Measuring changes in the ballast water delivery and management 
provides one measure of management effect. Tracking shipping and 
ballast discharge patterns for all vessel arrivals--both those from 
foreign ports and domestic ports--should be fully implemented to assess 
the effect of management on ship-mediated transfer. First, reporting by 
vessels informs us of how ballast water delivery, and arrival of hull 
surface (as a possible source of organisms), varies among ports and 
changes over time. Second, measurements of the effect of particular 
treatments (e.g., ballast water exchange or alternative treatment) on 
organism transfer, when combined with vessel reporting, provide an 
important short-term proxy of treatment efficacy--estimating how 
overall management practices influence delivery of organisms by 
shipping.

The Role of Ecological Surveys
    By comparison, ecological surveys measure the long-term changes in 
actual invasions associated with various management schemes.
    Ecological surveys (hereafter surveys), using standardized and 
repeated field measures, are a fundamental building block for invasion 
science and invasion management--providing critical information for 
prevention and control. Surveys are used to assess the following key 
attributes of invasions in our waters:
    <bullet> The source(s) of invasions, in terms of geographic origin 
and mechanism of introduction (or vector);
    <bullet> How invasion patterns vary in space and time; and
    <bullet> How effective management actions, including ballast water 
management, are in reducing the rate of new invasions.
    Surveys provide a tracking system to determine which species have 
colonized, or are in the process of colonizing, our aquatic habitats. 
With knowledge about the taxonomic identity and biology of these 
organisms, it is often possible to identify the mechanism or vector of 
introduction. This tells us which vectors and geographic source regions 
have resulted in successful invasions, historically and presently.
    Analysis of survey data--the cumulative picture across all non-
native species identified--can be used to estimate the relative 
importance of vectors or geographic source regions in space or time. 
Such an assessment of vector importance (possibly by source region) can 
be used to prioritize where prevention efforts are best directed, to 
reduce the largest number of future invasions.
    Beyond informing and directing initial management actions, surveys 
provide an essential feedback system to assess how well prevention 
measures work in reducing new invasions. Although we can assess the 
change in delivery of organisms by a particular vector, and how this is 
affected by management actions (as above), this does not tell us the 
effect of management action(s) on the actual number of invasions. Since 
we don't know enough about the quantitative ``dose-response'' 
relationship between number of organisms delivered and invasion 
success, it is critical to actually measure the efficacy of management 
action by invasion rate. Thus, should invasions continue to occur at an 
unacceptable rate (despite management actions), this indicates that 
further steps are required.

Susceptibility to Invasion
    Surveys also inform our understanding of which ecosystems are most 
susceptible to invasions, providing key information about dose-response 
relationships and factors that contribute to invasion resistance. 
Although invasions can occur in all ecosystems, there is clearly a 
great deal of variation in the number of established invasions among 
systems. Analysis of this pattern, using standardized surveys and 
shipping data (outlined above) across many bays and habitats, can be 
used to test for correlation with specific biological or environmental 
characteristics--elucidating which factors explain most of this 
variation. This approach can identify a suite of factors that may 
affect the success or failure of non-native species to establish--such 
as salinity regime, habitat disturbance, flow regime, or biological 
diversity--and help focus management actions to particular regions or 
habitats that are most vulnerable.
    I recommend this approach (using surveys) to test statistically for 
factors that influence susceptibility to invasion, combined with an 
experimental approach. This additional, experimental step is used to 
test whether there is a cause-effect relationship, or simply an 
association, between invasion outcome and particular factors. Thus, 
analyses of actual invasion patterns by surveys are necessary but not 
sufficient, by themselves, to guide management decisions about 
susceptibility or resistance to invasions.
    In my view, experimental measures and field surveys should operate 
together--in a well-coordinated fashion under one program, rather than 
separate programs--to strengthen the inferences drawn about invasion 
susceptibility. This is further enhanced by detailed vector information 
for the same localities. In the case of the shipping vector, this would 
include not only ballast discharge and management data (as above) but 
also some tracking of organism supply characteristics (pathway surveys) 
for ballast water and hull fouling.

Early Detection--Rapid Response
    I would like to draw a distinction between the ``ecological 
surveys'' and efforts associated with an ``early detection--rapid 
response system''. The former are designed to provide key information 
about sources and rates of invasion--across different sites, habitats, 
and environmental conditions--and essentially track how sources and 
rates are changing over time. This information is used to direct and 
evaluate management actions, focused largely on vectors and pathways of 
invasion. Although surveys may provide some ``early detection 
capability'' this is not the primary goal.
    In contrast, an ``early detection--rapid response system'' would 
require a more focused effort to detect a limited number of known 
``target'' species of concern. To have an early warning system would 
require frequent monitoring of specific habitats for a finite suite of 
organisms. In my opinion, it is not feasible to monitor for all 
organisms on a frequent basis--and allow for rapid response--due to 
obvious logistical and cost constraints. The goal of ``early 
detection'' is to trigger particular management actions (e.g., 
eradication, containment, etc.) for the target species. Using a focused 
list of species for such early warning detection, it is possible 
presently to locate ``sentinel sites'' for detection at locations with 
specific habitat and environmental conditions appropriate for the 
target species.
    Development of some rapid-response capability has merit, but I 
place a much higher premium on prevention efforts--including management 
actions, vector tracking, and ecological surveys (to estimate changes 
in invasions and efficacy of management actions). This stems from the 
fact that:
    <bullet> Early detection will locate only a subset of the target 
``high-impact'' species that colonize;
    <bullet> The effects of most invasions cannot be adequately 
predicted at the present time;
    <bullet> Successful control and eradication will likely be limited 
to a fraction of those organisms detected.
    A list of target ``high-impact'' organisms can be compiled, based 
upon experience elsewhere in the world, providing the basis for an 
early detection system. However, a ``target list approach'' will 
necessarily include a small subset of future ``high-impact'' organisms, 
as many additional species that are ecologically potent (i.e., will 
have significant impacts) will not appear on any such list--simply 
because they do not have a previous record of high-impact invasions. 
Thus, when a new incursion occurs, both for organisms on and off the 
target list, it will often be difficult to assess the likely impact and 
to decide on an appropriate trigger for rapid response.

Planned Introductions
    There are many species for which planned imports and introductions 
have received little scrutiny from an invasion perspective. Examples 
include organisms used for bait or food--such as the Vietnamese Nereid 
worm and the Chinese snakehead fish (although importation of the latter 
has recently been banned, following an invasion in Maryland). In 
addition, the recent discussion surrounding a possible introduction of 
the Asian oyster C. ariakensis to Chesapeake Bay underscores the lack 
of a coherent framework or policy surrounding intentional marine 
introductions.
    It is highly desirable to have an established framework for 
evaluation and approval of intentional introductions that is consistent 
among geographic regions. This approach recognizes that organisms can 
spread beyond political boundaries. Ideally, such a framework would 
include better tracking of imports, which are poorly characterized in 
terms of quantity, source, and species identity--making evaluation of 
invasion risks problematic. In addition, improved information exchange 
on intentional introductions, especially with the International Council 
for the Exploration of the Sea (ICES), would be an important 
improvement.

Conclusion
    In my opinion, the national strategy for aquatic invasions should 
focus predominantly on prevention. A strong program to reduce future 
invasions of unwanted species requires: (a) management actions to 
restrict or interrupt the scale of unintentional transfers, (b) 
tracking systems to measure the short-term response of management 
action on transfer, and (c) ecological surveys to assess the efficacy 
of management actions on invasion patterns and rates, and to identify 
new vectors as they emerge. A parallel program should exist to 
rigorously screen intentional (planned) introductions, providing a 
formal cost-benefit analysis aimed at reducing the likelihood of 
introduction for ``high impact'' species and those species for which 
considerable uncertainty exists about impacts.
    Control measures such as mitigation and eradication efforts, 
including rapid-response, can have merit. However, such measures are 
idiosyncratic to the target species, the results are somewhat 
uncertain, and this approach can only hope to address a small subset of 
problems associated with invasions following establishment. As a 
result, I believe prevention is a more efficient, reliable, and cost-
effective strategy to limit invasions and invasion impacts, when 
compared to control measures, and should be the primary focus for 
available resources.
                                 ______
                                 
    [Attachments to Dr. Ruiz's statement follow:]

                               APPENDIX 1

   Role of the Smithsonian Institution in Coastal Invasion Research:
Marine Invasion Research Laboratory, Smithsonian Environmental Research 
                           Center (May 2002)

Overview
    The Smithsonian Environmental Research Center (SERC), located on 
the shore of Chesapeake Bay, is a leading national and international 
center for research in the area of non-native species invasions in 
coastal ecosystems.
    SERC has developed the largest research program in the U.S. to 
focus on coastal invasions.
    A primary goal of SERC's Marine Invasion Research Laboratory is to 
provide the fundamental science that is critical to develop effective 
management and policy in this topic area. In short, SERC's invasion 
research bridges the gap between science and policy, to develop a 
scientific understanding that is key to guide and evaluate management 
strategies for invasive species.
    The Marine Invasion Research Laboratory has a staff of 
approximately 20 biologists, who conduct research throughout the 
country and overseas. Since it's inception 10 years ago, the laboratory 
has been a nationwide training center in invasion ecology for roughly 
35 technicians, 4 graduate students, 5 postdoctoral researchers, and 40 
undergraduate summer interns. The students and technicians arrive from 
all over the country, staying for 3 months to many years. Many 
participants in this program have gone on to graduate training and 
academic or government positions in Alabama, California, Connecticut, 
Hawaii, Massachusetts, Tennessee, Washington, Washington D.C.

Research Program
    As a national center, SERC's Marine Invasion Research Laboratory 
provides synthesis, analysis, and interpretation of invasion-related 
patterns for the country. Under the National Invasive Species Act of 
1996, the U.S. Coast Guard and SERC created the National Ballast Water 
Information Clearinghouse, hereafter Clearinghouse, to collect and 
analyze national data relevant to coastal marine invasions (see Box 1). 
Established at SERC in 1997, the Clearinghouse measures:
    <bullet> Nationwide Patterns of Ballast Water Delivery and 
Management. All commercial ships arriving to all U.S. ports from 
overseas report information about the quantity, origin, possible 
control measures for their ballast water - a primary mechanism for 
transfer of non-native marine species throughout the world. At present, 
SERC receives roughly 20,000 such reports per year. Every two years, 
SERC provides a detailed analysis and report to U.S. Coast Guard and 
Congress on the patterns of ballast water delivery by coastal state, 
vessel type, port of origin, and season. A key issue is the extent to 
which ships undertake ballast water exchange, a management technique to 
flush potential invaders out of the tanks prior to arrival in U.S. 
waters. SERC's analyses are used by U.S. Coast Guard and Congress to 
assess national needs with respect to ballast water management and to 
track program performance.
    <bullet> Rates and Patterns of U.S. Coastal Invasions. SERC has 
developed and maintains a national database of marine and estuarine 
invasions to assess patterns of invasion in space and time. This 
database compiles a detailed invasion history of approximately 500 
different species of plants, fish, invertebrates, and algae that have 
invaded coastal states of the North America. Among multiple uses, the 
database identifies which species are invading, as well as when, where, 
and how they invaded; it also summarizes any existing information on 
the ecological and economic impacts of each invader. Over the long-
term, this database will help assess the effectiveness of various 
management strategies (such as ballast water management, above) in 
reducing the rate of invasions. More broadly, this information is a 
valuable resource for many user groups--from resource managers and 
scientists to policy-makers and industry groups.

[GRAPHIC] [TIFF OMITTED] T2806.001

    SERC has further expanded the scope of Clearinghouse activities to 
improve the quantity and quality of data on coastal marine invasions 
that are used to (a) assess the rates and patterns of invasion and (b) 
inform key management decisions at national, regional, and local 
levels. Through competitive grants, we have initiated two components in 
this area, including:
    <bullet> Nationwide Field Surveys. SERC has implemented an 
ambitious program of field surveys to detect new invasions, as well as 
measure contemporary patterns and effects of invasions, for 15-20 
different bays throughout the country (see Figure 1). Our intent is to 
expand this program to include additional regions, providing a national 
baseline of information with which to evaluate invasion rates. The 
resulting information will contribute to the national database (above) 
and will be used both to document patterns of invasion and to assess 
the effects of management on invasion rates (as discussed above).
    <bullet> Comprehensive National Database. SERC has established a 
formal agreement (Memorandum of Understanding) with the U.S. Geological 
Survey's Caribbean Research Center to develop a comprehensive database 
of all freshwater and marine invasions in the United States. SERC 
maintains a database of exotic marine species (above), and the U.S.G.S. 
maintains a complementary database for exotic freshwater species. Our 
goal is to functionally link these databases, creating web-based access 
to key information about each species for managers, researchers, 
policy-makers and the public.
    In addition to the Clearinghouse role of analysis and 
interpretation of national data, SERC also conducts research to 
understand underlying mechanisms of species transfer, invasion, and 
ecological effects of invasions. This research serves a dual purpose of 
advancing our fundamental knowledge of invasion processes and using 
this knowledge to improve prediction and management strategies for 
invasions. Some selected examples of our research in these areas, 
funded by external grants and contracts, include:
    <bullet> Measuring the Patterns and Processes of Species Transfer 
Associated with Shipping. The Marine Invasion Research Laboratory has 
measured the density and diversity of organisms in the ballast water of 
approximately 450 different commercial vessels, primarily oil tankers 
and bulk cargo carriers that arrived to Chesapeake Bay and Port Valdez, 
Alaska. This has been a collaborative and cooperative research program 
with the shipping industry, over the past 8 years, to better assess the 
risks of invasion and effectiveness of various management techniques to 
reduce that risk. We are now expanding this research to include 
container ships arriving to San Francisco Bay, expanding existing 
measures to include a different vessel type and geographic region than 
the previous studies.
    <bullet> Assessing the Magnitude and Consequences of Pathogenic 
Microorganism Transfer by Ships. Very little is known about the 
relative risks of pathogens, both for humans and commercially important 
species, which are transferred in ballast water. SERC's invasion 
program is measuring the concentration of microorganisms and human 
pathogens, including Vibrio cholerea (causitive agent of epidemic human 
cholera), discharged into U.S. waters with the ballast water of ships. 
In addition, we are conducting experiments to test the viability and 
potential significance of these transfers to result in newly 
established populations, or invasions, of pathogenic organisms.
    <bullet> Measuring the Ecological Impacts of Non-Native Species. 
SERC has implemented a broad range of field-based and experimental 
studies to measure the effects of marine invasions in coastal 
ecosystems, including impacts on commercial fishery resources. Much of 
this work to date has focused on the European green crab (Carcinus 
maenas) impacts in California and New England. We have also implemented 
experiments in California and Virginia to test for effects of 
particular fouling organisms on invaded communities, and the extent to 
which this is exacerbated by human disturbance (e.g., pollutants, 
hypoxia, etc.). The overall goal of work in this area is to understand 
and predict impacts of invasions across a diverse array of coastal 
communities.
    <bullet> Testing Invasibility of Communities. We have just begun 
manipulative laboratory and field experiments to test environmental and 
biological factors that influence invasibility of marine communities. 
Our work in this area focuses on microorganisms and invertebrates. The 
main objective of this research is to measure the dose-response 
relationship between delivery of organisms and subsequent invasion, and 
how this may vary across different environmental and biological 
conditions. This approach has direct bearing on the effect (and target) 
for management strategy to reduce the delivery of non-native organisms 
by ships or other vectors.
    <bullet> Feasibility of Eradication and Control of Established 
Marine Invasions. SERC has also initiated work to test the feasibility 
of eradication and control for a non-native marine snail in San 
Francisco Bay. This is effectively a demonstration project to 
critically examine management strategies, based upon key habitat and 
biological characteristics, and develop the decision process (i.e., 
under what conditions and for which species) and capacity for 
eradication.

Geographic Coverage
    SERC's Marine Invasion Research Laboratory, with staff based at 
Chesapeake Bay and San Francisco Bay, has established research sites 
throughout the U.S. to implement its research programs, in 
collaboration with researchers from approximately 25 different academic 
institutions and federal or state agencies. For example, active 
projects and collaborations are on-going in the following states: 
Alaska, California, Connecticut, Florida, Maine, Maryland, 
Massachusetts, Michigan, New Jersey, Oregon, Rhode Island, Texas, 
Virginia, Washington, and Washington D.C.
    Internationally, SERC has become increasingly active over the past 
5 years. A primary goal of the international program is to foster 
information exchange and build complementary, comparative, and 
collaborative research programs. For example, the Marine Invasion 
Research Laboratory has active collaborations in many areas of invasion 
ecology with the Centre for Research on Introduced Marine Pests (CSIRO, 
Australia). This includes comparative analyses of invasion patterns and 
effects, as well as development of an international standard for 
databases on marine invasions. Another long-term collaboration exists 
with scientists in Israel, where we have measured changes in the 
ballast water communities during roughly 20 different voyages between 
Israel and Chesapeake Bay. SERC also has been a participant and sponsor 
of international conferences and workshops on marine invasion ecology.
    Although SERC programs are active at the national and international 
scales, a great deal of this effort has also focused on understanding 
invasion issues at the regional scale. In fact, this program has 
conducted research on invasions in nearly every coastal state in the 
country, producing regional understanding as well. Examples include:
    <bullet> Analysis of invasion patterns for Chesapeake Bay over the 
past 400 years, representing the first such analysis for the Chesapeake 
as well as any estuary in the eastern U.S. This documents the invasion 
history of 160 non-native species established in this Bay.
    <bullet> Analysis of extent of invasions for Prince William Sound, 
Alaska, providing the most detailed analysis in the world to assess the 
risks of invasion for a high-latitude system.
    For More Information about the Marine Invasion Research Laboratory 
contact:
    Monaca Noble, Smithsonian Environmental Research Center, P.O. Box 
28, Edgewater, Maryland 21037 USA; Phone - (443)482-2414; FAX - 
(443)482-2380; email - <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="264849444a43665543544508554f08434253">[email&#160;protected]</a>; website - http://
invasions.si.edu/

[GRAPHIC] [TIFF OMITTED] T2806.002



    Mr. Gilchrest. Thank you, Dr. Ruiz.
    I would like to pose the first question to anyone at the 
table, for all the witnesses to respond to. This is the first 
introduction of this legislation, and we want to pursue it in a 
way that is the most effective. And I understand concerns about 
deadlines, concerns about standards and interim standards and 
things like that, and the fact that you have been working on 
this for over a decade, but I can assure you that we are going 
to push as hard as we can to get a piece of legislation passed 
in the first 100 days.
    So I would like to have you give your perspective on how 
this legislation will affect the following three things--the 
status of let us say a particular invasive species program like 
zebra mussels and how to prevent zebra mussels from going west 
of the 100th Meridian; how this legislation will affect the 
National Dispersal Barrier Program in an understanding of how 
it is or is not working right how; and how this legislation 
will affect compliance--for example NISA 1996 basically was a 
voluntary program unless there was inadequate compliance, and 
then it would be a mandatory program.
    I would like to have some understanding of, where there has 
been inadequate compliance with NISA 1996, how many areas have 
been required to go to the mandatory route and how will this 
legislation impact that.
    Captain Brown. I can start with your last item first with 
regard to how this Act will affect compliance.
    The current legislation gives us the authority to--
    Mr. Gilchrest. Do you mean the current statute?
    Captain Brown. --the current statute, yes, that is 
currently in effect--not the new one, not the NAISA--does give 
the Coast Guard the ability to issue the regulation to make 
ballast water exchange and ballast water management activities 
mandatory, and we are in the process of doing that.
    Now, as you rightly pointed out, it was a voluntary 
program, and one of the first things that we are looking to do 
in terms of our regulatory program is to establish some penalty 
provisions for failing to report. While there was a requirement 
to report your ballast water management activities in this 
voluntary program, there were not penalty provisions for it, so 
the rate of compliance was not very good.
    So our first step is to establish some penalty provisions--
    Mr. Gilchrest. So you are taking that step as a separate 
part of this legislation?
    Captain Brown. That is correct, sir.
    Mr. Gilchrest. So those people who were not in compliance, 
you are going to pursue a penalty as opposed to mandatory?
    Captain Brown. Not exactly. What we are proposing to do is 
we are going to do both. We are going to establish a penalty 
provision to ensure that everyone who is required to report 
right now--because the current legislation does require that 
even though the measures are voluntary, the reporting of those 
measures is mandatory. So without the penalty provision--
    Mr. Gilchrest. What areas are not in compliance?
    Captain Brown. I am sorry, I do not know what you mean, 
sir.
    Mr. Gilchrest. Can you tell me what areas around the 
country are not in compliance with NISA 1996?
    Captain Brown. Both the Atlantic Coast and the Pacific 
Coast. In the Great Lakes, the requirements are already 
mandatory, so the reporting requirements in the Great Lakes are 
relatively high.
    Mr. Gilchrest. So you are saying that everybody except the 
Great Lakes is not in compliance?
    Captain Brown. That is correct.
    Mr. Gilchrest. Interesting. Do you think this legislation 
will help bring about a better protocol to bring people not 
only into compliance, but reduce invasive species?
    Captain Brown. Well, yes, it would, but the existing 
legislation that is currently in effect, NISA, will also have 
that effect.
    Mr. Gilchrest. But it has not had that effect yet.
    Captain Brown. That is correct. That is because the 
measures were voluntary, and we had to give the voluntary 
measures a chance to work to see how well they would perform. 
We did that for well over a year. We found that they were not 
working very well. So now we are in the process of establishing 
mandatory provisions.
    Mr. Gilchrest. Has it been difficult to establish the 
mandatory provisions because there have not been any standards?
    Captain Brown. No, sir. The mandatory provisions that we 
are going to apply first will be the ballast water management 
issues and then, secondarily, the establishment of some sort of 
a standard that all vessels will ultimately have to meet. Now, 
the way they meet that standard will be left up to them. If 
they can meet it through a ballast water exchange, that is 
fine; if they meet it through some kind of treatment 
technology, that is fine. We will not be that prescriptive. We 
will just be setting a standard to say that this is the maximum 
allowable amount of organisms that can be permitted--
    Mr. Gilchrest. When will you come up with that?
    Captain Brown. We would hope to be able to have a 
definitive standard in 2004.
    Mr. Gilchrest. In 2004. We are looking for an interim--will 
you have an interim standard before that?
    Captain Brown. We are not looking to do an interim standard 
at this time. We are just focusing on the final standard. Now, 
in the interim before this final standard is reached, we would 
look to have mandatory ballast water management policies and 
procedures such as ballast water exchange, such as limiting 
your intake in an area of known algae bloom, for example, et 
cetera, et cetera.
    Mr. Gilchrest. My time is up. We will have a second round, 
I think.
    I would like to ask you a yes or no question--I hate it 
when people ask me yes or no questions--but Captain Brown, do 
you think the legislation before us today is necessary or 
unnecessary?
    Captain Brown. I think it is necessary in the sense that 
NISA should be reauthorized. Our concerns are that the 
legislation that we have before us today is unduly 
prescriptive. We believe that there are a lot of good things in 
this legislation, we believe that the NISA should be 
reauthorized, but we would like to work with you to work out 
the details.
    Mr. Gilchrest. Thank you.
    I guess what we are doing is giving a homework assignment 
with a deadline on it.
    Mr. Underwood?
    Mr. Underwood. Just as a quick follow-up, has the existence 
of voluntary standards as opposed to mandatory standards 
allowed industry to kind of string out the process in terms of 
adopting best technology?
    Captain Brown. I do not know that I can answer that, 
because I do not have a sense of what the industry's 
decisionmaking process is. The fact that there are not 
mandatory requirements means that industry is not obligated to 
comply with any particular requirements.
    So I would have to defer that question to perhaps someone 
from industry. Clearly, they are not in compliance or they are 
not complying very much with the voluntary standards. That is 
something that we found that was quite clear. There is a big 
difference between compliance in the Great Lakes as opposed to 
the rest of the country.
    So, clearly, some sort of mandatory requirements are 
needed.
    Mr. Underwood. Well, I would assume that the difference 
between the Great Lakes and the other areas proves that you 
need something stronger than voluntary standards.
    Captain Brown. We agree, and that is why, after we have 
given the voluntary standards the opportunity to work as per 
the direction in NISA, found that they did not work, reported 
this to you, we are now in the process of establishing 
mandatory requirements.
    Mr. Underwood. What additional incentives might work other 
than requiring more than voluntary standards?
    Captain Brown. One thing that we are looking to do is, in 
addition to mandatory ballast water management, encouraging 
experimental technologies. We would look to establish some sort 
of protocol for a firm to come in and say, ``I would like to 
try this experimental technology aboard my vessel,'' and if we 
approve the protocol, after having some peer review to be sure 
that the technology looks promising and that it will do no 
harm, if you will, we would be prepared to look at some sort of 
grandfathering provision.
    In other words, when standards are ultimately developed, if 
you are part of an experimental program and you have an 
experimental technology that you have installed upon your 
vessel, you would be considered to be in compliance for some 
period of time after the new standards came into effect. So you 
would not be making an investment for nothing, in other words.
    Ultimately, all vessels would have to comply with whatever 
the revised and final standard would be, but we understand that 
a businessman wants to make a business decision; he does not 
want to invest a great deal of capital on something that may be 
overtaken by events within a year or two.
    Mr. Underwood. Mr. Keeney, do you have any comment on that 
general question?
    Mr. Keeney. Yes, Representative Underwood.
    I just want to give an example with regard to the voluntary 
nature as to how it is working. I understand that there was a 
report due in June of this year, and it was a mandatory report 
that was required, and only 30 percent of those who were to 
respond actually filed a report.
    So we believe that a mandatory program for ballast water 
management is absolutely necessary.
    Mr. Underwood. Dr. Ruiz, do you have a comment on that?
    Dr. Ruiz. Yes. I too believe that a mandatory program is 
necessary and desirable. What I believe is happening is that 
the Coast Guard is going forward with that program. Many of the 
elements that they have been developing are included in the 
present legislation, so I do not think there is much 
disagreement about the desirability of pursuing that approach.
    Mr. Underwood. Mr. Williams and Mr. Keeney, have we ever 
successfully eradicated an aquatic nuisance species?
    Mr. Williams. Well, we certainly hoped we had with the 
snakehead fish that we saw this summer in Maryland. I do not 
know that I can tell you definitively yes or no.
    Mr. Underwood. Mr. Keeney?
    Mr. Keeney. I am not aware of any examples where we have 
eradicated the species.
    Mr. Underwood. Dr. Ruiz, you are nodding your head.
    Dr. Ruiz. Yes. There are a number of examples that I think 
have changed the way people think about eradication in marine 
systems.
    There is a sabellid worm, a polikeet worm, that colonized a 
portion of the California coast and appears to have been 
successfully eradicated. It was very limited in distribution. 
There is a marine algae Caulerpa that had become established in 
a couple of bays in Southern California, and an eradication 
program has been undertaken--it may be premature to say that it 
has been successful, but it looks promising. And there are some 
examples from other parts of the world, too, that say basically 
that it can be done under particular circumstances where you 
have fairly limited distribution and the appropriate biology, I 
guess.
    Mr. Underwood. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    I have a host of questions of various people, but I think I 
will concentrate on the Coast Guard. And no offense to you and 
no personal attack intended on you, Captain Brown.
    But Captain Brown, you are the logical agency to carry this 
out. My problem is that you are the logical agency, you have 
the responsibility. The first law was passed in 1996, yet it 
took the Coast Guard 6 years to even issue an Advance Notice of 
Proposed Rulemaking, which is virtually nothing.
    I think the Coast Guard has failed miserably in this task, 
and yet you say that this legislation is overly prescriptive. 
The reason is that you have not done the job, so we are going 
to specifically tell you how to do the job until you prove that 
you can do the job.
    It is a major problem in many areas, and I recognize that 
in a few special circumstances, we have been able to eliminate 
invasive species, but in Michigan, we have had the lamprey eel 
for years. We spend a lot of money every year dealing with it, 
both the Federal and the State governments. We now have the 
zebra mussel. The cost just to the boat owners in Michigan is 
in the neighborhood of $100 million per year. Now, I do not 
know how that rates compared to how much you are spending 
trying to deal with invasive species, but that is a lot of 
money, and that is just the cost to individual boat owners in 
one State of the Union. If you add together the costs to 
municipal water systems, to power plants, and so forth, you are 
getting into huge amounts of money because of one little 
critter that got in.
    I was also disappointed to meet with your predecessor a few 
years ago to talk about this issue when I first got involved, 
and in retrospect, he was basically telling me do not do 
anything--everything is fine, we are going to take care of it--
and nothing has been done. We obviously have to do something.
    Yet in your testimony--which, incidentally, was not 
submitted until this morning, contrary to Committee rules, and 
contains an incomplete sentence, which indicates that it did 
not get a lot of thought--in your testimony, you say that your 
current strategy is ``both sound and aggressive.'' I have seen 
no evidence at all that it is either sound or aggressive, and 
you have a long way to go to convince me that it is.
    Now, I am not here to chew you out, but I think the Coast 
Guard has simply failed, and I hope we will see better examples 
of taking this problem seriously. If you do not--I recognize 
that you have too many jobs given to you and not enough money, 
especially with drug interdiction which has been added to your 
duties--but if you do not have the resources, we have to know, 
and if you do not want to do it, we have to know, and we will 
get someone else to do it.
    Out of fairness, I want to give you a chance to respond.
    Captain Brown. Congressman, I certainly understand your 
frustration. Clearly the costs from an economic standpoint, 
from a biodiversity standpoint, of aquatic nuisance species are 
considerable, and we recognize that this is a problem that does 
need to be addressed.
    That said, we do believe that we are moving in a 
deliberative fashion to generate the appropriate rulemaking 
documents, take the appropriate regulatory approach to address 
the problem.
    We believe that we did follow the mandates of the 
legislation that called for us to establish a voluntary 
program. We did the voluntary program and found that it did not 
work, and as soon as we found that it did not work, we started 
a process to make that program mandatory.
    We recognize that ultimately, there has to be a standard. 
There is an issue where there is considerable divergence of 
opinion, as some of my colleagues have pointed out, as to what 
this standard ought to be, because we want to make sure that 
whatever standard we come up with, we want to be sure that the 
standard is effective, is scientifically supportable, and is 
going to do the job, especially since we recognize that 
establishing any kind of rulemaking regime imposes costs, and 
we want to be sure that when we do that, we are doing so in the 
most responsible way possible.
    So I hear you, and the Coast Guard hears you, sir, with 
regard to the frustration. I assure you that we are not sitting 
on our hands on this. We are trying to work as quickly and as 
deliberatively as possible so that we can get the job done in a 
manner that meets the needs of the Nation.
    Mr. Ehlers. Well, you have mentioned that it is a 
deliberative process, but I think that is the problem. Six 
years from the time the bill passes and becomes law until you 
take an action is simply too deliberative.
    And when you talk about costs--and the shipping industry 
has talked to me, too, about their costs, and I said, ``Well, 
that is fine. If those costs are too great, I will tell you 
what--you do whatever you want, but we will make you pay the 
costs resulting from these invasive species coming in. Which do 
you want?'' Obviously, they do not want to pay that.
    Also, on the matter of the standards, I know you are 
concerned about the standard that we put in the bill, and 
rightfully so, because it is not established scientifically. 
That is simply because we have to do something immediately to 
create action, and that is why we put it in the bill while you 
go through the deliberative process.
    That is the other reason I introduced the bill dealing with 
research. I think we need a great deal more research before we 
will really know precisely what we should be doing. But in the 
meantime, we cannot stand still and wait until we know enough 
to do it right. We have to start doing something immediately.
    Can you give me some specific time lines as to when your 
standards will be issued and when you expect them to be 
implemented if we do not pass this legislation?
    Captain Brown. We would expect that our ballast water 
management regulations would be out next year, and we would 
expect the standards to be promulgated the following year, in 
2004.
    Mr. Ehlers. Can you be more specific on the dates--at least 
which quarter?
    Captain Brown. We would anticipate the standards in the 
last quarter of 2004.
    Mr. Ehlers. And the first step you said would be next year?
    Captain Brown. Yes, sir. We are looking to do essentially 
four things--establish a penalty provision, which we hope to 
have out fairly quickly; an experimental technology protocol so 
that individuals can know how they can go about trying to 
establish an experimental technology program aboard their 
vessel, and we hope to have that out at the beginning of next 
year; we look to have some sort of ballast water management 
rulemaking next year, 2003, and the final standards in 2004.
    That said, I must be honest with you. The implementation 
date, even though the standards may be out, we are not in a 
position to say when that implementation date would be. We may 
say that the standards are out in 2004, and there may be some 
period of time for ships to come into compliance. So I want to 
be clear. I do not want to mislead you or anything in that 
regard.
    Mr. Ehlers. I will write those on my office wall, and in 
the meantime, we will proceed with our legislation.
    Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Ehlers.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Williams, in your testimony, you said that you 
supported the legislation's interagency approach in many areas, 
and then you described your support for the research on 
pathways to determine how invasive species are entering into 
the United States.
    Do you think that these bills adequately address or provide 
enough flexibility to Federal authorities to address the 
introduction of these nuisance species by means other than 
ballast water discharge--for example, with some of the carp 
that are coming in, where there is the Asian ritual of buying 
two fish and letting one go, or the Asian carp which was 
introduced in southern Illinois by fish farmers to help keep 
the fish ponds clean.
    Mr. Williams. I think the legislation really advances the 
ball, if you will, on that. There are some areas that I am 
really not prepared to go into at this time that we would like 
to work with staff to fine-tune. But I think this legislation 
really provides a number of things. One, just the fact that we 
are sitting here discussing this raises the level of awareness, 
certainly in Congress and with the American people, and that is 
something that, in my experience working for State government 
in three different States and trying to deal with zebra 
mussels, for instance, we assume--professionals assume--that 
everyone is aware of this and everyone is looking and checking 
their boats and trailers and so on, and in fact that is not the 
case.
    So again, the awareness that this bill provides to the 
issue and the resources that it provides Federal and State 
agencies is long overdue.
    Mrs. Biggert. Thank you. Could you or Mr. Keeney tell me 
about the regional panels that currently work on the invasive 
species councils? Who sits on these panels, and what is their 
role?
    Mr. Williams. Let me take a shot at it, and then, Tim, if 
you want to jump in.
    The Aquatic Nuisance Species Task Force is co-chaired by 
the Fish and Wildlife Service and NOAA. There are at this time 
four different panels--Western Region, Great Lakes, Northeast, 
and the Gulf of Mexico. They are obviously made up of staff 
from both of our agencies. It also involves resource agency 
staff from States within those panels.
    Tim, I do not know if you want to add anything.
    Mr. Keeney. I would just add that the panels are very 
broadly based. They have representatives from State 
governments, tribal governments, stakeholders. We are looking 
at the possibility right now of creating a new panel for the 
Mid-Atlantic Region. The Great Lakes panel has been doing a 
great job for quite a while now.
    Mrs. Biggert. I guess the reason I am asking this is 
because it was mentioned in the testimony the problem of 
coordination with all the different agencies, and then we have 
the regional panels and the Council. Will these bills all of 
these groups to work more efficiently together?
    Mr. Keeney. It will assist them; yes, it will.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mrs. Biggert.
    Mr. Gutknecht?
    Mr. Gutknecht. Thank you, Mr. Chairman.
    A lot of the things that I wanted to say and ask have 
already been said and asked. I would just remind everybody here 
that we have been laboring on this issue for a very long time, 
and the idea that we passed legislation in 1996, and we still 
have not fully promulgated the rules in 2002 just reminds me 
that we won World War II in less time than that.
    This is unacceptable. And I am not a trial lawyer, and I 
really have no particular love for trial lawyers, but it 
strikes me that what we are setting the ground for here is a 
massive class action suit against the shippers.
    It seems to me that if I were a shipping company, I would 
be eager to at least get something done here, because in the 
absence of that, the door is wide open, because as Mr. Ehlers 
pointed out, we have hundreds of millions of dollars worth of 
damage. And again, I am not a lawyer, but I do understand the 
principle of tort liability--for every wrong, there is a 
remedy. And that remedy may be in Federal court.
    It strikes me that all the Government agencies, whether it 
is the Coast Guard or whomever, have a huge responsibility to 
get busy on this problem, and we do not see it happening. Maybe 
the best thing we could do is repeal it all and say just settle 
this all in Federal court and see how much it costs.
    I yield back my time.
    Mr. Gilchrest. Thank you, Mr. Gutknecht.
    In case there are any other questions, I am just going to 
very briefly start another round before we bring the next panel 
up.
    The panel is receiving the grave concern of Members of 
Congress about the issue of invasive species not being solved 
yet. We started in 1990. We reauthorized it and made some 
changes in 1996, and now it is 2002.
    I think all of us understand the huge complexity of a 
constantly evolving ecosystem down to the level of 
microorganisms and how fast they change from phytoplankton to 
toxic dinoflagellates, and how quickly they adapt and maneuver.
    I know the Chesapeake Bay is still battling with the huge 
problems of MSX and dermo, which have fundamentally decimated 
about 90 percent of the oysters in the Chesapeake Bay, and that 
was probably at least in part by the introduction of some Asian 
species of oyster and ballast water.
    So that periodically, there is potential for this type of 
explosion of invasive species which decimate for decades, or 
maybe centuries, the ecosystem, which in our case is the 
Chesapeake Bay. It could be the Great Lakes. It could be the 
Gulf of Mexico. It could be the San Francisco Bay. It could be 
anywhere.
    So our frustration up here--and we have always, I think, 
collectively understood that frustration is a bad trait to have 
for a very long period of time, because it is not good for the 
ecosystem of our metabolisms--so what we are trying to do is be 
a little more clever and direct our energies to accelerate the 
process, not to the point where we are coming up with the wrong 
standard, a size limit or an organism limit versus a percentage 
limit, or how do we exchange ballast water versus some other 
creative alternative that the private sector is now undergoing.
    So we are going to move forward as quickly as possible 
starting in the 108th Congress and get something passed, come 
hell or high water, in the first 100 days. So we want you fully 
engaged in this process, and we want you fully aware that we 
are going to move along with this process.
    There are just a couple of quick items, though, that you 
could probably help us with--and I know that Federal agents do 
not like to do things that the mysterious OMB entity would 
oppose, because we very rarely see any real human being from 
OMB, but they are this big, massive--do you think the Speaker 
of the House has power? No. Do you think the President has 
power? Not always. But OMB--we should sick him after Osama bin 
Laden.
    We are going to move forward, and we are going to move 
forward fast. So what do you need? Is it a manpower problem 
now? Is it a resource problem? Is it a leadership problem? We 
want to put it into that legislation. We understand the 31--I 
think somebody mentioned 31 deadlines. I know there is always a 
problem with lawsuits if you come up to a deadline--and we are 
going to come up with an interim standard; we are going to have 
an interim standard. So you are going to have to help us with 
the best kind of interim standard. Is it 50 microns? Is it 95 
percent? What kind of interim standard do we need, because we 
are going to implement it as quickly as possible.
    So what do you need--resources, manpower, more scientists, 
more collaborative effort, the interim standards, the 
deadlines--those kinds of things. And you do not have to give 
me all of those answers right now, but I think that to some 
extent, those are the kinds of things that we really need to 
pull in. And what should we do with the Lacey Act? Do we need 
more power, more authority with the Lacey Act? Is the snakehead 
fish on the Lacey Act now?
    Mr. Williams. Yes.
    Mr. Gilchrest. Good, good. Is the black carp on the Lacey 
Act, the black Asian carp?
    Mr. Williams. Mr. Chairman, first off, let me back up and 
note for the record that I like OMB. I think they are 
wonderful.
    [Laughter.]
    Mr. Gilchrest. OK, great. Good. We like OMB, too. I do not 
want to start a big battle between us--although you submit your 
testimony, OMB goes through your testimony and changes your 
testimony. Sometimes we have a chance to see the original 
testimony from different agencies before it goes through the 
filter. But we are all Americans here, we are all 
collaborative, and we want to make this thing work.
    Mitch Daniels is a great guy.
    Mr. Williams. He is a wonderful guy.
    Mr. Gilchrest. Let the record show that.
    Mr. Williams. Ditto.
    On the black carp, the comment period has closed, and we 
are reviewing those comments. We had proposed to put it on the 
list of injurious species, so we will be making a decision on 
that in the near future.
    Mr. Gilchrest. Great.
    My time is up for the second round.
    Mr. Underwood, do you have any questions--I'm sorry. Mr. 
Underwood, I guess, is yielding me his time for anybody else 
who wants to respond. He wants to hear any response that might 
be out there--you do not have to mention OMB, just tell us what 
you need to get this thing going.
    Do you want us to have interim standards? If you do not--
Dr. Ruiz?
    Dr. Ruiz. I guess I would just like to comment that I 
really appreciate and share your sense of urgency that we 
should move forward. This is a complex problem maybe not unlike 
issues having to do with air quality or water quality or cancer 
or global change. It is a very complex problem, but that should 
not stop us from moving forward and taking our best guess at 
what needs to be done and providing feedback systems to 
evaluate how it is going.
    So I think I share your sense of urgency and that we should 
go forward.
    From my perspective, I think one of the impediments in the 
past has been actual funding to move some of these things 
forward. And if you look at the 1996 legislation and the 1990 
legislation, I believe that, as with most legislation, only a 
fraction of the authorization to implement those components was 
actually appropriated. So I see that as an impediment that is 
understandable. There is that disconnect between authorization 
and appropriation, but I think that has limited our progress in 
some areas.
    Thank you.
    Mr. Gilchrest. Thank you.
    Mr. Keeney. Mr. Chairman, I would like to say a few things. 
First of all, with regard to leadership, I think we have that. 
I think there is a lot of interest in this issue; it is a very 
high priority.
    Resources are always a challenge, and obviously, we are 
competing against other requirements within our own agency. 
There is only so much money that Congress can give us. We are 
also, of course, competing with national interests, and 
homeland security, of course, is the big focus, and that takes 
a lot of support.
    With regard to the interim standard, we support it. NOAA's 
primary concern is really the final standard. A 95 percent kill 
rate would certainly represent an improvement over what we 
currently have. We could live with it for an interim standard, 
but we would ultimately want to go beyond that. Something that 
limits discharge to, say, 100 cells per liter at the point of 
discharge would be of interest to us.
    NOAA is concerned that we should be locking in a specific 
approach as we move toward the final standard. Often, an 
interim standard becomes the basis for a final standard, and as 
pointed out in my testimony, there are some problems with the 
percentage kill rate.
    Mr. Gilchrest. Could I just ask a question on behalf of Mr. 
Underwood?
    Actually, I have two questions. I think the interim 
standard is not the critical thing here. I know the final 
standard is critical. But instead of losing some time with 
probably the private sector that will come up with the 
mechanism or the way that we are going to irradiate or 
eliminate or mechanically eliminate the organisms, don't they 
need some type of basis upon which to begin creating those 
things, finding the technology? Is it going to be 95 percent, 
or is it going to be a certain micron or a certain centimeter 
or millimeter or something like that?
    So for us to send a signal to the private sector, I think--
as we go through this process, before this bill gets signed 
into law, I would like to have something in the interim so that 
whoever is producing these things to kill these microorganisms 
will have some standard to begin to go by.
    Mr. Keeney. I might just say, Mr. Chairman, that I am 
always moving in the direction of a size standard for an 
interim period. They are looking at a standard which would 
provide no organisms above something like 50 or 100 microns 
could be discharged. That is just something to keep in mind. I 
think we need to remember what that organization is doing as 
well.
    Mr. Gilchrest. You can answer also, Captain. My time is 
almost up--or, Mr. Underwood's time is almost up.
    Mr. Underwood would like to know if there should be a zero 
discharge goal for ballast water. That can be a one-word 
answer.
    Mr. Keeney. I do not believe so.
    [Pause.]
    Captain Brown. If I may, a zero discharge for--I assume you 
are talking about a zero discharge of treated ballast water as 
opposed to no discharge of any ballast water at all--is that 
correct?
    Mr. Gilchrest. Yes.
    Captain Brown. That presents some pretty significant 
technical challenges. I do not know that a) we would be able to 
detect such a discharge standard of no organisms, that we would 
be able to know for sure that there is an effect of zero 
discharge; and b) I do not know that the technology that we 
have available to us today and in the foreseeable future could 
get us there at any kind of reasonable cost.
    If I may just go back to one or two of your earlier issues, 
first, I would like to thank you for the opportunity to get 
back to you on what it is that we might need. We would like to 
take that back and think on it and come back and give you some 
intelligent views on that.
    With regard to the interim standard, the interim standard 
that is set up in the current bill, the bill that is pending 
before Congress right now, we find problematic for a couple of 
reasons. First of all, there is an enforceability problem. We 
are not sure how such a bill would be able to be enforced as an 
enforcing agency. And second, we are not sure that a percentage 
of removal, as my colleagues have indicated, is necessarily 
going to be environmentally sound or will do the job for us, 
because in some cases, you could remove 95 percent of the 
organisms, but you could leave enough of the organisms to still 
pose a problem; so now, you have removed a bunch of organisms, 
but you really have not solved your problem at all.
    With regard to the idea that if we set some sort of 
standard, we would have industry working toward some sort of 
technologies, what often happens when you set up an interim 
standard is that it takes on an inertia of its own, and as my 
colleagues have pointed out, the interim standard sometimes 
becomes the final standard. And it does not necessarily follow 
that if I am able to get something at the--
    Mr. Gilchrest. I think we would try to make sure that we 
would follow this issue; that that interim standard is always 
known as an interim standard. We just want to get something 
done. And I appreciate, Captain Brown, your comments, but Mr. 
Underwood's time has expired.
    Mr. Ehlers?
    Mr. Ehlers. I had another question, but I just want to 
follow this up. As I understand it, NOAA is saying this interim 
standard that we have in here is acceptable.
    Mr. Keeney. It is helpful.
    Mr. Ehlers. Yes. And my problem with the Coast Guard 
response is that you are pointing out the problems with the 
interim standard, which we all understand, but the question to 
you is is it better or worse than what we have right now? In 
other words, is the interim standard proposed here better than 
the ballast water exchange that we are talking about right now?
    Captain Brown. I do not know that you could make the 
statement that it is better or worse, and by that, I mean this. 
If you have a standard--any standard, anything that you do that 
reduces the number of aquatic species is going to improve the 
environment to some extent. But if you reduce the number of 
invasive species by 90 percent, 80 percent, whatever, but still 
allow a significant enough amount of invasive species to come 
in to still cause the damage, I do not know that we have 
accomplished very much. My concern is that we may not have 
accomplished very much by establishing an interim standard, 
perhaps giving us a false sense of security when we are not 
quite sure what we need to do in order to give us the highest 
degree and the highest level of assurance that we can get.
    Mr. Ehlers. The point is now that under the ballast water 
exchange, you have the same situation--you also have organisms 
coming in.
    Captain Brown. That is correct, yes.
    Mr. Ehlers. OK. So I am just saying that I think your 
objection to the interim standard is wrong unless you can show 
me that it is worse than what you are already doing. And you 
are saying that you do not know if it is better or worse.
    Captain Brown. No. I think that an interim standard does 
not give us or guarantee us or provide us with any greater 
level of protection than we already have right now. We do not 
know that it is providing us any--
    Mr. Ehlers. You said you do not know whether it does or it 
does not.
    Captain Brown. That is correct.
    Mr. Ehlers. OK. Then, you have no basis in saying that it 
is bad.
    Captain Brown. Well, I would disagree with that 
characterization, sir.
    Mr. Ehlers. OK.
    Dr. Ruiz, 5395 is intended to do some of the research to 
solve the questions we have just been discussing here so that 
we do know what we are talking about. It calls for the 
inclusion of academic researchers. What role would you see for 
the university community in helping to meet the research 
standard? And a related question--the Coast Guard has expressed 
some concern about clearly delineating agency responsibilities 
in the ecological and pathway surveys research. However, USGS 
and you have been working--you already have an established 
working relationship, I believe--and also, NOAA has been doing 
some work with the National Estuarine Research Reserve System.
    Is the Coast Guard's concern justified in that, or do you 
think we can coordinate the program all right? So, there are 
two questions: How will you involve the university community, 
and second, do you think the agencies will be able to work 
together and coordinate a research program?
    Dr. Ruiz. Yes, thank you.
    I think that the university and academic community--and I 
would expand that to include State and local agencies as well--
play a key role in the research component for ecological 
surveys, for early detection, as well as some assessments of 
what particular management strategies do. I think they play a 
very important role, and I guess the way that I have thought 
about this has been considering sort of a distributed network 
whereby the academic community and others would engage in a 
variety of research activities that would be integrated and 
coordinated by a group--possibly, USGS, Smithsonian, NOAA, and 
others--that would help establish a core set of standards and 
measures that could be collected across a variety of sites but 
would not be completely prescriptive. It would have core 
measurements, but it would also create and hopefully encourage 
innovation and new thought and input from the academic 
community, because I think they have a great deal to offer, a 
lot of expertise out there.
    Hopefully, that addresses your first question, that I think 
they play a critical role and that it would be a distributed 
network and a coordinated, collaborative endeavor across all 
interested parties that have something to offer.
    In terms of the coordination, I do have some concerns about 
exactly how the effort would be coordinated across the 
different Federal agencies or lead agencies, if you will, and 
have wondered whether it might be better to designate a 
specific lead for marine and a specific lead for freshwater. 
While I think the agencies can certainly work together in 
developing a program, I think it may be beneficial to have 
clear leads and responsibilities for who is going to develop 
the framework and solicit comment and feedback from the other 
participants.
    Mr. Ehlers. If I may for just a minute borrow a little of 
Mr. Underwood's time, too, and just follow that up--the Aquatic 
Nuisance Species Task Force was created in 1990, and the 
Invasive Species Council in 1999. Maybe Mr. Keeney is the 
better one to ask, but whoever wants to answer, are those two 
bodies working well? They seem to have some overlapping duties. 
Are they coordinating well, or is their work largely separate?
    Mr. Keeney. From my experience, I think they are working 
quite well.
    Mr. Ehlers. Is there a need for both?
    Mr. Keeney. They are both helpful; each individually in its 
own way is helpful.
    Mr. Ehlers. OK.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Ehlers.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    I think this will be directed to Mr. Williams again. Within 
Mr. Gilchrest's bill, there is a section for containment and 
control, and it deals with the National Dispersal Barrier 
Project, which involves the Chicago Ship and Sanitary Canal. 
And you might not know this specifically, but maybe if you 
could get me the answer if you do not have it--if the Aquatic 
Nuisance Species Task Force or the Invasive Species Council or 
just the Fish and Wildlife Service as a whole have been 
monitoring that project--it just mentions that you are supposed 
to establish a monitoring program to track the species and then 
analyze whether there should be other projects such as this.
    I wonder if anything is being done right now about that?
    Mr. Williams. Our role in that project--let me back up. 
Building it and operating it is a Corps of Engineers 
responsibility. Our role is primarily monitoring. Also, we do 
have an active project monitoring carp, as you mentioned, in 
the Mississippi River.
    Our role is not to operate the barrier, but it is to 
monitor.
    Mrs. Biggert. I understand that you are to monitor the 
species, and the Army Corps is to monitor how it works.
    Mr. Williams. To try to determine how effective it is, yes.
    Mrs. Biggert. I just wondered if that is sufficient, or 
should more research organizations be involved.
    Mr. Williams. Certainly, additional research would help, 
because there are certain life stages of aquatic organisms that 
the dispersal barrier may be ineffective in stopping from 
moving, particularly downstream.
    But if the question is would additional research help in 
those efforts, my answer would be absolutely.
    Mrs. Biggert. I wonder also whether we are taking 
sufficient advantage of the learning opportunity that has been 
presented by that construction and operation of the barrier by 
monitoring it now, or do we have to wait until this bill is 
passed?
    Mr. Williams. I do not think we need to wait until the bill 
is passed. Certainly, I think this legislation would strengthen 
the commitment to that project, but we along with others, as I 
mentioned, are trying to assess how effective it is and will 
continue our efforts up and down stream, not just in the 
Mississippi River but focused on the Mississippi River, looking 
at any invasive species and trying to come up with ways to 
prevent or control those species from entering the Great Lakes.
    Mrs. Biggert. Yes, Mr. Keeney?
    Mr. Keeney. Yes, ma'am. I would just like to say that the 
Task Force, which is meeting this week, recognizes the threat 
posed by the potential movement of the bighead and silver carp 
into the Great Lakes. This week's meeting is setting up a 
working group that will explore additional methods of 
controlling the carp species and slowing their movement into 
the Great Lakes.
    Finally, I would like to recognize that interconnecting 
waterways in other areas is also an issue, and the legislation 
that is being proposed has a feasibility study for a dispersal 
barrier on a canal leading into Lake Champlain. We believe at 
NOAA that this provision is not needed because NOAA has already 
contracted with the University of Vermont for such a study, and 
the results are expected to be back in the year 2003.
    Mrs. Biggert. So that would be just for the Lake Champlain?
    Mr. Keeney. Exactly.
    Mrs. Biggert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ehlers. Would the gentlelady yield?
    Mrs. Biggert. Yes, I yield.
    Mr. Ehlers. Is there any confidence on the part of the two 
of you that we can stop the Asian carp, or is the only solution 
to once again disconnect the Chicago Canal from Lake Michigan?
    Mr. Keeney. I think the answer is we want to make every 
effort possible to do that, and we cannot tell you with great 
confidence at this point that we can accomplish that, but we 
will do everything we can to accomplish that.
    Mr. Ehlers. Because this would be so incredibly destructive 
to the entire Great Lakes system that incredible measures are 
going to have to be required. And I was not jesting when I 
suggested closing off the canal. You can still pump the water 
over and keep the sewage system operating, but that would 
cutoff the pathway totally. And I am very, very nervous about 
having just one electronic barrier there. That is just not 
going to do it.
    Mrs. Biggert. If I might reclaim my time, too, this canal 
is not just for water movement, but it has to do with our 
economy for the State of Illinois and other States--shipping 
going up the Mississippi, up the canal into the Great Lakes or 
vice versa.
    Mr. Gilchrest. What is the canal used for? Is it just for 
sanitary purposes, or is there grain shipped to and fro, or 
what?
    Captain Brown. It provides a link, sir, between trade on 
the Great Lakes and trade into the Mississippi River system.
    Mr. Gilchrest. In what way?
    Captain Brown. Barge traffic.
    Mrs. Biggert. Barge; there is constant barge traffic up the 
canal from the Mississippi and the Illinois River to the canal 
and up into Chicago.
    Captain Brown. A variety of commodities are transported--
bulk petroleum, some grain, coal, gravel--a wide range of 
commodities that are most efficiently shipped by vessel.
    Mr. Gilchrest. I see. Well, I am with Vernon. We are going 
to work with you, though, Judy.
    Mr. Williams, Mr. Keeney, Captain Brown, and Dr. Ruiz, 
thank you so much for your time and your patience. We look 
forward to working with you over the next many months.
    Thank you very much.
    I ask unanimous consent that the statement of the honorable 
Solomon P. Ortiz be submitted to the record.
    [The prepared statement of Mr. Ortiz follows:]

 Statement of the Hon. Solomon P. Ortiz, a Representative in Congress 
                        from the State of Texas

    Mr. Chairman,
    I commend you for holding this important hearing today. I hope we 
will be able to gather valuable information from our experts today as 
we work to amend the Nonindigenous Aquatic Nuisance Prevention and 
Control Act of 1990, to reauthorize and improve this Act. In 
particular, I am interested to hear if there are currently any efforts 
being undertaken along the U.S.-Mexico border to eradicate the aquatic 
plant hydrilla.
    I would like to thank you Mr. Chairman, and your staff, for 
addressing our concerns about the needs of the South Texas region by 
including provisions that deal with hydrilla, which is devastating our 
economy and also hampering the water delivery needs for many of my 
constituents along the Rio Grande. In my District, and along the Rio 
Grande River, the hydrilla is a giant problem when it comes to water 
flowing downstream. The Rio Grande is no longer the mighty river it 
once was, as the mouth remains closed and the water does not flow 
freely into the Gulf of Mexico. The state and regional grants that will 
be included in this legislation will assist in the eradication and 
control of the hydrilla to once again allow that flow of water to the 
Gulf.
    Furthermore, H.R. 5396 expands the coordination of invasive species 
programs by increasing the positions on the Aquatic Nuisance Species 
(ANS) Task force to include other affected federal agencies. It also 
encourages the United States to enter into agreements with Canada and 
Mexico by enhancing cooperation with our international partners. Along 
the U.S.-Mexico there are already several federal and state agencies 
working closely together with their counterparts in Mexico and I would 
encourage that the federal agencies participating in this hearing today 
work with the interested parties in a cooperative effort to eradicate 
this hydrilla.
    I thank you for your participation here today and look forward to 
working with all those present here today.
                                 ______
                                 
    Mr. Gilchrest. Our next panel includes Dr. Gabriela 
Chavarria, Policy Director for Wildlife Management, National 
Wildlife Federation; Ms. Allegra Cangelosi, Senior Policy 
Analyst, Northeast-Midwest Institute; Dr. Roger Mann, 
Professor, Virginia Institute for Marine Science; and Dr. 
Phyllis Windle, Senior Scientist, Union of Concerned 
Scientists.
    Dr. Chavarria, thank you for coming today. You may begin.

 STATEMENT OF GABRIELA CHAVARRIA, POLICY DIRECTOR FOR WILDLIFE 
            MANAGEMENT, NATIONAL WILDLIFE FEDERATION

    Dr. Chavarria. Thank you, Mr. Chairman.
    On behalf of the National Wildlife Federation, I would like 
to thank you and the members of the Committees for the 
opportunity to testify on H.R. 5396, the Nonindigenous Aquatic 
Nuisance Prevention and Control Act, and H.R. 5395, the Aquatic 
Invasive Species Research Act.
    I am Gabriela Chavarria, Policy Director for Wildlife 
Management for the National Wildlife Federation.
    The National Wildlife Federation is the largest not-for-
profit conservation education and advocacy organization, with 
more than 4 million members and supporters, and nine natural 
resources centers throughout the United States. The 
Federation's family also includes 46 States and Territorial 
affiliate organizations. Founded in 1936, the National Wildlife 
Federation works for the protection of wildlife species and 
their habitat and for the conservation of our natural 
resources.
    The National Wildlife Federation's affiliated organizations 
across the United States adopted a position statement on 
invasive non-native species in 2000. In March of this year, 
they adopted the resolution, ``Protection of the Great Lakes 
from Exotic Species.'' In this resolution, we identify the need 
for additional Federal and State legislation requiring the 
treatment of ballast water in ships entering the Great Lakes.
    We were delighted to see that H.R. 5396 addresses some of 
the issues addressed in the resolution. This legislation will 
finally close the loophole which exempts ships entering the 
Great Lakes, declaring that they have no ballast on board from 
regulation under the Nonindigenous Aquatic Nuisance Prevention 
and Control Act of 1990. Experience has shown that these 
exempted ships can still transport invasive non-native species 
to the Great Lakes and other areas.
    The impacts of invasive non-native species are not confined 
to our natural ecosystems. Navigation on many of our Nation's 
waterways has been hampered by dense growths of aquatic 
invasive non-native plants such as hydrilla and water hyacinth 
and, most recently, giant salvinia.
    Industry also has suffered due to the spread of invasive 
non-native plants and animals into equipment and pipeline. The 
Federation comments the members of the Committee for 
encouraging partnerships among public agencies and other 
interests.
    Prevention of aquatic invasive species is the most 
environmentally sound and cost-effective management approach 
because, once established, aquatic invasive species are costly 
and sometimes impossible to control.
    To be effective, the prevention, early detection, and 
control of and the rapid response to aquatic invasive species 
should be coordinated regionally, nationally, and 
internationally. Research underlies every aspect of detecting, 
preventing, controlling, and eradicating invasive species, 
educating citizens and stakeholders, and restoring ecosystems.
    Development of regional rapid response contingency 
strategies that provide a consistent and coordinated approach 
to rapid response needs to be a priority. We need to try to 
avoid that new non-native species get established. This in the 
short term will promote greater cooperation among Federal, 
State, Tribal, and local land water managers and owners of 
private land, water rights, or other interests to control 
harmful non-native species that are already established.
    We also need to be aware that they should be a big emphasis 
on providing better guidance for more consistent strategies 
that can be developed on a short timeframe to be able to act 
almost immediately. We do need deadlines.
    H.R. 5395 will fulfill a big gap. A comprehensive and 
thorough research, development, and demonstration program on 
aquatic invasive species needs to be done in order to better 
understand how aquatic invasive species are introduced and 
become established, and to support efforts to prevent the 
introduction and establishment of and to eradicate these 
species.
    H.R. 5396 is an important complement to H.R. 3558, the 
Species Protection and Conservation of the Environment Act, of 
what should be a broad and diverse effort to minimize the 
impact of invasive non-native species, control their spread, 
and prevent their introduction in the first place. The problem 
of invasive non-native species is so widespread and pervasive 
that no single program or action can address it 
comprehensively. This is particularly true where the spread of 
invasive species may be exacerbated by other environmental 
problems.
    H.R. 5396 and H.R. 5395 are a step forward to the 
implementation of the National Invasive Species Management Plan 
and complements other existing bills like H.R. 3558 because 
they enhance the capacity of private, State, Tribal, and 
Federal entities to manage invasive species.
    Although we embrace legislation authorizing funding for the 
control of invasive species, two precautionary notes are in 
order. First, the ultimate test of Congress' commitment to 
controlling invasive non-native species is in the annual 
appropriations process. Unless adequate funds are appropriated, 
the problem of invasive non-native species will continue to 
grow unchecked.
    Second, programs to control and manage invasive non-native 
species must be developed and implemented in such a manner that 
they are not harmful to our natural ecosystems. All projects 
and programs addressing invasive non-natives should be 
evaluated according to their success in implementing 
appropriate environmental controls.
    The list of invasive non-native species destroying our 
native communities is already too long and is still growing. 
Both bills are good steps toward not allowing this list to grow 
more. We strongly support both bills and look forward to 
working with this Committee as these bills move through the 
legislative process.
    We appreciate the opportunity to testify today.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much, Dr. Chavarria.
    [The prepared statement of Dr. Chavarria follows:]

  Statement of Gabriela Chavarria, Policy Director, National Wildlife 
                               Federation

    The National Wildlife Federation appreciates the opportunity to 
submit this statement for the record on H.R. 5396 Nonindigenous Aquatic 
Nuisance Prevention and Control Act, and H.R. 5395 Aquatic Invasive 
Species Research Act.
    I am Gabriela Chavarria, Policy Director, for Wildlife Management, 
of the National Wildlife Federation. I was member of the National 
Invasive Species Advisory Committee, and I am vice-chair of the 
Executive Board of the Global Invasive Species Programme. In my 
previous job with the National Fish and Wildlife Foundation I oversaw 
and coordinated the Pulling Together Initiative, Private-Public 
Partnership to manage, control and eradicate invasive noxious weeds. 
The National Wildlife Federation is the largest not for profit 
conservation education and advocacy organization with more than four 
million members and supporters, and nine natural resources centers 
throughout the United States. National Wildlife Federation's family 
also includes forty-six states and territorial affiliate organizations. 
Founded in 1936, the National Wildlife Federation works for the 
protection of wildlife species and their habitat, and for the 
conservation of our natural resources.
    The conservation of our nation's natural ecosystems in a healthy 
and abundant state provides innumerable and irreplaceable benefits to 
society. To conserve these ecosystems and realize their benefits for 
all of us, we must address many complex issues, including human 
population growth, pollution, sprawling development patterns, 
unsustainable agricultural practices and global climate change. All of 
these are important and the National Wildlife Federation is actively 
working on each of them. However, another pernicious threat too often 
overlooked and the subject of today's hearing is the harm brought upon 
our natural aquatic ecosystems by invasive non-native species.
    The National Wildlife Federation's affiliated organizations across 
the United States adopted a position statement on invasive non-native 
species in 2000. And in March 8, 2002 they adopted the resolution 
``Protection of the Great Lakes from Exotic Species.'' In this 
resolution, we identify the need for additional federal and state 
legislation requiring the treatment of ballast water in ships entering 
the Great Lakes. Both resolutions are attached at the end of my 
testimony. We were delighted to see that H.R. 5396 addresses some of 
the issues addressed in the resolution. This legislation would finally 
close the loop hole which exempts ships entering the Great Lakes 
declaring that they have no ballast on board from regulation under the 
Nonindigenous Aquatic Nuisance Prevention and Control Act of 1990. 
Experience has shown that these exempted ships can still transport 
invasive non-native species to the Great Lakes and other areas. You can 
find copies of these resolutions at the end of my testimony.
    For decades, the National Wildlife Federation has worked to protect 
the biological integrity of the Great Lakes from numerous environmental 
threats. One of the most alarming threats to the Great Lakes, however, 
comes from invasive non-native plants such as Eurasian water milfoil, 
non-native fish such as the Eurasian ruffe and round goby, and the 
zebra mussels. These and other species were introduced into the Great 
Lakes from ballast water discharged by foreign ships using our coastal 
and inland waterways. Native to the Balkans, Poland, and the former 
Soviet Union, the zebra mussel is spreading across North America at an 
astounding rate. Dense zebra mussel colonies grow in pipes and other 
hard surfaces, severely impacting water flow at power plants, water 
treatment systems and other facilities. Although the full biological 
impact of zebra mussels is not entirely known, it is clear that where 
zebra mussels invade, native mussel species quickly decline.
    Our concern is that invasive non-native species can so radically 
change an area's physical and biological environment that the habitat 
requirements for native plants and animals no longer exist. After 
habitat loss, invasive non-native plants are the second greatest threat 
to native species. At least 5,000 non-native species, including more 
than 2, 100 exotic plants and 2,000 insects, have invaded North America 
since the arrival of European explorers. Many of these species have 
been harmful to native wildlife and ecosystems. They overwhelm native 
species for food, space, water and other needs. In some cases these 
species prey on native species and alter their habitat.
    The impacts of invasive non-native species are not confined to our 
natural ecosystems. Navigation on many of our nation's waterways has 
been hampered by dense growths of aquatic invasive non-native plants 
such as hydrilla and water hyacinth. Industry also has suffered due to 
the spread of invasive non-native plants and animals into equipment and 
piping.
Comments and Opportunities on H.R. 5396 and H.R. 5395
    The Federation commends the members of the Committee to encourage 
partnerships among public agencies and other interests.
    Prevention of aquatic invasive species is the most environmentally 
sound and cost effective management approach, because once established, 
aquatic invasive species are costly, and sometimes impossible to 
control. To be effective, the prevention, early detection and control 
of and the rapid response to aquatic invasive species should be 
coordinated regionally, nationally, and internationally. Research 
underlies every aspect of detecting, preventing, controlling, and 
eradicating invasive species, educating citizens and stakeholders, and 
restoring ecosystems.
    Development of regional rapid response contingency strategies that 
provide a consistent and coordinated approach to rapid response, need 
to be a priority, we need to try to avoid that new nonnative species 
get established.. This in the short-term will promote greater 
cooperation among Federal, State, Tribal, and local land water 
managers, and owners of private land, water rights, or other interests 
to control harmful nonnative species that are already established. We 
also need to be aware that they should be a big emphasis on providing 
better guidance for more consistent strategies that can be developed on 
a short time frame to be able to act almost immediately.
    H.R. 5395 will fulfill a big gap. A comprehensive and thorough 
research, development, and demonstration program on aquatic invasive 
species needs to be done in order to better understand how aquatic 
invasive species are introduced and become established, and to support 
efforts to prevent the introduction and establishment of, and to 
eradicate, these species.
    H.R. 5396 is an important complement to H.R. 3558 The Species 
Protection and Conservation of the Environment of what should be a 
broad and diverse effort to minimize the impact of invasive non-native 
species, control their spread and prevent their introduction in the 
first place. The problem of invasive non-native species is so 
widespread and pervasive that no single program or action can address 
it comprehensively. This is particularly true where the spread of 
invasive species may be exacerbated by other environmental problems
    H.R. 5396 and H.R. 5395 are a step forward to the implementation of 
the National Invasive Species Management Plan, and complements other 
existing bills like H.R. 3558 because enhances the capacity of private, 
State, and Federal entities to manage invasive species.
    Although we embrace legislation-authorizing funding for the control 
of invasive non-natives, two precautionary notes are in order. First, 
the ultimate test of Congress's commitment to controlling invasive non-
native species is in the annual appropriations process. Unless adequate 
funds are appropriated, the problem of invasive non-native species will 
continue to grow unchecked.
    Second, programs to control and manage invasive non-native species 
must be developed and implemented in such a manner that they are not 
harmful to our natural ecosystems. The introduction of non-native 
species to control other non-native species must be vigorously screened 
to ensure the species is host specific and non-harmful to other species 
and our natural ecosystems. Furthermore, all control methods should 
seek to minimize the use of pesticides, herbicides and other chemicals. 
In the few cases where use of chemicals may be appropriate, this use 
must be tightly regulated and carefully monitored to avoid harming non-
target native species. All projects and programs addressing invasive 
non-natives should be evaluated according to their success in 
implementing appropriate environmental controls.
    The list of invasive non-native species destroying our native 
communities is already too long and is still growing. H.R. 5395 and 
H.R. 5396 are good steps towards not allowing this list to grow more. 
We strongly support both bills and look forward to working with this 
Committee as H.R. 5395 and H.R. 5396 move through the legislative 
process
    We appreciate the opportunity to appear before this Committee to 
discuss the issue of invasive species. We would like to thank you Mr. 
Chairman, for your efforts to address this issue through H.R. 5396 and 
H.R.5395.National Wildlife Federation
                                 ______
                                 
    [Attachments to Dr. Chavarria's statement follow:]


National Wildlife Federation
RESOLUTION NO. 1
2000

                            Invasive Species

WHEREAS, some non-indigenous invasive plants, animals and other 
organisms have an adverse impact upon indigenous communities by 
reducing available light, water, nutrients, and space and can cause 
other long term changes in the area's hydrology, soil chemistry and 
erodibility, and the frequency of fires; and

WHEREAS, some introduced non-indigenous plants, animals and other 
organisms are highly invasive, capable of rapid reproduction and/or 
growth resulting in the displacement of ndigenous species, and can 
radically change an area's physical and/or biological environment so 
that the habitat requirements for indigenous plants, animals and other 
organisms no longer exist; and

WHEREAS, non-indigenous invasive plants, animals and other organisms by 
nature are easily spread from one area to another; and

WHEREAS, the impact of non-indigenous invasive species threatens 
regional biodiversity in a manner that is not easily quantified; for 
example, the loss of an indigenous plant community to non-indigenous 
invasive species may mean the loss of an insect, animal or indigenous 
plant dependent upon that community; and

WHEREAS, according to the National Park Service,''invasions of non-
native plants are the second greatest threat to native species after 
direct habitat destruction''; and

WHEREAS, the US Fish and Wildlife Service stated, ``an estimated 42% of 
the nation's endangered and threatened species have declined as a 
result of encroaching exotic plants and animals''; and

WHEREAS, the problem of non-indigenous invasive plants is widespread 
and, according to federal and other accounts, now extend into more than 
1.5 million acres of national park land and are spreading at a rate of 
4,600 acres per day into federally owned land; and

WHEREAS, it is ``estimated that in the 20th century, just 79 introduced 
plant and animal species have cost the US economy $97 billion in losses 
to such industries as forestry, ranching, fisheries, tourism, and 
utilities''; and

WHEREAS, research is required to establish best management practices to 
control and prevent the spread of non-indigenous invasive species; and

WHEREAS, international trade agreements and rules, regulations, and 
protocols related to international transportation and trade can 
significantly affect the possible transportation of non-indigenous 
invasive species into the United States and other countries;

NOW, THEREFORE, BE IT RESOLVED that the National Wildlife Federation in 
its Annual Meeting assembled March 16-18, 2000, in Seattle, Washington, 
supports the President's efforts in establishing the Invasive Species 
Council to integrate efforts of federal agencies to combat the problem 
and to prepare and issue the first edition of a National Invasive 
Management Plan that shall ``detail and recommend performance-oriented 
goals and objectives and specific measures of success for federal 
agency efforts concerning invasive species''; and

BE IT FURTHER RESOLVED that the National Wildlife Federation supports 
increased federal funding for non-indigenous invasive species 
management in National Parks and on other federal lands and/or waters, 
and the continued funding of the Wildlife Habitat Incentives Program 
(WHIP) that, in part, provides cost sharing for private initiatives to 
control non-native (invasive) plants from natural ecosystems''; and

BE IT FURTHER RESOLVED that the National Wildlife Federation encourages 
state and federal agencies, universities and other groups to work 
together to identify and list the highly and potentially invasive non-
indigenous species specific to that state, and to promote that the list 
be used as an educational and managerial tool; and

BE IT FURTHER RESOLVED that the National Wildlife Federation calls upon 
state and federal agencies to carefully formulate regulations to 
control, reduce, or, if necessary, prohibit the introduction, 
transportation, propagation, sale, or distribution of non-indigenous 
plants known to be harmful or otherwise undesirable; and

BE IT FURTHER RESOLVED that the National Wildlife Federation encourages 
state and federal agencies, universities, and other groups to work with 
the nursery industry to establish policies to control and prevent the 
further introduction and spread of non-indigenous invasive species, and 
to promote a list of alternative, preferably native plants, that can be 
the basis of educational programs that will benefit growers, the 
public, and the environment; and

BE IT FURTHER RESOLVED that the National Wildlife Federation encourages 
state and federal entities engaged in research and development 
involving management of vegetation to intensify their studies of 
ecology and control of invasive non-indigenous plants; and

BE IT FURTHER RESOLVED that the National Wildlife Federation urges 
monitoring of areas that have endangered or threatened species and/or 
are relatively free of non-indigenous invasive species and encourages 
careful management practices to be used in the removal of non-
indigenous invasive species; and

BE IT FURTHER RESOLVED that the National Wildlife Federation urges the 
Congress and federal agencies to ensure that the United States' 
international trade obligations, including the World Trade Organization 
and its Sanitary and Phytosanitary Agreement, are formulated and 
implemented to provide sufficient flexibility to allow for regulations 
to control and prohibit intentional or unintentional introduction of 
non-indigenous invasive species and other organisms into the United 
States and other countries; and

BE IT FURTHER RESOLVED that the National Wildlife Federation urges the 
Congress of the United States to recognize the high environmental and 
economic costs associated with non-indigenous invasive plants, animals 
and other organisms and to appropriately fund efforts to control this 
enormous national environmental crisis through educational programs, 
research, and cost-share incentives to restore native habitats.
                                 ______
                                 

National Wildlife Federation
RESOLUTION NO. 08
2002
   Protection of the Great Lakes and Other Waters from Exotic Species
WHEREAS, our Great Lakes, estuarine habitats, coastal and inland waters 
continue to be invaded by exotic (non-native) aquatic organisms and 
pathogens transported from foreign waters; and

WHEREAS, these organisms arrive in the ballast water discharged by 
ships using our estuarine, coastal and inland waterways; and

WHEREAS, previously introduced exotic species, such as Eurasian ruffe 
and round gobies, are being carried in ballast water from one Great 
Lakes port to another; and

WHEREAS, once introduced and established, these non-native aquatic 
organisms are expensive to control and almost impossible to eliminate; 
and

WHEREAS, the impact on sport and commercial fisheries is immense and 
disrupts the aquatic diversity of the Great Lakes, estuarine habitats, 
coastal and inland waters; and

WHEREAS, moreover, shoreline communities in the Great Lakes region 
alone are being forced to spend an estimated $500 million annually on 
control measures to protect drinking water, power plants, and 
recreational facilities; and

WHEREAS, some of these aquatic organisms, such as zebra mussels and 
Eurasian water milfoil, are now making their way into inland lakes and 
streams across the United States where they are displacing native 
animal and plant species; and

WHEREAS, the ballast water that harbors these invaders is used to 
maintain the stability of cargo vessels when they are empty or only 
partially loaded and is pumped in or out of large holding tanks, as 
needed, before the ships enter or leave port; and

WHEREAS, although U.S. and Canadian laws currently require ships 
entering the Great Lakes to exchange their ballast water at sea, ship 
design makes it impossible to eliminate all of the ballast water; and

WHEREAS, the majority of ships entering the Great Lakes do so with ``No 
ballast on Board'' and ships in this condition are commonly referred to 
as NOBOBs; and

WHEREAS, ships in the NOBOB condition still carry sediment in their 
ballast that can harbor exotic species; and

WHEREAS, the average ship retains 42,000 gallons of ballast water and 
sludge when entering the Great Lakes or moving between ports; and

WHEREAS, exotic organisms are flushed into the lakes as ships take on 
and discharge residual ballast water in the course of their voyages; 
and

WHEREAS, ships in the NOBOB condition are currently exempt from 
requirement to exchange their ballast under federal law; and

WHEREAS, federal laws as they are currently administered have clearly 
failed to prevent exotic species in this residual ballast water from 
reaching the Great Lakes, estuarine habitats, coastal and inland 
waterways; and

WHEREAS, in the 106th Congress a bill was introduced that would have 
amended the Non-indigenous Aquatic Nuisance Control and Protection Act 
of 1990 and require ships traveling in and out of the Great Lakes, 
estuarine habitats, coastal and inland waters to replace or purify 
their ballast water or certify that any discharge or exchange within 
U.S. waters will not introduce any non-indigenous organisms; and

WHEREAS, the National Wildlife Federation believes the ultimate control 
has to come from the Federal government working in concert with Canada; 
and

WHEREAS, the National Wildlife Federation and many other organizations 
recognize the threat posed to the Great Lakes, estuarine habitats, 
coastal and other inland lakes and streams of the United States by the 
continued introduction of non-indigenous aquatic organisms carried in 
the ballast water of ocean going vessels.

NOW, THEREFORE, BE IT RESOLVED that the National Wildlife Federation, 
at its Annual Meeting assembled March 7-9, 2002 in Stone Mountain, 
Georgia, supports the enactment of federal legislation to protect the 
Great Lakes, estuarine habitats, coastal and inland waters from 
undesirable exotic species and pathogens, by requiring treatment of 
ballast water of all ships entering or moving between the Great Lakes, 
estuarine habitats, coastal or inland ports, including ships with no 
ballast on board (NOBOBs) to eliminate viable exotic organisms without 
damage to the environment; and

BE IT FURTHER RESOLVED, that the National Wildlife Federation 
encourages the development, funding, and use of environmentally sound 
technologies that prevent the introduction of exotic species into the 
aquatic environment by minimizing or eliminating the uptake of 
organisms into ships' ballast tanks; and

BE IT FURTHER RESOLVED, that the National Wildlife Federation supports 
equally effective state legislation to regulate ballast water, 
including ships in the NOBOB condition in individual state waters to 
provide interim protection until such time as federal legislation is 
enacted to adequately protect all our Great Lakes, estuarine habitats, 
coastal and inland lakes and rivers.
                                 ______
                                 
    Mr. Gilchrest. Ms. Cangelosi, thank you for coming this 
morning and for all your work on this legislation.

    STATEMENT OF ALLEGRA CANGELOSI, SENIOR POLICY ANALYST, 
                  NORTHEAST-MIDWEST INSTITUTE

    Ms. Cangelosi. Thank you for the opportunity to testify 
before the Subcommittees regarding the National Aquatic 
Invasive Species Act and the National Aquatic Invasive Species 
Research Act, NAISA and NAISRA.
    All of the provisions in this legislation are critical to 
protecting the Northeast-Midwest Region and the Nation from 
further serious, expensive, and permanent damage caused by 
aquatic invasive species. I urge the Subcommittees to act 
quickly and pass them.
    Of particular importance to our region are the provisions 
related to the prevention of organism transfers by the leading 
pathway--ships. The U.S. has law on the books to combat ship-
mediated invasions, but Federal agencies have not aggressively 
implemented it nor, therefore, has industry.
    In particular, progress toward development and use of 
treatment alternatives has been almost nonexistent, although 
Congress clearly stated it as a priority in the National 
Invasive Species Act of 1996.
    One source of stalemate is the need for a numeric standard 
for treatment--the only effective approach to prevention, 
especially for the Great Lakes. Statute directs ships to 
undertake a management practice called ``ballast water 
exchange'' or a treatment that is at least as effective as 
ballast water exchange. But the biological effect of ballast 
water exchange is notoriously variable and difficult to 
measure. Establishing a numeric surrogate, therefore, is a 
policy call and one that the Coast Guard has been unwilling to 
make. Without that benchmark, however, investment in treatment 
by industry and product developers is at a standstill.
    NAISA and NAISRA will allow the transition to ballast 
treatment to proceed and proceed rapidly. The bills set forth 
two phases--an interim phase during which ballast water 
exchange remains acceptable, but ships are encouraged to 
substitute treatments that are deemed equivalent according to a 
statutory benchmark; and a final phase during which all ships 
must meet an environmentally protective standard using best 
available technology. In the final phase, ballast water 
exchange may well become obsolete for many types of ships as 
more effective treatments become available.
    The final phase is in fact the most important to ongoing 
environmental protection, while the interim phase is a 
preparatory period.
    The legislation resolves the interim standard impasse by 
establishing 95 percent inactivation or removal of plankton as 
a benchmark for ballast water exchange effectiveness. This 
numeric surrogate is broadly accepted internationally, because 
under ideal conditions, 95 percent of near coastal water can be 
purged using the safest ballast water exchange technique. As 
such, it represents an upper limit of potential effectiveness 
of ballast water exchange.
    The two concerns that are raised around the 95 percent 
treatment standard by agencies are either not relevant to the 
interim period or to statute. One is that 95 percent is not 
known to be environmentally protective. This is a very good 
reason for 95 percent not to be the final standard. But during 
the interim period, ships that do not use treatment will use 
the more heavily flawed ballast water exchange. Thus, the only 
relevant question in the interim period is whether it is at 
least as protective as ballast water exchange, and the answer 
is yes.
    The second concern is that a standard expressed as a 
percent efficiency will be harder to monitor and enforce than a 
standard expressed as discharge concentrations or a size 
cutoff. These operational concerns are worth considering and 
may afford subtle improvements during the interim period, but 
they reside in the province of regulation rather than statute. 
The statute answers the primary question of the basis on which 
to select such a concentration limit or size, and that is the 
95 percent benchmark.
    The urge to perfect the interim standard in statute serves 
only to delay its implementation and consequently the 
development of treatments which can finally solve the problem.
    Next, the legislation establishes a date-certain for an 
environmentally protective final standard to apply to all 
practices. This Nation needs and deserves this commitment. The 
bill provides agencies 4 years to define the standard and up to 
8 years to promulgate it--ample time for research and 
preparation on all sides.
    The legislation draws from our long experience with air and 
water pollution control and directs industry to meet the final 
standard using best available technology, economically 
achievable, based on a periodic review. This approach creates 
financial incentive for inventors to develop the most effective 
and economically achievable methods possible over time.
    The legislation also wisely incorporates other aspects of 
the ship, such as hulls and anchor chains, into the purview of 
the final standard.
    There are many other important provisions in this 
legislation which I summarize in my written testimony. Until 
now, damage to our resources by invasive species has been a 
cost which the American public has unwittingly accepted. But 
growing awareness of the ecological and economic impact of 
aquatic invaders now attracts a diverse array of interest 
groups to an increasingly vibrant policy debate.
    This legislation has clearly benefitted from this debate. 
The result is a set of programs which will prevent and manage 
the problem effectively for the environment and efficiently for 
industry and government. This problem is not going away until 
Congress acts, and I urge your consideration of these bills and 
passage as soon as possible.
    Thank you.
    Mr. Gilchrest. Thank you very much, Ms. Cangelosi.
    [The prepared statement of Ms. Cangelosi follows:]

Statement of Allegra Cangelosi, Senior Policy Analyst,Northeast-Midwest 
                               Institute

    Thank you for the opportunity to testify before the Subcommittees 
regarding the National Aquatic Invasive Species Act, and National 
Aquatic Invasive Species Research Act of 2002. These bills are urgently 
needed to protect America's public health, coastal resources, and 
economy. I urge the Subcommittees'' support for and early action on 
this legislation.
    All of the provisions contained in H.R. 5395 and 5396 are needed in 
the Northeast-Midwest region, and nationally. This testimony discusses 
that need, generally, and describes in some detail the potential 
benefits of provisions in the proposed legislation that would fix the 
federal program to prevent introductions of aquatic invasive species by 
ships. It also briefly highlights other important aspects of the bill, 
including provisions to manage high-risk pathways; establish consistent 
screening for species invasiveness for planned importations; encourage 
consultation and coordination with Canada and Mexico to prevent and 
manage infestations in shared ecosystems; and support state and 
regional grants to implement on-the-ground programs. Finally, this 
testimony describes the particularly urgent need which the legislation 
addresses to improve the dispersal barrier for the connecting waterway 
between the Mississippi River and the Great Lakes.
    A great deal of multi-stakeholder discussion and negotiation have 
gone into the preparation of both bills over a period of several 
months, and both bills should be considered by committees of 
jurisdiction and enacted as soon as possible to get these worthwhile 
programs underway.

1. The federal government needs to get serious about preventing aquatic 
                           invasive species.
    Hundred-pound Asian carp smash into recreational boats on the 
Mississippi River, while voracious Snakehead fish from China crawl out 
of a Maryland pond. Zebra mussels and alien fish conspire to infect 
Great Lakes waterfowl with botulism. An army of alien rats, numbering 
in the millions and weighing up to 20 pounds, raze wetland vegetation 
of the Chesapeake Bay, while softball-sized snails, Rapa whelks, 
silently devour any and all shellfish, and the industry they support, 
in their paths. What more do we need to know to get serious about the 
problem of aquatic invasive species?
    Unfortunately, these highly visible invasions are only the tip of 
the iceberg. The list of invader species plaguing America's coasts is 
long, diverse, and constantly growing. A recent Pew Oceans Report cites 
aquatic invasive species as a top threat to marine biodiversity, and 
the Environmental Protection Agency has reported that invasive species 
are second only to habitat destruction as a threat to endangered 
species.
    The environmental effects of invasive organisms can be as subtle as 
they are serious. As they ripple through ecosystems and morph over 
time, they have the effect of weakening entire ecological systems. For 
example, a serious wasting syndrome now afflicts the fry of native 
sport fish in Lake Ontario. After long and careful research the cause 
was traced to the fact that the diet of the adult sport fish is now 
made up of non-native forage fish. The non-native forage is 
nutritionally deficient to the made-to-order native lake perch with 
which the native sport fish evolved.
    Goods traded in markets are not exempt from degradation by invasive 
species. Commercial fishing, aquaculture, water-related recreation, and 
waterborne transportation are all vulnerable to dramatic down-turns 
precipitated by foreign animals, plants, fish, and insects. Together, 
the damage amounts to an estimated $100 billion annually in the U.S..
    These losses are particularly painful because they are self-
inflicted and completely avoidable. Intentionally or not, we have moved 
organisms adapted to distant habitats to our own lakes, rivers, and 
shores where they lack natural limiting factors and their populations 
explode. In the absence of strong federal programs to prevent their 
introductions, we willingly cede our most valuable coastal and inland 
assets to them forever. They pose an enormous threat to the U.S. 
economy and environment. NAISA and NAISRA will assure the federal 
government finally gets serious about stopping them.

 2. NAISA/NAISRA take the cost-effective approach to battling aquatic 
                         invasions--prevention
    It is not a good time to be wasting federal dollars. Yet by failing 
to prevent new introductions of aquatic invasive species, that is 
exactly what we are doing. Invasive species often have no economic 
value to any stakeholder. Once established, aquatic invasions are 
particularly expensive and often impossible to eradicate in an 
environmentally safe way. On-going control is even more expensive. In 
the Great Lakes, about $15 million USD a year are spent by the US and 
Canada to control an exotic fish, the sea lamprey, which first invaded 
the system over 50 years ago. Effective prevention, on the other hand, 
results in the compound economic benefit of preventing the economic 
impacts to the receiving system, and the avoiding on-going costs of 
control.
    Our negligence has already cost us and our children money we don't 
have, and it is time to clean up our act. NAISA and NAISRA will 
accomplish that goal in a variety of ways.

2.1. Improve existing law by providing necessary policy calls, 
        structure, and information for preventing invasive species 
        introduction by ships
    Most invasive aquatic organisms hitch rides to U.S. waters on 
waterborne vessels--adhered to hulls and entrained in ballast water 
used for stability and trim (Carlton, 2001). The U.S. has a law on the 
books to combat invasive species transfers by ships, but federal 
agencies have not aggressively implemented it, nor, therefore, has 
industry. Existing law provides too much flexibility to implementing 
agencies on issues of policy and time-frame, and the result has been 
stalemate. NAISA and NAISRA break the logjam by making the necessary 
policy calls, and providing a structure, standards and dates-certain to 
drive effective action.

2.1.1. Existing law too open-ended
    The Nonindigenous Aquatic Nuisance Prevention and Control Act of 
1990 (NANPCA) established the first federal requirements on ships with 
the purpose of attenuating transfers of non-native organisms. It 
required ships entering the Great Lakes after operating outside the 
exclusive economic zone to first purge their ballast in the open ocean 
using a process called ballast water exchange (BWE), or otherwise treat 
the water with an environmentally-sound alternative technology at least 
as effective as BWE. In 1996, Congress reauthorized NANPCA as the 
National Invasive Species Act (NISA). With this law, Congress expanded 
the ballast management program to be national in scope. Though the law 
called for this national program to be initially voluntary, it directed 
the secretary of transportation to make the program mandatory if 
compliance proved inadequate. In June 2002, with only 20 percent of 
vessels visiting US ports even bothering to report their ballast 
operations, much less comply with the new national ballast management 
guidelines, the U.S. Coast Guard announced its intent to make the 
national program mandatory at some future date (U.S. Coast Guard, 
2001).
    Congress allowed for the possibility of treatment on ships, even in 
1990 when none was yet known, because BWE has many limitations. 
Greatest among them are that BWE is difficult to monitor and enforce, 
has unknown (perhaps unknowable) and partial effectiveness, and can 
occasionally be unsafe for ships. In addition, BWE has no demonstrated 
beneficial effect in coastal ship movements (only transoceanic). 
Treatment technology, on the other hand, could be equally effective for 
all voyage types, relatively easy to monitor, and have knowable and 
probably far better effectiveness than BWE. Though a ``silver bullet'' 
technology which can effectively and efficiently treat ballast water of 
any ship or voyage type is unlikely, a tool box of treatment types 
could address the variety of environmental, economic, and operational 
contexts in which ballast treatment must take place. This transition to 
treatment is especially important to port ranges, such as the Great 
Lakes and Eastern Seaboard, where many ship movements are either 
coastal or fully loaded with cargo such that BWE is not a possibility.
    In NISA of 1996, Congress restated its commitment to the treatment 
option and attempted to encourage use of treatment by ships through 
authorizing grants to allow inventors of potential ballast treatments 
to demonstrate their systems and to enable researchers to measure their 
effects. Consequently, over the past six years, treatment alternatives 
such as ozone, ultraviolet radiation (UV), filtration, heat, chemical 
biocides, and deoxygenation have matured to the point of readiness for 
shipboard demonstration. Although it is too soon to know for sure, the 
effectiveness of these approaches could well prove competitive to BWE, 
especially when the numerous disadvantages of BWE are factored in.
    Existing law states the transition to treatment from BWE as a clear 
policy objective, but leaves the way forward too undefined. As a 
result, in 2002, a full ten years after Congress first gave ship owners 
the option to treat their ballast as an alternative to BWE (in Great 
Lakes trade), and five years after grants began to flow to encourage 
develop of treatment systems, implementing agencies still have no 
formal approval process in place for motivated ship owners to exercise 
the option to use treatment. As a result, none has.
    A good part of the hold-up has been that existing law (NANPCA and 
NISA) contains a narrative standard for treatment effectiveness that 
the Coast Guard has had difficulty putting into action. Existing law 
calls for treatment to be ``at least as effective as BWE'', the default 
action. Ideally, the implementing agency would have translated this 
narrative standard into a working numeric estimate of BWE effectiveness 
and use that numeric standard as a benchmark for approving treatment 
alternatives. But the biological effectiveness of BWE is notoriously 
variable--even among the ballast tanks within a single ship--and 
difficult to measure. A report of the Ballast Water and Shipping 
Committee to the Aquatic Nuisance Species Task Force found that BWE 
effectiveness ranged from ``39 percent to 99.9 percent, depending upon 
the taxonomic groups and ships studied.'' In the face of these 
difficulties, the Coast Guard abandoned the prospect of a establishing 
a numeric surrogate for BWE effectiveness.
    Instead, the Coast Guard has set forth a case-by-case ``do-it-
yourself'' approach, directing interested ship owners to conduct 
complex shipboard experiments (post-installation) to undertake direct 
and real-time comparisons between BWE and treatment. If the comparison 
is favorable and defensible, the Coast Guard will approve the 
treatment. But this approach is counterproductive to the nation's 
policy objective of encouraging a transition to treatment. The size and 
complexity of the experimental subject (a moving ship), the rate of 
flow of the subject medium (ballast water), the compound variability of 
BWE, treatment effectiveness and control conditions, and the diversity 
of biological communities at the source and discharge of the treated 
water all can conspire to make such comparisons inaccurate. A 
simplified shipboard experiment measuring treatment efficiency relative 
to a numeric standard, while still not easy, is at least manageable. 
The only thing standing in the way of this simpler approach is the lack 
of a numeric benchmark for BWE effectiveness. Given that any estimate 
of BWE effectiveness is necessarily imprecise, it is a policy call, and 
one that the Coast Guard has stated it has no intention of making.

2.1.2. NAISA/NAISRA provide policy direction, structure, information
    NAISA and NAISRA provide better structure and guidance for the 
agencies implementing the ship-management program so that it will be 
both efficient and effective. Most important, NAISA makes policy calls 
that break the logjam around the transition to ballast treatment by 
ships. Because we do not have all the information we need to design a 
long-standing program now, the bills set forth preliminary action by 
ships within 18 months of enactment, and more final standards by a 
later date certain. Specifically, within 18 months, all ships must 
undertake best management practices, reporting and have an invasive 
species management plan, and, if a ship is in transoceanic trade, 
exercise ballast water management. The ballast water management 
requirements include two phases: an interim phase during which BWE is 
necessarily acceptable, but ships may substitute treatments that meet 
an interim numeric standard if they choose; and a final phase during 
which ships are required to meet an environmentally protective standard 
using best available technology. During this final phase, BWE may well 
become obsolete for many types of ships as more effective approaches 
become available. NAISA sets a date-certain of no later than 2011 for 
this final, environmentally protective standard to take effect. NAISRA 
authorizes research activities to feed information into each step of 
this process, and fuel productive review and revision exercises along 
the way.

2.1.3. The final phase--the sooner the better
    The final phase is pivotal to the success of the programs laid out 
in NAISA and NAISRA, and is therefore discussed first in this 
testimony. NAISA provides a clear performance objective for the final 
standard--the standard is to eliminate the risk of transfer of aquatic 
invasive organisms by ships. The legislation gives implementing 
agencies four years to define the final standard in numeric terms, and 
up to 8 years to promulgate it. This approach gives agencies time to 
conduct the needed research, and flexibility to craft the standard in 
ways that will assure efficient implementation. It also gives treatment 
vendors and ship-owners a clear target for research and development, 
and time to prepare for meeting the standard prior to its promulgation. 
The accompanying research bill (NAISRA) assures that the needed 
research will take place.
    NAISA and NAISRA wisely incorporate the entire ship vector into the 
purview of the final standard. Ballast water may prove to be just a 
part of the problem. Other aspects of the ship, such as hulls, anchor 
chains, and sea chests are receiving growing attention for their roles 
in introductions of aquatic organisms. It would be inefficient for 
industry, and expensive for the environment, if our focus remained 
exclusively on ballast water when other aspects of the ship also pose 
risk of organism transfers but are left unchecked. As a result, the 
final standard may well take the form of a suite of separate standards 
relative to different aspects of the ship vector.
    Finally, the final standard in NAISA acknowledges a level of 
uncertainty regarding whether or not technology will exist to allow 
every class of ship to meet the environmentally protective standard at 
the time it takes effect. Rather than hold everything up until the 
silver bullet comes to light, the legislation borrows from our long 
experience in dealing with air and water pollution and allows industry 
to meet the standard using ``best available technology economically 
achievable''. This approach will require that agencies undertake 
periodic review of technologies available and revision of the list of 
acceptable technologies based on the performance of the very best ones 
for each class of ship. It is up to Congress to make sure that these 
reviews take place, but fortunately it will be in the interest of both 
the carriers and the resource protection interests for the reviews to 
take place. The approach gives vendors great incentive to develop more 
effective and more economically achievable methods than those already 
in play because they can then become the standard to beat. It also 
weans all classes of ships from BWE as soon as economically achievable 
alternatives exist.
    The research program contained in NAISRA will be critical to 
continued progress in development of new and effective treatment 
options. For this reason, the experimental approval program in NAISA 
should be made continuous rather than expire upon promulgation of the 
interim standard.

2.1.4. The interim phase--to tide us over
    During the interim phase, the time between 18 months of enactment 
and the promulgation of the final standard, ships may choose to use BWE 
or treatment. In NAISA, Congress resolves the impasse regarding 
equivalency to BWE by making a policy call that the Coast Guard has had 
trouble making at the agency level. NAISA establishes 95 percent 
inactivation or removal of plankton as the interim treatment standard. 
Many experts nationally and internationally, and the current 
International Maritime Organization draft convention, accept 95 percent 
inactivation or removal of plankton as a good surrogate for BWE 
effectiveness, because under ideal conditions 95 percent of the near 
coastal water is purged in open ocean using the safest BWE technique. 
As such, it is an upper limit of potential effectiveness of BWE.
    The Coast Guard has expressed concern that a 95 percent 
inactivation or removal is not known to be environmentally protective. 
To be sure, at this stage of the game, most scientists would assert 
that only zero discharge of non-native organisms is known to be 
completely protective. But degree of environmental protectiveness--
entirely appropriate to determination of the final standard applicable 
to all ships--is a misplaced concern in relation to the interim period. 
During the interim period, if a ship doesn't treat its water, it will 
use heavily flawed BWE. Next to BWE, a consistent 95 percent reduction 
in plankton relative to intake starts to look pretty good. A ``double 
standard'' to the management options--environmental protectiveness is a 
requirement for treatment but not BWE--would be counterproductive, 
creating an accidental and unnecessary disincentive for treatment, and 
removing the bottom rung of the research and development ladder.
    Others have expressed concern that the 95 percent standard, a 
measure of treatment efficiency, poses problems of measurability--that 
it is hard to compare intake and discharge in a moving vessel. They 
argue that an organism size cut-off would be easier to monitor, e.g. no 
detectable quantities of live organisms of x microns or greater.
    Realistically, however, a shore-based type-approval process linked 
with in-line proxy measurements on board the ship will likely have to 
suffice for the interim period, and percent reductions are readily 
accommodated in that scenario. But, more to the point, a size-based 
approach is not precluded. The technical approach to measurement is 
undefined by the law; this level of detail is more suitable to 
regulation. Agencies could implement the 95 percent standard using a 
size cut-off (say, 50 microns) above which 95 percent of the 
vertebrates, invertebrates and plankton tend to fall.
    Another perspective on the interim standard, currently being 
explored at the International Maritime Organization, is that it should 
be technologically achievable. Technological achievability is a moving 
target, and will vary wildly from one class of ship to the next. For 
some classes of ships, technologically feasible treatment could be far 
less effective than BWE. In these cases, BWE, not the technology should 
be the method of choice. During the interim period, regulatory 
requirements are already technologically achievable, because BWE is one 
option. It is during the final standard phase that technological 
achievability is relevant and the best technology available will be 
determined on a ship-class by ship-class basis.
    NAISA's approach to the interim standard is the best approach given 
the fact that BWE remains one alternative for ships. But even if it 
isn't, the most important thing is for society to set a treatment goal 
for the interim period and move on. It is a critical stage for the 
assembly of a market and a tool box for technologically achievable and 
environmentally protective techniques for the final phase of the 
program. The urge to ``perfect'' the interim standard only delays the 
availability of treatments to meet the final standard. For this logic 
to hold, however, Congress, must assure that the interim period shall 
indeed expire and be replaced by the final standard at a date-certain; 
the only real purpose for the interim period is to assure a level of 
protectiveness for U.S. resources while agencies structure the 
implementation of the best-available technology economically achievable 
standard.

2.1.5. New ships on a faster track
    NAISA correctly puts new ships on a faster track than existing 
ships. The most cost-effective time to incorporate ballast treatment 
into a ship is at the drawing stage. We have uselessly lost 10 years of 
new ships coming into service without treatment by not setting this 
requirement in our first aquatic invasive species statutes. NAISA 
correctly directs ships that enter service after January 1, 2006 to 
employ ballast treatment rather than BWE as their ballast water 
management method. In addition, the best available technology 
economically achievable will be quite different for new ships than 
existing ships, because options are limited by the constraints of 
retrofitting. For this reason, NAISA appropriately directs agencies to 
establish the BAT separately for new and existing ships in each ship 
class.

2.1.6. Coast Guard and EPA join forces on the final phase
    Though the Coast Guard is the sole agency in charge of the 
prevention program for ships set forth in existing law, there is a 
lawsuit challenging EPA for excluding ship discharges from the NPDES 
program. The reality is that neither agency is by itself perfect for 
the job. The Coast Guard is skilled at regulating ships, but it does 
not have much experience with developing complex environmental 
standards for industry in a context of great uncertainty. The 
Environmental Protection Agency does have experience setting 
environmental standards for industry but has only limited experience 
with ships. Under sole regulation by either agency, both the industry 
and the environment would suffer. NAISA therefore crafts a shared 
arrangement for prevention program management in which the Coast Guard 
implements standards promulgated jointly with the EPA. NAISA maintains 
the Coast Guard lead during the interim period (though the EPA 
undertakes an environmental soundness review on treatments), and 
creates a ``joint custody'' arrangement for the final standard. While 
any involvement of the EPA makes members of the maritime industry 
uncomfortable, enactment of NAISA and a joint arrangement is their best 
protection against the potentiality that EPA's petitioners will 
prevail, and the entire program is shifted to EPA.

2.2. Other prevention provisions
    NAISA and NAISRA have many other programs of key concern to the 
region and country. One of them is the requirement that agencies 
develop consistent, comprehensive screening guidelines to review 
planned importations of aquatic non-native organisms for their 
potential to be invasive in U.S. waters. Again, prevention is often the 
only, and always the most cost-effective, approach to controlling 
aquatic invasive species in U.S. waters.
    The two pieces of legislation also wisely call for and support risk 
assessment of all pathways by which aquatic invasive species may be 
entering the Unites States, and follow-up management of any high risk 
pathways. Ships are recognized as the leading pathway, but they are not 
the only one. As we become more successful at attenuating species 
introductions by ships, we need to protect the investment by assuring 
that other pathways do not simply replace ships as conveyers of 
invasive species into our waters.

3. NAISA/NAISRA management provisions and supporting research critical 
                 to success--Asian Carp a case in point
    Prevention is critical, but unfortunately, in some cases, it is a 
luxury. NAISA and NAISRA address urgent management concerns. These 
programs, discussed in greater detail by other witnesses, include the 
early detection and rapid response program, and information and 
outreach to the public and industry. In addition, NAISA increases the 
authorization for state invasive species management plans. Except 
perhaps for aspects of the ship-related program, states are in the best 
position to implement many activities to prevent and manage aquatic 
invasive species. Existing law provided states with some grant money to 
help them become effective team-players with the federal agencies, but 
demand for these funds far outstrips the authorized supply. NAISA 
elevates the authorization to a realistic level to allow states to 
effectively implemented prevention and other programs.
    The legislation also provides for interagency, interstate and 
international coordination to more effectively manage aquatic 
infestations. In particular, the NAISA directs the State Department to 
enter into negotiations with Canada and Mexico to conduct research and 
joint management of invasive species in shared ecosystems.
    Finally, the bills address a particularly dire issue to the Great 
Lakes region, but shared nationally. The bills establish a 
demonstration and research program for dispersal barriers against the 
spread of invasives through connecting waterways. The best illustration 
for the need for this program pertains to the Great Lakes. Two species 
of Asian Carp (silver and bighead) are currently threatening to enter 
the Great Lakes ecosystem via the Chicago Ship and Sanitary Canal. 
These species were accidentally introduced into the Mississippi River 
and have since been traveling north. Recent estimates place them within 
50 miles of Lake Michigan. In the absence of any interdiction activity, 
it is likely Asian Carp will reach the Great Lakes within the next 
year. These carp could cause tremendous damage to the Great Lakes 
ecosystem. They are very large fish (between 50 and 110 lbs.) and 
voracious predators. They consume up to 40 percent of their weight 
daily in vegetation, zooplankton, fish and other aquatic organisms. In 
addition, Asian carp are extremely prolific; females may carry up to 1 
million eggs each. Asian Carp would increase in numbers explosively in 
the Great Lakes, consume vast quantities of food, and decimate native 
populations of fish and mussels. They have already done so in the 
Mississippi, and have shut down commercial fisheries in some reaches of 
the river. Pursuant to existing law, a Chicago River Ship and Sanitary 
Canal Dispersal Barrier has been designed and installed to prevent fish 
species from traveling through the canal into Lake Michigan. Currently, 
the barrier is a temporary electrical barrier, but it is vulnerable to 
outages and there is no redundancy built in. With Asian Carp staging 
downstream, the investment could easily prove useless in its current 
formulation.
    NAISA and NAISRA would authorize completion of the construction of 
the barrier, and funds to maintain and operate it permanently. In 
addition, the bills provide for a second permanent barrier to provide 
needed redundancy. A monitoring program is also established, to help 
determine the effectiveness of the barrier, and to determine the 
applicability of similar measures to other waterways.

                 4. Conclusions--Time is of the essence
    Until now, invasive species have been a cost which the American 
public has unwittingly accepted. But growing awareness of the 
ecological and economic impact of aquatic invaders now attracts a 
diverse array of interest groups to an increasingly vibrant policy 
debate. This debate benefited this legislation. The result is a set of 
programs which will prevent and manage the problem effectively for the 
environment and efficiently for industry and government. Importantly, 
NAISA and NAISRA provide for a great deal of periodic review and 
revision to accommodate the fact that we are early in a steep learning 
process, and can expect to be able to make these prevention programs 
even more efficient and effective as we learn more.
    Asian carp, nutria, Rapa whelks, and zebra mussels--there are 
countless reasons out there for rapid passage of these bills. In most 
cases, we cannot yet name them, but they are large and small; they 
belong to every phylum and kingdom; and they threaten all U.S. waters--
coastal and inland alike. They cost Americans big money, and cause 
permanent loss of our precious natural resource assets. A recent study 
identified 22 fish species which could become newly established in the 
Great Lakes due to ship movements, at least five of which are likely to 
become nuisances and disrupt the current balance of fish in the Great 
Lakes. Every other coastline is similarly threatened. This problem is 
not going away unless Congress acts. I urge your timely consideration 
of these bills, and passage as soon as possible.
Sources
Carlton, J. T. 2001. Introduced Species in U.S. Coastal Waters: 
        Environmental Impacts and Management Priorities. Pew Oceans 
        Commission, Arlington, Virginia.
Committee on Ships'' Ballast Operations, National Research Council, 
        Stemming the Tide: Controlling Introductions of Nonindigenous 
        Species by Ships'' Ballast Water (Washington, DC: National 
        Academy Press, 1996).
Great Lakes Ballast Technology Demonstration Project, www.nemw.org.
U.S. Coast Guard. Report to Congress on the Voluntary National 
        Guidelines for Ballast Water Management. November 2001.
U.S. Environmental Protection Agency. Aquatic Nuisance Species in 
        Ballast Water Discharges: Issues and Options. September 2001.
                                 ______
                                 
    Mr. Gilchrest. Dr. Mann, welcome.

  STATEMENT OF ROGER MANN, PROFESSOR, VIRGINIA INSTITUTE FOR 
                         MARINE SCIENCE

    Dr. Mann. Mr. Chairman, members of the Committee, it is a 
pleasure to be here and accept your invitation to provide 
testimony today.
    My name is Roger Mann. I am a professor of marine science 
at the School of Marine Science, Virginia Institute of Marine 
Science. I have been a researcher in this field for about 25 
years, and throughout that time, I have maintained an interest 
in the biology of non-native and introduced species.
    I am currently a principal investigator on a federally 
funded project examining the impacts of a remarkable invading 
snail in the Chesapeake Bay, and I bring this one to you today 
just as an example. This is an Oriental snail that was 
accidentally introduced into the Black Sea some 60 years ago, 
and since that time, it has walked out of the Black Sea and 
into the Adriatic, and in doing so has caused decimation of 
local shellfish populations. It has the full potential to do 
the same here.
    I bring this one and give it to the Chairman, and I ask him 
to use it whenever he sees fit to remind naysayers that 
invaders can be beautiful, but they are also very bad.
    The arrival of non-native species into waters of the United 
States through ballast water and other vectors remains a 
significant threat to the integrity of native ecosystems and, 
through this, to their value as both sources of direct economic 
benefit and as recreational aesthetic resources.
    I truly compliment the authors and sponsors of these bills 
for their timely and focused attention to these important 
matters.
    In the limited time available today, I will focus my 
remarks on the proposed modifications in ballast water 
management, specifically their feasibility in implementation 
and prospects for effectiveness in controlling aquatic 
invasions.
    Section 104 of 5396 addresses ``Prevention of introduction 
of aquatic invasive species into the waters of the United 
States by vessels.'' A significant portion of this section 
focuses on ballast water management and treatment systems.
    Subsection (e)(1(B) addresses ``Ballast Water Management 
Standards and Certification Procedures,'' the interim standards 
that we have been talking about. Two options are proffered for 
ballast water exchange--either at least one empty and refill, 
or 95 percent ballast replacement. These are admirable goals 
for reduction of organisms from distant sources that are 
subject to discharge into United States waters. And at this 
point, I support these as interim standards, although I am 
cognizant of the logistical difficulties that accompany 
compliance with such standards by a ship's master under 
challenging seat states--I think we are all very much aware of 
this problem--and the fact that a simple dilution standard may 
not reduce the numbers of potential invaders in any one ballast 
tank below a critical level that may sustain the initial stages 
of an invasion in a receiving port. A number have already 
testified to that today.
    A dilution standard is in contrast to longstanding 
approaches to regulations affecting drinking water, shellfish 
growing and harvest regions, effluent standards for commercial 
enterprises such as shellfish and seafood processing plants 
that employ absolute values rather than percentage reductions.
    None of these qualifications, however, should deter the 
goal of compliance with ballast water exchange or dilution 
where operating conditions allow.
    The ultimate approach to ballast water exchange, and one 
that I strongly support, is the development and employment of 
ballast water treatment systems designed specifically to reduce 
the number of included potentially harmful organisms. In 
developing the text of 5396, the authors have sought to provide 
parity with a 95 percent replacement approach by inclusion of 
the requirement that systems kill or remove ``at least 95 
percent of the live aquatic vertebrates, invertebrates, 
phytoplankton and macroalgae.''
    Again, these are admiral goals. However, I believe this 
section of the text could be improved to encourage both the 
development of appropriate technologies and facilitate their 
testing prior to approval.
    A number of innovative technologies are currently under 
development in the private sector. These reflect the continuing 
diversity and depth of talent that has made American industry a 
world leader in mitigating adverse environmental problems.
    As examples, researchers are investigating using 
ultraviolet radiation, ozone disinfection, mechanical 
filtration and deoxygenation using nitrogen gas-purging and 
vacuum degassing--truly a broad variety. Each of these 
technologies has its strengths and promises with respect to 
control of ballast water communities.
    The interim standard set by this bill must provide specific 
targets, not percentage reductions. Without these, the 
developers cannot progress with system design for eventual 
application in the shipping industry.
    Depending on the technology employed, control of the 
identified groups is not attained with uniformity, just as the 
threat from these groups may also not be uniform. The ability 
to control a significant threat from the majority of these 
groups should not disqualify or discourage the continuing 
development of the technology that at some point may control 
all.
    For example, mechanical filtration in very large-scale 
practical application is a compromise between volume treated 
and size retention of particles. In the current context, a 50-
micron standard might be attainable for very large volumes and 
be successful in retaining all the life history stages, 
including eggs, of the vast majority of aquatic vertebrates, 
invertebrates, and macroalgae--that is three out of your four 
targets. This list would include a very substantial number of 
notorious invaders that are currently creating ecological and 
economic problems in many locations.
    By contrast, a 50-micron filter would do little to retain 
most phytoplankton simply because most of the members of that 
group are well below that size. Although they are undoubtedly 
widely distributed by ballast water, phytoplankton as a group 
have a proportionately lesser history as deleterious 
environmental agents when established in regions beyond their 
native ranges.
    It is notable that an absentee from the specifics in this 
bill is the toxic dinoflagellates that cause red tide blooms--a 
group that may well represent a very serious challenge to any 
and all of the currently researched control technologies.
    I respectfully offer two suggestions for consideration in 
minor text revisions for the bill. First, definitions for 
phytoplankton and macroalgae should be included to describe 
inclusive size ranges. Second, interim standards should be 
considered in terms of reduction in absolute numbers in defined 
size ranges--for example, 100 percent kill of all organisms in 
excess of 50 microns maximum dimension. Both will, I believe, 
assist the developers of treatment technologies and expedite 
the approval process for technologies as they reach maturity.
    In closing, I wish to add two commends. I again offer my 
compliments on the details in 5396 addressing continual review 
and provision for improvement in standards as technology 
improves. We should not be handcuffed by the search for 
ultimate control tools, while good, although perhaps not 
perfect, technologies are within our grasp to address the 
ecological problem at hand. Incremental common sense dictates 
employment of the best available tools now, and better tools 
that come along.
    Finally, both bills provide a sound basis for new and 
continuing research priorities on a broad range of issues and, 
importantly, conduits to deliver the associated results to the 
regulatory process. Knowledge is a powerful tool that we must 
pursue and share to detect, control and, where possible, 
eradicate invading unwanted non-native species.
    This concludes my testimony. Thank you for the opportunity.
    Mr. Gilchrest. Thank you very much, Dr. Mann.
    [The prepared statement of Dr. Mann follows:]

Statement of Roger Mann, Professor, School of Marine Science, Virginia 
        Institute of Marine Science, College of William and Mary

    Mr. Chairman, Members of the Committee, it is a pleasure to be here 
today and accept your invitation to provide testimony to the Committee 
on H.R. 5395 and H.R. 5396.
    My name is Roger Mann. I am a Professor of Marine Science at the 
School of Marine Science, Virginia Institute of Marine Science, College 
of William and Mary. I have been a researcher in the field of marine 
science for over twenty-five years. Throughout that period I have 
maintained an active interest in the biology of introduced (non-native) 
aquatic species. I have edited two major volumes on this subject, 
maintained an interaction with other researchers in this field 
including those appointed to the International Council for the 
Exploration of the Seas Committee on Introductions, was a member of the 
US Department of Agriculture Working Group on Biotechnology tasked with 
developing guidelines for research involving genetically modified 
organisms, and am currently the Principal Investigator on a federally 
funded research project examining impacts of a remarkable invading 
predatory marine snail in the Chesapeake Bay. The fact that this recent 
invader arrived on our shores through ballast water vectors makes my 
interest in today's subject of discussion even more pointed. The 
arrival of non-native species into the waters of the United States 
through ballast water and other vectors remains a significant threat to 
the integrity of native ecosystems, and through this to their value as 
both sources of direct economic benefit and as recreational and 
aesthetic resources. I complement the authors and sponsors of these 
bills for their timely and focused attention to these important issues.
    In the limited time I have available I will focus my remarks on 
proposed modifications in ballast water management, specifically their 
feasibility in implementation and prospects for their effectiveness in 
controlling aquatic invasions. Further, I will briefly comment on the 
prospects for the proposed new programs and research priorities to 
provide new and improved tools in detection, control and eradication of 
invasive species.
    Section 104 of H.R. 5396 addresses ``Prevention of introduction of 
aquatic invasive species into the waters of the United States by 
vessels.'' A significant portion of this section focuses on ballast 
water management and treatment systems for control of potentially 
harmful organisms within ballast water. Subsection (e)(1)(B) addresses 
BALLAST WATER MANAGEMENT STANDARDS AND CERTIFICATION PROCEDURES--
INTERIM STANDARDS. Two options are proffered for ballast water 
exchange, either (I) at least one empty and refill on the high sea or 
in an alternate exchange area, or (2) sufficient flow through exchange 
to achieve 95% ballast replacement. These are admirable goals for 
reduction of organisms from distant source(s) that are subject to 
discharge in United States waters. I support these targets, although I 
am cognizant of the logistical difficulties that accompanying 
compliance with such standards by a ships Master under challenging sea 
states, and the fact that a simple dilution approach may not reduce the 
numbers of potential invaders in any one ballast tank below a critical 
level that may sustain the initial stages of an invasion in a receiving 
port. A dilution standard is a practical method in implementation and 
enforcement for ballast water exchange, although it is in contrast to 
long standing approaches to regulations affecting drinking water, 
shellfish growing and harvest regions, and effluent standards for such 
commercial enterprises as seafood processing plants that employ 
absolute values rather than percentage reductions. Finally, at the 
individual vessel level, compliance with flow through ballast 
replacement may be difficult depending on vessel configuration. 
However, none of these qualifications should deter the goal of 
compliance with ballast water exchange or dilution where operating 
conditions allow.
    The alternate approach to ballast water exchange, and one that I 
strongly support, is the development and employment of ballast water 
treatment systems designed specifically to reduce the number of 
included potentially harmful organisms. In developing the text of 
subsections (e)(1)(B)(ii) and (e)(3)(A)(ii) the authors have sought to 
provide parity with a 95% replacement approach by inclusion of the 
requirement that treatment systems kill or remove ``at least 95% of 
each of the live aquatic vertebrates, invertebrates, phytoplankton and 
macroalgae.'' Again, these are admirable goals that would reduce the 
numbers of potentially harmful organisms discharged at receiving ports; 
however, I believe this section of the text could be improved to 
encourage both the development of appropriate technologies and 
facilitate their testing prior to approval. A number of innovative 
technologies are currently under development in the private sector for 
application in ballast water control. These reflect the continuing 
diversity and depth of talent that has made American industry a world 
leader in mitigating adverse environmental problems. As examples 
researchers are investigating ballast water treatment technologies 
using ultraviolet radiation, ozone disinfecting, mechanical filtration, 
and deoxygenation using nitrogen gas purging or vacuum degassing. Each 
of these technologies has its strengths and promises with respect to 
control of ballast water communities. The interim standard set by this 
bill must provide specific targets, not percentage reductions. Without 
these the developers cannot progress with system design for eventual 
application in the shipping industry. Depending on the technology 
employed, control of the identified groups- live aquatic vertebrates, 
invertebrates, phytoplankton and macroalgae - is not attained with 
uniformity, just as the threat from these groups may also not be 
uniform. The ability to control a significant threat from the majority 
of these groups should not disqualify or discourage the continuing 
development of a technology that does not control all of the groups. 
For example, mechanical filtration in very large scale practical 
application is a compromise between volume treated and size retention 
of particles. In the current context a 50-micron retention standard 
might be attainable for very large volumes and be successful in 
retaining all the life history stages, including eggs, of the vast 
majority of aquatic vertebrates, invertebrates and macroalgae. This 
list would include a very substantial number of notorious invaders that 
are currently creating ecological and economic problems in many 
locations distant from their home ranges. By contrast a 50-micron 
filter would do little to retain most phytoplankton simply because this 
group contains many representatives with individual sizes well below 
50-microns. Although they are undoubtedly widely distributed by ballast 
water transport, phytoplankton as a group have a proportionately lesser 
history as deleterious environmental agents when established in regions 
beyond their native ranges. A notable absentee from the text of the 
bill are the toxic dinoflagellates that cause red tide blooms--a group 
that may well represent a very serious challenge to any and all of the 
currently researched control technologies.
    I respectfully offer the following two suggestions for 
consideration in minor text revisions for the bill. First, definitions 
for phytoplankton and macroalgae should be included that describe 
inclusive size ranges for both categories. Second, interim standards 
should be considered in terms of reduction in absolute numbers in 
defined size ranges, for example 100% kill of all organisms in excess 
of 50 microns maximum dimension, in order to make them independent of 
variation in source of the ballast water. Both will, I believe, assist 
the developers of treatment technologies and expedite the approval 
process for technologies as they reach maturity.
    In closing I wish to add two comments. I offer my compliments on 
the details in H.R. 5396 addressing continual review and provision for 
improvement in standards as technology improves. We should not be 
handcuffed by the search for ultimate control tools while good, 
although perhaps not perfect technology is within our grasp to address 
the ecological problem at hand. Incremental common sense dictates 
employment of the best available tools now, and better tools in due 
course. Finally, both H.R. 5395 and H.R. 5396 provide a sound basis for 
new and continuing research priorities on a broad range of invasive 
species issues, and conduits to deliver the associated results to the 
regulatory process. Knowledge is a powerful tool that we must pursue 
and share to detect, control and, where possible eradicate, invading 
unwanted non-native species from the waters of the United States.
    This concludes my testimony.
                                 ______
                                 
    Mr. Gilchrest. Dr. Windle, thank you for coming.

  STATEMENT OF PHYLLIS N. WINDLE, SENIOR SCIENTIST, UNION OF 
                      CONCERNED SCIENTISTS

    Dr.Windle. Yes, thank you.
    It is a pleasure for the Union of Concerned Scientists to 
be represented here today, and we very much appreciate the 
opportunity to be here.
    If we are to conserve the Nation's resources and save our 
economy billions of dollars each year, we simply must make a 
better match between the problems caused by invasive species 
and the Federal and State responses to them.
    H.R. 5395 and H.R. 5396 are important steps in that 
direction. We are especially pleased to see that these bills 
will now apply throughout the United States and to all kinds of 
organisms.
    There are also a number of specific provisions that 
biological scientists have long advocated as especially 
important. These include efforts to identify the high-risk 
pathways by which organisms reach the country and to develop 
and deploy the methods to limit them. They also include 
monitoring programs to detect and track invasive species new to 
the United States and the means to respond quickly to such 
newcomers. Also, these bills discuss and implement modest steps 
toward more careful assessments of organisms that are intended 
for intentional import, but before they are imported.
    It is helpful that these bills include not just the 
authority to carry out these sorts of activities but also the 
research that is necessary to move the efforts forward to 
evaluate their progress and to keep them up-to-date.
    It is simply not enough that these efforts are part of an 
Interagency National Management Plan on Invasive Species; nor 
is it enough that the Federal agencies say that they are 
already engaged in some of these activities already. We see two 
major reasons why this is the case.
    First, the General Accounting Office has very recently 
documented serious concerns regarding the Federal agencies' 
implementation of the National Management Plan. We would add 
our own recognition that in the past, the United States Coast 
Guard has been much more capable of timely response in this 
area, and we also are disappointed to see continuing delays.
    The second reason why we think we need these bills urgently 
is that many of the provisions in these bills were outlined in 
a general fashion in the 1990 legislation, yet they were never 
implemented. So many of these aspects that are a part of the 
legislation we are discussing today puts much-needed flesh on 
the bones of that 1990 law and ensures that we have a better 
track record to show 12 years from now than we do now for the 
1990 legislation.
    These bills have the broad support of a group of 
stakeholders and we, among others, will be pleased to work for 
their passage. But from our point of view, the bills also miss 
some key opportunities. We know that others in our stakeholder 
group will disagree, but we think these are areas that will 
necessitate our attention over the long term.
    First, we are convinced that eventually, all organisms that 
are intended for import intentionally will be screened. The 
trends are in this direction, and we would like to see that the 
time for that to come is quick, with the fewest exemptions 
along the way.
    Also, we would like to see us move very smoothly through 
this transition from the use of ballast water exchange to 
ballast water treatment, and we would like to achieve Federal 
standards quickly that are consistent with the most 
comprehensive approaches taken at the State level.
    We also believe that the technical and scientific merits of 
Government-funded research protocols and contracts must be as 
high as possible. Scientists have always used ongoing peer 
review by independent experts to achieve this, and we would 
like to see that process applied more frequently in this area.
    Where lack of funding limits our progress, we would like to 
see the agencies newly elevate this issue to a priority 
sufficient to complete the tasks that your bills lay before 
them or, if they cannot do that, we would suggest that the time 
has come to develop new means of generating revenue that is 
sufficient for this work--for example, the greater use of user 
fees.
    At this point, more than 2,500 UCS scientists, members and 
activists representing every State in the Union have already 
faxed, emailed, or written their congressional delegations 
alerting them to this upcoming reauthorizing process and asking 
that reauthorization happen quickly and with legislation that 
is broader than the National Invasive Species Act of 1996. We 
consider that this is a remarkable and substantial interest on 
the part of the public in a specialized topic that has had 
limited engagement with it in the past.
    I would conclude with a cautionary tale. I first testified 
on the subject of invasive species in 1993 for what was then 
the House Merchant Marine and Fisheries Committee. I was 
working for a congressional research agency at the time, and 
they asked me specifically to address a risk that was new to 
their purview, which was the risk posed to our Nation's 
resources by the Asian black carp.
    It was clearly on the basis of the research I did that this 
fish posed significant dangers to us, and it would have been 
logical to add it to the Lacey Act quite quickly.
    The Fish and Wildlife Service's comment period on the Lacey 
Act addition of black carp just closed on September 30 of 2002. 
We have known the risks for at least 9 years now, and it is 
hard to understand these sorts of delays. It is not just the 
Coast Guard that can move forward with all deliberative speed.
    We urge a very fast holding onto the prescriptions and 
deadlines in the bills we look at today. We urge you to keep 
assigning that required homework, and we thank you for your 
leadership.
    [The prepared statement of Dr. Windle follows:]

   Statement of Phyllis N. Windle, Ph.D., Senior Scientist, Union of 
                  Concerned Scientists, Washington, DC

Where We Find Ourselves Today
    Our country is playing a huge game of ecological roulette with the 
Nation's resources. Until our policies get tougher, mostly luck 
determines whether the new species that arrive in the United States are 
useful, benign, or invasive--like the zebra mussel and northern 
snakehead fish. The two bills we are considering today--H.R. 5396 and 
H.R. 5395--are important steps toward that stronger policy.
    In the 1990's, scientists and policymakers developed a much greater 
understanding of invasive species. We discovered, for example, that the 
most damaging single species easily cost us more than ten million 
dollars per year. Also, we learned that invasive species are the main 
contributor to the listing of about one-half of the Nation's threatened 
and endangered native species. Now a clear understanding exists that 
the spread of invasive species is one of the most serious environmental 
threats before us. We face a threat that is already changing the face 
of the planet.
    Yet changes in federal policy have not kept pace with our new 
understanding of the issue. An exception is the area we're discussing 
today. With legislation first passed in 1990, revised in 1996, and now 
being considered again, Congress has sought to respond and adapt to 
this new reality for more than a decade. Yet we all acknowledge that 
the previous legislation--and federal agencies' implementation of it--
has provided less help than we hoped. For instance, invasive species 
have continued to enter the Great Lakes via the ballast water of ships 
despite mandatory efforts to prevent it. Just last Friday, scientists 
predicted that 22 additional fish species from the Caspian and Black 
Seas could reach the Great Lakes via the ballast water of ships--and 
spread quickly. <SUP>1</SUP> They predicted that at least five of these 
species would become invasive.
---------------------------------------------------------------------------
    \1\ Kolar, C.S. and D.M. Lodge. 2002. Ecological predictions and 
risk assessment for alien fishes in North America. Science vol. 298, 
pp. 1233-1236. See also: Recer, P. 2002. Alien fish may invade Great 
Lakes, Associated Press, Nov. 11, 2002.
---------------------------------------------------------------------------
    The two bills before us today are not Republican or Democratic 
bills. Instead, they are the product of a bipartisan effort. We want to 
acknowledge the hard work of many members of Congress and their staffs. 
In particular, we would like to thank Mr. Gilchrest, Mr. Ehlers, and 
their staffs--as well as the staff of the Northeast Midwest Institute--
for their roles in preparing these bills. Nor are these environmental 
bills or industry bills. Their content instead shows the continuing, 
good faith efforts of a broad group of stakeholders, as well as the 
compromises worked out among them.
H.R. 5396 and H.R. 5395 Lay Out Many Positive Steps
    The Union of Concerned Scientists is pleased to endorse these 
bills. Early in 2002, we laid out a number of priorities that we felt 
would help the National Invasive Species Act protect the United States 
better--both environmentally and economically. The current bills are 
consistent with a significant portion of our priorities.
    We are especially pleased that certain weaknesses in the 1996 law 
are being corrected. For example, it is crucial that this legislation, 
and its most stringent provisions, apply:
    <bullet> throughout the United States; and
    <bullet> to all kinds of invasive or potentially invasive aquatic 
organisms--regardless of their taxonomic category.
    We also strongly support those elements of the legislation that 
address the full range of pathways by which we introduce and spread 
harmful aquatic organisms. Thus, we give our strong support to a number 
of specific provisions in these bills:
    <bullet> identifying the highest risk pathways for introductions 
and the rapid development and deployment of methods to limit them;
    <bullet> establishment of a monitoring program to detect and track 
new invasive species;
    <bullet> ensuring that we have the means, such as contingency 
plans and specially trained teams, to respond quickly to these 
newcomers;
    <bullet> and taking a modest step toward more careful assessment 
of the potential invasiveness of species proposed for intentional 
introduction before they are imported.
    Each is essential if we are to make progress on this issue. And 
each must be backed by targeted research--which H.R. 5395 provides.
    In addition, we look forward, under H.R.5396 to much-needed annual 
updates of the species listed under the Lacey Act and the Plant 
Protection Act. It is helpful to the States that additional elements 
can be included in their aquatic invasive species management plants. It 
is appropriate that matching funds be available for implementing these 
plans and that higher levels of funding be authorized. Also we 
anticipate the time when federal agencies will more strictly limit 
their own introductions. The lists of potential invaders will help all 
jurisdictions to be alert and better prepared.
    It is true that these many of these elements are included in the 
National Invasive Species Council's National Management Plan. 
<SUP>2</SUP> And it is true that a number of federal agencies are 
already at work on similar tasks. Some may argue that, because these 
efforts are underway, they need not be put in law. But it is also true 
that the U.S. General Accounting Office just recently raised serious 
questions about the Council's implementation of the Management Plan. 
<SUP>3</SUP> Enacting key provisions into law will help ensure that 
federal agencies address each topic in a timely way--and provide the 
public with recourse if they do not.
---------------------------------------------------------------------------
    \2\ National Invasive Species Council. 2001. Meeting the Invasive 
Species Challenge: National Invasive Species Management Plan. 
Washington, D.C.
    \3\ U.S. General Accounting Office. 2002. Invasive Species: Clearer 
Focus and Greater Commitment Needed to Effectively Manage the Problem. 
Washington, D.C. GAO-03-1.
---------------------------------------------------------------------------
    For that matter, it is also true that a number of these same 
provisions were part of the 1990 Nonindigenous Aquatic Nuisance 
Prevention and Control Act. But without firm deadlines, requirements to 
report back to Congress, additional appropriations, and other means to 
encourage implementation, these general provisions were neglected. Thus 
is it our belief that many of the details in H.R. 5396 put flesh on the 
bones of the 1990 law. None of these provisions should come as a 
surprise to the relevant federal agencies. Indeed, if they had complied 
with the letter of the 1990 law, they would have a 12-year track record 
to show. This, in particular, makes us relatively unsympathetic to 
requests for delay.
    Of course, since 1990, this legislation has been intended to be our 
best defense against further unintentional introductions of invasive 
species in the ballast water of ships. Unfortunately, experience has 
shown us that ballast water exchange is not effective. The time has 
come to move away from a primary reliance on ballast water exchange. 
Ballast water treatment should be our goal. We should be moving in that 
direction boldly, with immediate interim standards paving the way for 
more ambitious and stronger permanent ones.
    We are deeply disappointed that the U.S. Coast Guard continues to 
delay development of such standards. In 1993, the congressional Office 
of Technology Assessment determined how quickly the Coast Guard, as 
well as the new federal Aquatic Nuisance Species Task Force, was 
completing the tasks Congress assigned to them in the 1990 law. The 
Coast Guard's record was stellar. It issued guidelines, technical 
assistance, and regulations early or, at most, just a few months past 
the law's deadlines. <SUP>4</SUP> It is our hope that the Coast Guard 
can be stirred to replicate the urgency and responsiveness the agency 
showed then.
---------------------------------------------------------------------------
    \4\ U.S. Congress, Office of Technology Assessment. 1993. Harmful 
Non-Indigenous Species in the United States. (Washington, D.C.: U.S. 
Government Printing Office) Table 6-1, p. 169, available online at 
http://www.wws.Princeton.edu/ota/
---------------------------------------------------------------------------
    We appreciate many of the elements of H.R. 5395, The Aquatic 
Invasive Species Research Act, too. It aims to make the collection of 
information and its analysis more comprehensive. The research laid out 
in this bill also advances the state of scientific knowledge, e.g, on 
different ecosystems' vulnerability to invasion. The availability of 
scholarships for taxonomists will be helpful, too. As people become 
more aware of the harm caused by invasive species, especially to human 
health, the need will increase for environmentally sound tools for 
detecting, preventing, controlling, and eradicating aquatic invasive 
species will increase. It is helpful that both of these acts encourage 
their development.
    It is also helpful that H.R. 5395 stipulates that certain research 
protocols, contracts for ecological and pathway research, and 
recommendations for restricting planned imports nonnative aquatic 
organisms will be subject to peer review. In the past, the technical 
merits of some federal efforts have been weak. <SUP>5</SUP> Peer 
review, by independent experts with no financial interest in the 
outcome of a decision should be a standard supplement to agencies' 
requests for federal comments in highly technical areas. We believe the 
requirement for peer review should apply to many of the elements in 
H.R. 5395 as well. In particular, attempts to develop screening methods 
need to have the input and review of academic experts and others 
outside the federal government. To help you consider the research we 
will need over a longer term, I have attached the recommendations of 
three expert groups of scientists. <SUP>6</SUP>
---------------------------------------------------------------------------
    \5\ See, for example, National Research Council. 2002. Predicting 
Invasions of Nonindigenous Plants and Plant Pests (Washington, D.C.: 
National Academies Press)
    \6\ ``Specific Recommendations on Research.'' Source: National 
Council for Science and the Environment. 2001. Recommendations for 
Improving the Scientific Basis for Decisionmaking. A Report from the 
first National Conference on Science, Policy, and the Environment. 
Washington, D.C., p. 15; ``Research Questions About [Intentional] 
Introductions.'' Source: Ewel, J.J. et al. 1999. Deliberate 
introductions of species: research needs. BioScience, vol 49, no. 8, 
pp. 619-630;. ``Research Priorities for Invasive, Non-Native Species 
and Their Potential Impacts on Natural Populations and Communities of 
Ecosystems. Source: Source: D Antonio, Carla, Laura A. Myerson, and 
Julie Denslow, 2001. Exotic Species and Conservation, in Conservation 
Biology: Research Priorities for the Next Decade. M.E. Soule and G.H. 
Orians, eds. Washington, D.C.: Island Press, pp. 59-80.
---------------------------------------------------------------------------
A Larger Vision: Where We Need to Keep Working
    In all of the areas above, UCS sees many positive sides to these 
bills and we will work hard to ensure they are passed. At the same 
time, we fear that they miss some key opportunities. Not everyone 
agrees with us and we welcome even incremental steps. Over the longer 
term, though, we believe the Nation's resources deserve stricter 
protection.
    From discussions of voluntary measures in the nursery and aquarium 
industries to the willingness of shippers to change their ballasting 
practices--all trends point in one direction. Governments, industries, 
and individuals are taking greater care to limit their movements of 
damaging species around the world. We are certain that, eventually, all 
intentionally introduced organisms will be effectively screened for 
invasiveness before import--with the most invasive or potentially 
invasive kept out. We would like to see that time come as soon as 
possible. And we would like it to be with the least possible number of 
exemptions for organisms now in trade. This last includes aquatic 
species in the live food trade--which brought the northern snakehead to 
Maryland this summer.
    Also, we hope that federal standards for screening or for treating 
ballast water do not represent ``a race to the bottom.'' We need 
federal standards that are at least consistent with the most 
comprehensive approaches taken at the state level.
    While we are not generally sympathetic to calls for delay, neither 
are we advocates for unfunded congressional mandates. Eventually we 
must have formal provisions for generating sufficient revenue to ensure 
adequate funding not just for the new work we are discussing today, but 
also to undertake more ambitious efforts, e.g., to screen organisms 
prior to import.
These Bills' Passage: in the First One Hundred Days
    What were once piecemeal efforts to alleviate local weed or pest 
problems have coalesced into a national strategy. This is largely 
because we have come to understand that nearby weeds and pests are just 
the local face of a global problem. As this problem grows, so must our 
efforts to halt it. From that standpoint, we know we will need to 
update these bills in another five years, incorporating the newest 
scientific information and most recent evaluations of our efforts. But 
today we can make the long overdue changes and urgently needed 
improvements contained in H.R. 5396 and H.R. 5395.
    The Union of Concerned Scientists is committed to taking these and 
other steps as soon as possible. More than 2,500 UCS members and 
activists--representing every state in the Union--have already faxed, 
emailed, or written their congressional delegations about this 
reauthorization. They asked that reauthorization happen quickly and 
that what was the National Invasive Species Act be broadened and 
strengthened at the same time. To us, this seems like remarkable and 
substantial interest in a highly specialized topic with limited public 
engagement.
    Zebra mussels, nutria, and the seaweed caulerpa have not halted 
their spread for our elections. Therefore we hope that either this 
Congress passes these bills now or that the new Congress will pass them 
in its first 100 days. We look forward to helping you make that happen.
A Final Parable
        I first testified regarding invasive species in 1993 for what 
        was then the House Merchant Marine and Fisheries Committee. I 
        represented a congressional research agency at the time and the 
        Subcommittee specifically asked me to address the risks posed 
        by the proposed import of the Asian black carp. <SUP>7</SUP> It 
        was clear from my quick reading of the scientific literature 
        that this species posed a substantial risk to the nation's 
        aquatic resources. Addition to the Lacey Act's list of 
        prohibited species would have been a logical step. That was 
        1993. This fish is still not listed on the Lacey Act. On 
        September 30, 2002, almost exactly nine years later, the 
        official public comment period ended for the Fish and Wildlife 
        Service's proposal to make this fish subject to the Lacey Act. 
        Is there anyone here who believes that ten years is a timely or 
        adequate response to the dangers posed by a particular invasive 
        species? I ask you to remember this example as we consider how 
        quickly H.R. 5396 and H.R. 5365 should turn the wheels of 
        government.
---------------------------------------------------------------------------
    \7\ Mylopharyngodon piceus
---------------------------------------------------------------------------
                                 ______
                                 
    [An attachment to Dr. Windle's statement follows:]

   Priorities for Invasive Species Research from Three Expert Groups

  Group I. ``Specific Recommendations on Research.'' Source: National 
  Council for Science and the Environment. 2001. Recommendations for 
 Improving the Scientific Basis for Decisionmaking. A Report from the 
  first National Conference on Science, Policy, and the Environment. 

                        Washington, D.C., p. 15.

    1. In order to inform rapid response capabilities and long-term 
management needs, the federal government should support existing 
programs and establish new programs to quantitatively assess ecosystems 
before, during, and after biological invasions.
    2. Research to identify invasive pathogens and vectors needs to be 
expanded, as does research on the taxonomy, systematics, and 
technologies needed to detect and respond rapidly to invasions of these 
organisms.
    3. Research and development on methods and technologies of control 
and elimination needs to be increased, with specific emphasis on 
finding solutions that are environmentally sound.
    4. To better inform economic and policy decisions, there is a 
significant need to continue existing research and initiate new 
research to:
        <bullet> Determine the vulnerability of ecosystems to invasion 
        and the role and effects of multiple stress factors;
        <bullet> Understand the human dimensions (causes and 
        consequences) of invasive species
        <bullet> Determine the ways and degrees in which invasive 
        species disrupt ecosystem services;
        <bullet> Identify:
          <bullet> The industries and other social forces responsible 
        for facilitating the major pathways on invasion;
          <bullet> The actions (scientific, technological, policy, 
        etc.) through which they can minimize invasion;
          <bullet> The ways to inform them of these options;
          <bullet> How to use voluntary incentives and/or policy 
        measures to ensure effective response.''
  Group II. ``Research Questions About [Intentional] Introductions.'' 
 Source: Ewel, J.J. et al. 1999. Deliberate introductions of species: 
        research needs. BioScience, vol 49, no. 8, pp. 619-630.
    Several research questions need to be answered to help ensure that 
proposed introductions are done wisely and safely.
Guarding against risks without sacrificing benefits:
    <bullet> How can the potential benefits and costs of introductions 
best be evaluated in economic, environmental, and social terms?
    <bullet> Should all introductions be regulated?
    <bullet> How different must organisms or recipient ecosystems be 
from those assessed previously to warrant independent assessment?
    <bullet> When is it appropriate to assess and regulate taxa other 
than species?
    <bullet> What are appropriate ecological and political boundaries 
for regulation?
Alternatives to introductions:
    <bullet> How and when can indigenous organisms be domesticated so 
that they can substitute for proposed uses of nonindigenous organisms?
    <bullet> How can the retention of indigenous species and natural 
food webs be integrated into agroecosystems so that the risk of pest 
problems is minimized?
Purposeful introductions:
    <bullet> What common guidelines can be developed for deliberate 
introductions of all kinds of organisms?
    <bullet> Have screening procedures differed for introductions that 
proved successful or harmful?
    <bullet> How can the potential for nonindigenous organisms to 
disrupt ecosystem processes be assessed and reduced?
    <bullet> Can the demand for introductions be reduced by improving 
the effectiveness of introductions that are attempted?
Reducing negative impacts:
    <bullet> When can reduction of human-caused disturbance within 
natural areas be used to control nonindigenous species impacts?
    <bullet> Can subtle, indirect effects of potential introductions 
be predicted?
    <bullet> Can enough be learned from the population growth lags, 
booms, and crashes of previously introduced organisms to make useful 
generalization?
    <bullet> Should special guidelines accompany release of sterile 
forms, which may pose less risk than fertile organisms?
    <bullet> Can protocols be developed to predict when an introduced 
species will hybridize with natives and what the ecological and 
economic consequences of such hybridization might be?
    <bullet> Should special guidelines related to invasion and 
hybridization potential be added to those that already regulate release 
of genetically engineered organisms?
 Group III. ``Research Priorities for Invasive, Non-Native Species and 
   Their Potential Impacts on Natural Populations and Communities of 
  Ecosystems. Source: Source: D Antonio, Carla, Laura A. Myerson, and 
 Julie Denslow, 2001. Exotic Species and Conservation, in Conservation 
 Biology: Research Priorities for the Next Decade. M.E. Soule and G.H. 
        Orians, eds. Washington, D.C.: Island Press, pp. 59-80.
    Note: A question mark (?) indicates a top research question. An 
asterisk (*) indicates a research priority that needs an answer within 
next ten years, or it will be too late for many species or natural 
communities.
Investigate Pathways of Introduction:
     *1. What are the critical pathways of introduction of new 
species, and how do they differ in contributing harmful nonindigenous 
species? For example:
         *<bullet> Introduced plant pathogens can have devastating 
        consequences for entire ecosystems. What are the most important 
        pathways for their arrival, and how do they subsequently 
        spread?
         *<bullet> Introduced insects may also strongly affect 
        forested ecosystems and may carry pathogens. What are the most 
        common pathways for harmful nonindigenous insect species to 
        arrive in new locales, and how does the likelihood of their 
        successful establishment scale with volume of trade?
    *?2. What are acceptable levels of risk of entry of known 
potential invaders, how well do protocols established to prevent 
accidental introductions really work and how can protocols be improved?
      3. How do minimum viable population sizes of invaders vary among 
species, ecosystems, and establishment circumstances? Are there useful 
generalizations to be made here that might help development of 
monitoring and screening strategies?
    *?4. Under what circumstances do intentional introductions for 
commercial purposes contribute to the introduction and spread of 
harmful invasive species? Can we develop reliable risk assessment 
protocols to screen intentional introduction for potential invaders, 
particularly harmful ones?
Investigate the Process of Invasion and Spread
      1. What traits characterize species with high potential for 
rapid spread beyond their site of introduction?
      2. What are the characteristics of natural communities that 
affect their resistance to invasion? How does propagule pressure 
interact with resistance, and under what circumstances can we expect 
propagule pressure to overwhelm resistance?
     ?3. How will the spread of non-native species be affected by 
other global changes, such as chemical pollution, climate change, 
altered disturbance regimes, and alteration of biogeochemical cycles? 
For example:
          <bullet> Will nitrogen deposition increase rates of plant 
        invasions by favoring fast-growing non-native species?
          <bullet> Will changes in storm frequencies and intensities 
        affect the persistence of native populations and potentially 
        favor disturbance-loving exotic species?
          <bullet> Will increasing environmental stresses such as air- 
        or water-borne pollutants make native species more susceptible 
        to introduced diseases?
     *4. Why are tropical ecosystems less invaded by nonindigenous 
species than their temperate counterparts? Will increasing 
fragmentation of tropical habitats and propagule pressure from exotic 
species alter this pattern?
      5. What is the relationship between neighborhood-scale species 
interactions that affect invader success and landscape-level patterns 
of invasion and impact?
     ?6. Why are there often long time lags between establishment and 
the explosive growth and spread of introduced populations? Are there 
commonalities among species in their invasion patterns relative to the 
occurrence of time lags?
      7. How does genetic diversity influence rates or patterns of 
invasion?
     *8. How do human activities and cultural patterns-e.g., road 
construction, land-use patterns, traditional uses of plants, and 
visitation to reserves affect the introductions and spread of invasive 
species?
Assess Impacts
    *?1. What is the potential for introgression of introduced genes 
to native species, and under what circumstances is this likely to cause 
a change (either positive or negative) in fitness (and hence ecological 
performance)? How does the likelihood of such introgression vary among 
mating systems and life history characteristics of introduces taxa?
      2. What traits of exotic species increase the danger of genetic 
threats to native species? What ecosystem characteristics are 
associated with high rates of genetic introgression?
      3. Which species traits (or combinations thereof) are most 
likely to threaten local persistence of native species or create 
difficult-to-reverse impacts on ecosystem processes?
      4. Does the arrival and establishment of one or a few non-native 
species influence the establishment of further alien species?
     ?5. How can knowledge of species traits be overlain or interfaced 
with ecosystem traits to predict species impact?
      6. What kinds of higher-order effects-e.g., on other trophic 
levels or on community processes-are associated with interspecific 
interactions involving introduced species?
      7. How do species richness, functional diversity, and trophic 
complexity influence the impact of an invader?
     ?8. Under what circumstances are impacts of an invasive species 
likely to be reversible? Are ecosystem effects longer lasting or 
farther reaching than competition or predation effects? Are impacts due 
to competition or predation more likely to cause population declines or 
extinction among native species?
Consider Genetically Modified Organisms
     *1. Under what circumstances might GMOs or their genes be able to 
spread beyond points of introduction?
     *2. Under what circumstances might the spread of GMOs or their 
genes into wildland habitat pose a threat for native species or 
ecosystem structure and function?
     *3. What criteria are needed to develop protocols for release and 
risk assessment associated with GMOs?
Study Control, Restoration, and Their Interactions
     *1. How do we develop priorities for exotic species removal, 
control, or use?
      2. Under what circumstances does control or removal of an 
invasive species lead to a less desirable condition?
      3. Under what circumstances is the introduction of exotic 
species warranted for restoration or for biological control of invasive 
non-native species?
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Windle.
    We have some in-House work; that is why they are calling 
us. But I think we have a little time to proceed with some 
questions for the panel.
    Vern or Judy, if you need to go, I can yield to you first 
if you have any questions for the panel.
    Mr. Ehlers. I will try to be brief on this one. It is for 
Ms. Cangelosi and Dr. Mann.
    Both of you support the interim standard for ballast water 
treatment in your testimony, but you differ on what the 
standard should look like. Dr. Mann, if I understand you right, 
you believe the interim standard set by this bill must provide 
specific targets and not percentage reductions. And Ms. 
Cangelosi, you support the 95 percent reduction standard in 
H.R. 5396.
    I just wonder if both of you could briefly and succinctly 
describe the pros and cons of these approaches and why you have 
different positions.
    Ms. Cangelosi. Thank you, Mr. Ehlers.
    The fact is in terms of my outlook on it, I do not believe 
that they are mutually exclusive. The question is more on what 
do we base the interim standard, and in statute now, although 
it has not been implemented, that parameter is equivalence to 
ballast water exchange.
    So 95 percent is a known way of characterizing or 
benchmarking ballast water exchange effectiveness, because that 
is measured in terms of the efficiency of volumetric exchange.
    I think Dr. Mann and I would both tend to agree that if we 
needed to set a size limit that might capture 95 percent of the 
zooplankton, it could well be around 50 microns, and that could 
well be a great way to operationalize a statutory direction to 
use 95 percent as a benchmark.
    If it is disengaged from 95 percent, however, that leaves 
the floor open for people to nominate different sizes, and I am 
one of the advisors to the IMO delegation, and I watched that 
happen in London in September, and where they came out was 100 
microns because that seems more technologically achievable.
    The fact is that 100 microns might preclude 60 percent of 
the zooplankton, and therefore, without the 95 percent, we are 
left with little reason to demand the equivalency.
    So my concern is more about what is appropriate to statute 
versus what is appropriate to operationalizing that statute.
    Thank you.
    Mr. Ehlers. Dr. Mann?
    Dr. Mann. In general, I think we have good agreement 
between our approaches. My concern with the 95 percent number, 
as with any dilution, is that if you do not know where you 
started, how do you know where you are going to end.
    If I fill up my ballast tank in Saint Croix or in Guam, and 
then I have to reduce it 95 percent, I get a number. If I fill 
it up in Bramerhaven or Lagos, and I reduce it by 95 percent, I 
get a very different number.
    From the point of view of looking at how we have set 
standards in the past for such things as drinking water, 
effluents that I am more familiar with and things that I have 
dealt with over my years, a number is a good tool to look for. 
I understand that at this point in time, operationally, a 
number is difficult. Ninety-five percent is a great place to 
start--do not get me wrong--95 percent is a great place to 
start. But if I am looking around at the private sector where 
individuals are trying to develop treatment technology, really, 
if you give them a number, they are a lot better off. Engineers 
function better when you point them at numbers rather than when 
you point them at percentages.
    If you are going to have these engineers be part of teams 
that are investing considerable amounts of private capital with 
the idea of eventually enjoining the shipping industry and 
accepting this as a suitable application, I think you have to 
give them a standard to start with fairly quickly. Otherwise, 
they are proverbially shooting in the dark.
    I think that the 50 micron one that I have chosen, if you 
look across the vast range of invertebrates, vertebrates, 
fishes, whatever, and you try to pick a number that will 
capture the vast number of their life history stages--and 
typically, you choose eggs, because they are the smallest; 
fertilized eggs are the smallest smoking gun that you have in 
this equation--if you can capture all of those, you are in good 
shape.
    So 50 microns was my choice. I notice that it has actually 
been brought up by others who have sat at this table, and as an 
exercise when I received this copy of this bill last week, I 
gave it to my graduate student class with two questions--what 
is wrong with the bill, and how would you fix it?
    The graduate student class who had never seen this before 
said: Percentages are a problem. Why don't we use 50 microns?
    So I am not at all against 95 percent. I would like us to 
start to move to a number, because I think it will truly 
accelerate the rate at which alternate treatment technologies 
can be developed.
    Mr. Ehlers. And would you agree or disagree with the Coast 
Guard's statement that the provisions in the bill are neither 
enforceable nor scientifically supportable?
    Dr. Mann. I think that is a matter of looking at the 
technologies as to how you want to develop them. If I were 
asked to go and look at a ship that had a 50 micron limit on 
it, and this thing is sitting outside Hampton Roads, and I have 
5 or 6 hours to look at it and, say, test the water in the 
ballast tank--if you take samples of water out of the ballast 
tank, and you pour it through a 50 micron mesh--and these are 
commercially available--there are things called vital stains. 
Vital stains are very easy to use. You drop them on living 
organisms--typically, the one that we use is a stain called 
``neutral red''--if it is live, it stains red; if it is dead, 
it does not stain. You take your plankton, you pour it onto a 
50 micron mesh, you stain it, you look at it under a 
microscope. If there is red stuff under there, it is live; if 
there is no red stuff, it is all dead.
    I think from a point of view here--and I would like to 
complement something that Greg Ruiz said here--there is a true 
diversity of expertise that we need to bring together like a 
jigsaw puzzle to make this work. I think a lot of it is sitting 
in this room or certainly in the first generation of 
individuals whom we can touch outside this room.
    I do not think it is that difficult to do this. We have not 
quite asked ourselves how do we do it. But I think these things 
are enforceable if you are going to use size limits.
    Mr. Ehlers. Thank you very much.
    Mr. Gilchrest. Thank you, Vern.
    To follow up on Vern's questions, we are looking--I guess 
this panel, and I suppose the previous panel, all agree that 
standards need to be set, and it sounded like they said and you 
are saying that a size standard is better than a percentage 
standard.
    So I have two questions. One is can we have a size standard 
in the interim, before the final standard is promulgated, 
whenever that is; and if we use 50 microns, do we have the 
technology--Dr. Mann, you just seemed to describe that we have 
the technology right now to use a size standard--which would be 
better for an interim--a percentage or a size standard--and if 
we did use a size standard, what would 50 microns miss, or are 
we looking for just 50 microns?
    Ms. Cangelosi. Thank you.
    The interim standard is a tiding-over period for the final 
standard, which in the legislation can be promulgated as soon 
as 4 years after the enactment of the Act, while the interim 
standard is promulgated 18 months after the enactment of the 
Act.
    I believe that these questions of what will it take to 
protect the environment are relevant to the final standard 
because everyone will need to meet the final standard.
    Mr. Gilchrest. So you are saying the final standard should 
be a size standard?
    Ms. Cangelosi. I think that would definitely be the way to 
go.
    Mr. Gilchrest. But a percentage standard is all right now, 
though, in the interim?
    Ms. Cangelosi. Yes.
    Mr. Gilchrest. Because it would be easier?
    Ms. Cangelosi. In the interim period, I rather doubt that 
we are going to have extensive use of the standard--hopefully, 
more than we have right now--but most ships will still use 
ballast water exchange. And that gets to the question of 
technological achievability. That is not relevant to the 
interim period, either, because treatment is simply an option. 
A ship may do ballast water exchange, or if it wants to and can 
meet that baseline level that ballast water exchange affords, 
it can substitute a treatment.
    So we hope that it will be reaching, that it will be a 
standard that will cause the industry that creates treatments 
to reach, and therefore I think 95 percent, which might have an 
equivalence to 50 microns, is a good place to start.
    Thank you.
    Mr. Gilchrest. Thank you.
    Dr. Mann?
    Dr. Mann. I think that the 95 percent is a good place to 
start with the interim. You have some stiff deadlines here, 
lots of them all stacked up--
    Mr. Gilchrest. Do you think the deadlines are practical, 
that they are meetable, doable?
    Dr. Mann. That is a difficult question because I know very 
little about the practicality of operating the shipping 
industry. I am not trying to duck the question; it is a very 
good question.
    Mr. Gilchrest. Outside the shipping industry, the 
technology could be developed, available?
    Dr. Mann. I think if you are looking for the technology 
that is going to get you to a final standard, which I also 
think should be a size standard, in 4 to 5 years, from what I 
know of it, yes, I think there are some good people who can do 
that.
    There are options for review here. In terms of the interim 
standards for the 18 months, 95 percent is a great place to 
start.
    Mr. Gilchrest. Now, the size standard which can be 
developed in a few years, as we pass through the interim 
standard, are the treatment technologies--ultraviolet 
radiation, ozone disinfecting, mechanical filtration, 
deoxygenation using nitrogen, gas purging or vacuum degassing--
are those technologies that are on the cusp of being developed, 
available, so that you would not have--I am assuming if you use 
these technologies, you do not need ballast water exchange.
    Dr. Mann. All of these are intended to avoid the need for 
ballast water exchange. They are all proprietary technologies, 
and the developers of them will only share so much of the 
information because they are all in competition with one 
another.
    None of them is perfect, and I think that even in 4 years, 
none of them is going to be perfect, but I think they will be 
very good at hitting certain of these size ranges, and that is 
part of the problem with the way in which we look at sizes 
versus 95 percent reductions. I have given you an example where 
I think you could hit 95 percent or 100 percent of three of 
your target areas. Phytoplankton includes a very large number 
of very small organisms, and there is a good chance that 
phytoplankton will go through most if not all of these.
    Mr. Gilchrest. How about the toxic dinoflagellates that you 
mentioned in your testimony?
    Dr. Mann. Toxic dinoflagellates are just a remarkable 
challenge. This group of organisms have complicated life 
cycles, they have more than one stage in their life cycle, and 
included in these are cysts, and these cysts are designed over 
evolutionary time to sit in the sediment under just awful 
conditions for long periods of time until just the right 
conditions for initiation of a bloom occur.
    So if you can find something that is going to take out the 
toxic dinoflagellates, you have a remarkable technology. The 
toxic dinoflagellates, I think we are still a way from getting 
to that. I think some of these other technologies have much 
greater promise in shorter time period to getting to some of 
the organisms that are bigger.
    So you have a multiple number of moving targets here with 
different technologies that probably work better with some than 
the other. All of them have prospects for a spectrum. I do not 
know at this point in time that any of them have the prospect 
to take out everything, and that is part of the problem.
    Mr. Gilchrest. Thank you.
    Ms. Cangelosi. If I may add that we are also looking at 
very different subject vessels between a passenger vessel, a 
container ship, a seaway-size cargo carrier, and then an oil 
tanker and transoceanic bulk cargo carriers, and the list goes 
on. The legislation very wisely applies the best available 
technology, economically achievable, by class of ship and by 
age of ship, quite clearly, and the shipping industry is very 
willing to make this statement. Putting technologies onto a new 
ship at the drawing table stage is much more feasible and 
economically achievable right now than a retrofit is for many 
classes of ships.
    So the bill, I think, accommodates to the very diverse 
range of subject vessels and will drive technology, just the 
private sector's interest to be the one ahead to develop the 
methods for those different classes of ships that will approach 
the goal.
    Mr. Gilchrest. I see. Did the IMO adopt a 100 micron size?
    Ms. Cangelosi. No, it did not. It was at the urging of the 
U.S., appropriately--
    Mr. Gilchrest. That they did not.
    Ms. Cangelosi. --that the final standard was set as a size-
based standard. The interim standard has bifurcated two 
possibilities right now--95 percent or a size to be defined. 
The U.S. position was not to define that size in September, but 
they did at 100 microns as a proposed size.
    Mr. Gilchrest. I would assume that if the U.S. adopts a 50 
micron size in the next few years, that the IMO will adopt that 
micron size--at least for their ships coming to our port.
    Ms. Cangelosi. It certainly would detract from the 
effectiveness of an international agreement if the U.S. could 
not sign onto it. I do not believe the U.S. group has a 
position on 100 microns, but I know that they were not 
initially favorable toward it.
    Mr. Gilchrest. I would assume that whatever standard we 
have--and I hope that would be the best standard--the 
international maritime community wanting to trade with us would 
have to meet that standard, so then the standard would be set 
for the international community.
    You were saying that the interim standard is enforceable, 
the 95 percent standard, and someone on the other panel said it 
would be difficult to enforce. Could you give us some idea of 
why the interim standard of 95 percent is enforceable when the 
Coast Guard thinks it might not be enforceable?
    Ms. Cangelosi. I think the difference is that the Coast 
Guard is thinking of the long-term standard, and in the case of 
the long-term standard, we definitely want to just take samples 
of discharge.
    In a short-term period, if they can rely on Congress to 
assure that that final standard goes into place--and we are 
just talking about an interim period--actually, the way that 
they currently approve technologies in the maritime area is 
through a type approval process that occurs either apart from 
the vessel or on the vessel, but it is a before-and-after study 
that is done in a discrete period of time, and if it shows the 
appropriate level of effectiveness, the assumption is made that 
as long as that technology, that system, is working 
effectively, it is good to go, and the ship is approved. Then 
they just do proxy measures on the ship to make sure that the 
red light and the green light are coming on at the right times.
    I do not think that that is the right way to go in the long 
term. I think we need to take discharge samples. But in the 
short term, it is probably what we are looking at, and in that 
case, 95 percent lends itself very well.
    Mr. Gilchrest. Thank you.
    Dr. Chavarria--and I will have to go with my other 
colleagues, and I apologize for the quick ending of this 
portion of the hearing--but Dr. Chavarria, do you have any 
comment--I cannot read the handwriting of the staff here--that 
is a problem we have; they need a little bit more--maybe they 
should type it out--terrestrial plants. Do you see--what is the 
question, John? Is it harder to control aquatic species as 
opposed to terrestrial species?
    Dr. Chavarria. No. I think I would put them in the same 
category, completely in the same category. In a way, you might 
think it is easier to deal with terrestrial plants because of 
the fact of movement; with aquatic species, the water moves a 
lot of these species. But in the long term, we have seen, for 
example, with giant salvinia or water hyacinth that these 
plants have taken over a lot of places.
    Mr. Gilchrest. Thank you.
    Dr. Windle, do you have any further comment on the 
discussion that we have been having?
    Dr. Windle. I guess I would say that in the aquatic 
habitats, I suspect that there are fewer pesticides that are 
registered for use than against terrestrial organisms, so we 
may have a narrower toolkit to work with. But I think we are 
all encouraged in the last few years about the successful 
control programs that have happened and the successes in a few 
instances of eradication and looking forward to that 
continuing.
    Mr. Gilchrest. The last question--in an ideal world--I 
guess we are all shooting for the ideal, the best protection--
should the U.S. stop importing all exotic species for 
recreational purposes, pet purposes, bate purposes--you name 
it--just say that is it, we are not going to bring in any more 
invasive species--so we will not have any problems in Crofton 
with snakeheads or whatever?
    Is there any comment? I see some heads nodding in the 
audience, saying yes, that is a good idea--I do not know if 
they are on your staff or not.
    Dr. Windle. I guess I would say no, of course not. We rely 
too much on nonindigenous germplasm and other non-native 
species that are completely safe in terms of being noninvasive 
as well. So for American agriculture, which is based almost 
exclusively on non-native organisms, and for our gardens and 
for our pets, I think the overwhelming majority of the 
organisms that we introduce are safe, but we just must be much 
more careful about the ones that we do import.
    Mr. Gilchrest. So we should aggressively pursue things like 
the snakehead fish and Vietnamese worms?
    Dr. Windle. Yes--and aggressively pursue the process of 
assessing them and screening them before we bring them in.
    Thank you.
    Mr. Gilchrest. Thank you.
    Ms. Cangelosi?
    Ms. Cangelosi. Thank you. We definitely want to stop or 
otherwise restrict the importation of invasive organisms. The 
trick is determining which of the non-native are invasive and 
which ones are not, and that is indeed a big trick. But I am 
glad that the legislation gets the agency started to develop a 
protocol for attempting to do that and for reviewing and 
revising it as we learn more.
    Mr. Gilchrest. Thank you.
    Thank you all very much. Your testimony has been very 
valuable.
    Dr. Mann, were you going to leave that Oriental snail here?
    Dr. Mann. Yes, sir.
    Mr. Gilchrest. I will come down and get it.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 12:30 p.m., the joint hearing was 
concluded.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
